<html>
<title> - IDENTIFYING BARRIERS TO INDIAN HOUSING DEVELOPMENT AND FINDING SOLUTIONS</title>
<body><pre>[Senate Hearing 113-5]
[From the U.S. Government Publishing Office]


                                                          S. Hrg. 113-5

 
    IDENTIFYING BARRIERS TO INDIAN HOUSING DEVELOPMENT AND FINDING 
                               SOLUTIONS 

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 10, 2013

                               __________

         Printed for the use of the Committee on Indian Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

80-495 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
   Office Internet: bookstore.gpo.gov Phone: toll free (800) 512-1800; 
          DC area (202) 512-1800 Fax: (202) 512-214 Mail: Stop IDCC, 
                      Washington, DC 20402-0001



                      COMMITTEE ON INDIAN AFFAIRS

                 MARIA CANTWELL, Washington, Chairwoman
                 JOHN BARRASSO, Wyoming, Vice Chairman
TIM JOHNSON, South Dakota            JOHN McCAIN, Arizona
JON TESTER, Montana                  LISA MURKOWSKI, Alaska
TOM UDALL, New Mexico                JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                MIKE CRAPO, Idaho
MARK BEGICH, Alaska                  DEB FISCHER, Nebraska
BRIAN SCHATZ, Hawaii
HEIDI HEITKAMP, North Dakota
        Mary J. Pavel, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 10, 2013...................................     1
Statement of Senator Barrasso....................................     2
Statement of Senator Cantwell....................................     1
Statement of Senator Franken.....................................     9
Statement of Senator Heitkamp....................................     9
Statement of Senator Johnson.....................................     8
Statement of Senator Murkowski...................................     5
Statement of Senator Schatz......................................     3
    Prepared statement...........................................     4
Statement of Senator Tester......................................     7

                               Witnesses

Boyd, Rodger J., Deputy Assistant Secretary, Office of Native 
  American Programs, Office of Public and Indian Housing, U.S. 
  Department of Housing and Urban Development....................    10
    Prepared statement...........................................    11
Bryan, Annette, Executive Director, Puyallup Nation Housing 
  Authority......................................................    23
    Prepared statement...........................................    24
Causley, Cheryl A., Chairwoman, National American Indian Housing 
  Council........................................................    16
    Prepared statement...........................................    17
Iron Cloud, Paul, CEO, Oglala Sioux (Lakota) Housing, Pine Ridge 
  Reservation....................................................    30
    Prepared statement...........................................    31
Sossamon, Russell, Executive Director, Choctaw Nation Housing 
  Authority......................................................    33
    Prepared statement...........................................    35

                                Appendix

Association of Alaska Housing Authorities, prepared statement....    53
Brooks, Hon. Paul, Chairman, Lumbee Tribe of North Carolina......    74
Cooper, Gary J., Executive Director, Housing Authority of the 
  Cherokee Nation................................................    69
Delgado, Hon. Ed, Chairman, Oneida Tribe of Indians of Wisconsin.    72
Hoopa Valley Tribe and Housing Authority, prepared statement.....    57
Loza, Moises, Executive Director, Housing Assistance Council, 
  prepared statement.............................................    56
Navajo Housing Authority, prepared statement.....................    63
Response to written questions submitted to Rodger J. Boyd by:
    Hon. John Barrasso...........................................    77
    Hon. Mark Begich.............................................    80
Response to written questions Submitted by Hon. John Barrasso to:
    Cheryl A. Causley............................................    82
    Russell Sossamon.............................................    86
Response to written questions submitted to Paul Iron Cloud by:...
    Hon. Maria Cantwell..........................................    76
     Hon. Tim Johnson............................................    77
Torres, Hon. Edward Paul, Governor, Pueblo of Isleta.............    75
Worl, Ricardo, President, Tlingit Haida Regional Housing 
  Authority (THRHA), prepared statement..........................    59
Zion, James W., Attorney and Jurisconsult, prepared statement....    60


    IDENTIFYING BARRIERS TO INDIAN HOUSING DEVELOPMENT AND FINDING 
                               SOLUTIONS

                              ----------                              


                       WEDNESDAY, APRIL 10, 2013


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:15 p.m. in room 
628, Dirksen Senate Office Building, Hon. Maria Cantwell, 
Chairwoman of the Committee, presiding.

           OPENING STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    The Chairwoman. The Senate Indian Affairs Committee will 
come to order.
    This is an oversight hearing on Identifying Barriers to 
Indian Housing Development and Finding Solutions. I want to 
thank all the witnesses for being here today and we look 
forward to hearing your testimony.
    This afternoon, as I said, the Committee is holding an 
oversight hearing on Indian housing. This is the Committee's 
first hearing of this session, so I am very much looking 
forward to working with all our committee members and Vice 
Chairman Barrasso, and addressing many issues that are 
important to tribal governments and will help improve the lives 
of Native Americans.
    One of these issues that we must address early this year is 
the Native American Housing Assistance Self-Determination Act, 
which expires in September of this year. Since this Act was 
implemented in 1998, 31,000 Indian families now live in newly-
constructed housing units and another 64,500 Indian families 
have been able to rehabilitate their homes through the Indian 
Housing Block Grant Program.
    Through the Section 184 Indian Home Loan Guarantee Program, 
18,000 loans have been guaranteed for a total of more than $2.9 
billion to tribal recipients. Despite this progress, the 
housing needs in Indian Country remain great. Currently, 
American Indians make up 8 percent of the Nation's homeless 
population, despite being only 1 percent of the general 
population.
    Nearly 64,000 American Indians live in overcrowded 
conditions, and nearly 25 percent live in housing units that 
have severe structural needs. So today's hearing is an 
important first step in identifying areas where housing 
programs are working well and determining where improvements 
can be made.
    The Committee will look at programs across the Federal 
agencies to see where processes can be streamlined and run more 
efficiently. As you can see, there are going to be some 
examples today on the construction of homes that can involve 
tribal governments and four different, separate Federal 
agencies.
    We also want to make sure that tribes have flexibility that 
they need to make sure that the improvement in these programs 
comes along with innovation and improving housing conditions. 
Recently, the Makah Tribe in Washington State announced that it 
was using a combination of its block grant funding and low-
income housing tax credits to develop 21 low-income housing 
units in Sail River Heights, a tribal housing development 
started by the Tribe in 2007.
    So we want to make sure that we are looking at what is 
needed in this reauthorization to ensure that all tribes and 
their members are provided safe and affordable housing, and 
that housing programs meet the needs of tribal members well 
into the future. Today we will hear from the Department of 
Housing and Urban Development's Office of Native Programs on 
their recommendations for what can be done legislatively to 
improve housing programs. We will also hear from National 
American Indian Housing Council, the largest tribal 
organization representing tribes and tribal housing entities. 
Finally, we will hear from three tribal housing directors from 
the Puyallup Tribe of Washington, and I want to specifically 
welcome them, and the Oglala Sioux Tribe and the Choctaw Tribe.
    These housing directors manage three different programs, 
and I am pleased that they are here today, because they are 
going to share a broad perspective of their experiences and 
recommendations for ways that the Committee can improve the 
housing programs in the reauthorization.
    Now I would like to ask the Vice Chairman, Senator 
Barrasso, if he has an opening statement.

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. I do, thank you very much, Madam 
Chairwoman, for holding this important hearing on Indian 
housing. The National American Indian Housing Council estimates 
that there is a need for about 250,000 new housing units 
throughout Indian Country. This is a significant need, but 
tribes have been working hard to address it. The Native 
American Housing Assistance and Self-Determination Act is up 
for reauthorization this year. I know that NAHASDA is one of 
the most effective Federal Indian programs, not perfect, but 
very succesful. The Department of Housing and Urban Development 
estimates that in the last 15 years alone, which is about as 
long as NAHASDA has been in effect, tribes have used this 
funding to build or acquire more than 31,000 affordable housing 
units and rehabilitate more than 64,500 units.
    I want to emphasize that this is housing primarily for low-
income Indian families. Much of this progress has been possible 
because NAHASDA is carried out 100 percent on the local level, 
by the tribes themselves, as opposed to by the Federal 
Government. From the planning phase to implementation, home 
design and construction through management and ongoing 
maintenance, all carried out locally by the tribes.
    Of course, any program can be improved. So I hope to hear 
today from the witnesses on how this program can be made more 
effective and more efficient. In the past, a major bottleneck 
in the housing development process has been land leasing. That 
is why this past Congress I introduced Senate Bill 703, known 
as the HEARTH Act. The nearly identical House version of the 
HEARTH Act was signed into law last July. The law allows tribes 
to bypass Secretarial approval for leases, rendering NEPA 
inapplicable to the land leasing process. Instead, the tribes 
use their own environmental review process. So I anticipate 
that the efficiencies of the HEARTH Act will significantly 
increase home ownership on tribal lands.
    I want to thank the witnesses for coming here today. I look 
forward to hearing the testimony. Thank you, Madam Chairwoman.
    The Chairwoman. Thank you, Mr. Vice Chairman.
    Do any other members have an opening statement? Senator 
Schatz.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Chairwoman Cantwell, and Vice 
Chair Barrasso.
    I want to thank the Chair for holding this important 
hearing today. I look forward to working with you and the Vice 
Chair and other members of the Committee with the same spirit 
of cooperation that characterized the work of two former Chairs 
and long-serving members from the State of Hawaii on this 
Committee: Senators Inouye and Akaka. While their decades of 
service to our Nation, the Congress and this Committee are 
unparalleled, I am committed to move forward their fight to 
ensure that the Federal Government upholds its trust 
responsibility to the indigenous people of what is now the 
United States of America.
    I am also determined to advance parity in Federal law and 
policy for Native Hawaiians. The Native Hawaiian people are the 
only federally-recognized Native people without a government-
to-government relationship with the Federal Government. This 
injustice must be addressed by the Congress.
    American Indians, Alaska Natives and Native Hawaiians face 
unique barriers to housing development, and their communities 
face the highest rates of national poverty. The Chair 
delineated some of those alarming statistics. While the 
national statistics are a stark reminder of existing housing 
disparities between Native and non-Native communities in the 
United States, the numbers for the State of Hawaii are even 
worse. A 2012 report on ``The State of Poverty in Hawaii'' 
noted that Hawaii has the third highest homelessness rate in 
the country. Native Hawaiians account for a far greater share 
of the homeless population than other groups.
    A recent study found that while Native Hawaiians make up 22 
percent of the population, they account for 48 to 59 percent of 
the residents in transitional shelters. According to a 2010 
report, Hawaiian families rank last in the Nation in average 
annual pay, while Hawaii's home ownership rate ranks 47th out 
of 50th. This, and a lack of affordable housing, 
disproportionately impacts Native Hawaiians who face the 
highest rates of inadequate housing, overcrowding and 
homelessness in the Nation.
    Just last month, the median sales price for a single family 
home on Oahu was $640,000. In 2011, HUD's published rates for a 
one-bedroom was $1,400, two-bedroom $1,700, and $2,500 for a 
three-bedroom. Given this startling reality, it is critical to 
sustain and strengthen the HUD housing assistance and loan 
guarantees that have been successful in helping Native Hawaiian 
families and so many American Indians and Alaska Native 
families gain access to much-needed housing.
    In Hawaii, I have witnessed the success of these HUD 
programs, how they have benefited Native Hawaiian communities 
and increased home ownership, improved living conditions and 
changed lives. I would like to thank Rodger Boyd for his 
participation today and for his many years managing the Office 
of Native American programs, including Native Hawaiian housing 
block grant and Native Hawaiian loan guarantee programs. I 
appreciate his many years of collaboration with Native 
Hawaiians and the Department of Hawaiian Home Lands, and look 
forward to working with him and Secretary Donovan to improve 
further housing conditions for Native Hawaiian families in my 
State.
    I also want to recognize Ms. Cheryl Causley, Chair of the 
National American Indian Housing Council, for her work to 
promote self-determination and support for making culturally 
relevant and quality affordable housing available to American 
Indians, Alaska Natives and Native Hawaiians. We will need 
concerted and collaborative efforts of the Administration and 
the Congress, Native leaders, tribes, tribal organizations, and 
housing authorities, and the advocacy of all stakeholders, 
including the Chair and Vice Chair, especially, to improve 
housing opportunities.
    Thank you, Chair.
    [The prepared statement of Senator Schatz follows:]

   Prepared Statement of Hon. Brian Schatz, U.S. Senator from Hawaii
    I want to thank the Chair for holding this important hearing today. 
I look forward to working with you, Senator Cantwell, and with Senator 
Barrasso, and the other members of the Committee, with the same spirit 
of cooperation that characterized the work of two former Chairs and 
long-serving members of this Committee: Senator Inouye and Senator 
Akaka.
    While their decades of service to our nation, the Congress and this 
Committee are unparalleled, I am committed to move forward their fight 
to ensure that the Federal Government upholds its trust responsibility 
to the indigenous people of what is now the United States of America.
    I am also determined to advance parity in federal law and policy 
for Native Hawaiians. The Native Hawaiian people are the only 
federally-recognized Native people without a government-to-government 
relationship with the Federal Government and this injustice must be 
addressed by the Congress.
    American Indians, Alaska Natives and Native Hawaiians face unique 
barriers to housing development and their communities face the highest 
rates of national poverty. The most recent data available from the 
Department of Housing and Urban Development, the Census Bureau, and the 
Government Accounting Office illustrate the widely disproportionate 
unmet needs of Native Americans:

  <bullet> Approximately 28 percent of reservation housing units lack 
        adequate plumbing and kitchen facilities, a rate five times 
        greater than the national average;

  <bullet> Nearly 46 percent of Native households are overcrowded, a 
        rate almost three times greater than the rest of the country; 
        and,

  <bullet> While Native Americans make up less than 1 percent of the 
        general population, they comprise 8 percent of the country's 
        homeless.

    While these national statistics are a stark reminder of existing 
housing disparities between Native and Non-Native communities in the 
United States, the numbers for the State of Hawaii are even worse. A 
2012 report on The State of Poverty in Hawaii, noted that Hawaii has 
the third highest homelessness rate in the country. Native Hawaiians 
account for a far greater share of the homeless population than other 
groups. A recent study found that while Native Hawaiians make up 22 
percent of the population they account for 48 percent to 59 percent of 
the residents in transitional shelters.
    According to a 2010 report, Hawaiian families rank last in the 
nation in average annual pay, while Hawaii's homeownership rate ranks 
47th out of 50. This, and a lack of affordable housing, 
disproportionately impact Native Hawaiians who face the highest rates 
of inadequate housing, overcrowding and homelessness in the nation. 
Just last month the median sales price of a single-family home in Oahu 
was $640,000. In 2011, HUD's published rates for the Fair Market 
Monthly Rent for Honolulu County was $1,396 for a 1-Bedroom, $1,702 for 
a 2-Bedroom and $2,470 for a 3-Bedroom.
    Given this startling reality, it is critical to sustain and 
strengthen the HUD housing assistance and loan guarantees that have 
been so successful in helping Native Hawaiian families and so many 
American Indians and Alaska Native families gain access to much needed 
housing. In Hawaii, I have witnessed the success of these HUD 
programs--how they have benefited Native Hawaiian communities, 
increased homeownership, improved living conditions, and changed lives.
    I would like to thank Mr. Rodger Boyd for his participation today 
and for his tenure managing the Office of Native American Programs, 
including the Native Hawaiian Housing Block Grant and Native Hawaiian 
Loan Guarantee programs. I appreciate his expertise and many years of 
work in Native Hawaiian communities and collaboration with the 
Department of Hawaiian Home Lands. I look forward to working with him 
and Secretary Donovan to improve further housing conditions for Native 
Hawaiian families in my State.
    I also want to recognize Ms. Cheryl Causely, Chair of the National 
American Indian Housing Council, for her work to promote and support 
self-determination, and culturally relevant, affordable, and quality 
housing for American Indians, Alaska Natives and Native Hawaiians.
    Thank you to all of the witness who traveled here to participate in 
this hearing. Your contributions will be important to the Committee as 
we move forward on Native American housing assistance reauthorization 
legislation.
    We will need the concerted efforts of the Administration, the 
Congress, Native leaders, tribes, tribal organizations and housing 
authorities, and the advocacy of all stakeholders, including the Chair 
and the Vice Chair, to sustain and improve housing opportunities, build 
stronger and more self-sufficient Native communities, and create a more 
vibrant national economy.
    Thank you.

    The Chairwoman. Thank you.
    Senator Murkowski?

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Madam Chairman, and to the 
Vice Chairman, thank you for the hearing this afternoon 
focusing on housing.
    I appreciate the attention that you are giving this in my 
State. Clearly in so many of those of us around the dais here, 
this remains a challenge. In parts of my State, it is an 
absolute crisis. We hate to use that word, unless it is truly 
that. I would like to take just a few minutes here to speak to 
some of the issues that we are facing in Alaska.
    First, I would like to make sure that the testimony of the 
Association of Alaska Housing Authorities is made part of the 
Committee record. I do understand that the Association supports 
the work of the National American Indian Housing Council in 
drafting the reauthorization. I understand it has been a long 
process in coming. But I would want to make sure that testimony 
is included.
    The situation in Alaska is a tough one. In nearly 200 of 
our rural communities, I think it is fair to call housing a 
crisis. And a crisis in housing means a crisis in the safety 
and the education and the health care of our Native families. 
In rural Alaska, we have multiple generations living in 
substandard, dilapidated housing. I think all of us could share 
similar stories.
    But when I use the word substandard, I have learned that 
the definition is different depending on where you are. One-
third, Madam Chairman, one-third of the homes in rural Alaska 
do not have a flush toilet, do not have running water. So when 
you talk about spread of disease, and you can't wash your 
hands, you are talking about not only a housing situation, but 
you are talking about a health care situation.
    For far too many families in our villages in these remote 
communities, the chore for the children is not just taking out 
the trash, it is taking out the human waste that is in a bucket 
in the corner. We call it a honey bucket. And the kids, part of 
their job is to haul that honey bucket down the boardwalk or, 
if they have a road, haul it down the road and dump it. That is 
part of what they do. We have talked for decades about retiring 
the honey buckets to the museums. I wish that I could say that 
we are there, but we are not yet there.
    I had no idea, coming to the United States Senate 10 years 
ago, that one of my proudest moments would be when I got a call 
from an elder in Buckland, Alaska, letting me know that, Lisa, 
I got my flush toilet today. For eight years we had been 
working to get Buckland hooked up to water and sewer. And it 
has been at incredible cost. But when you go into a community 
and you sit down in the gym bleachers, and you have a tiny 
Native woman just kind of whisper in your ear and say, Lisa, 
all I want before I die is a flush toilet, I don't think that 
is too much for me to be working on.
    So it has become an issue that, when I think about how we 
provide for the safety of our families, some of it is pretty 
basic stuff. Another area where we have some really very 
horrible statistics, and Madam Chairman, you helped lead on 
this issue just this past month, this is as it relates to 
domestic violence. Nearly one out of two women and one out of 
four men in Alaska have experienced physical or sexual violence 
in their lifetime. We have over a 100 communities without law 
enforcement. part of the problem in keeping law enforcement is 
we don't have housing for our law enforcement personnel. So how 
we are able to deal with that has been a critical challenge for 
us.
    Just last week, I was out in Bethel, Alaska, probably our 
fourth largest community in the State, major regional hub. 
Domestic violence issues that they deal with, but they have a 
very nice shelter, a really good shelter that we helped them 
get funding for. And they work with these women who come in 
from the villages, leaving their home, leaving the abuser. And 
they come into the shelter.
    But then, when they have healed and go to leave the 
shelter, there is no home for them. There is no housing in 
Bethel, there is no housing in their village. They can't afford 
to fly to Anchorage or to Fairbanks and to live there. So what 
they do is they go back to live with their abuser. So we have 
this cycle where we are not able to help these victims, because 
of the lack of housing.
    So when we think about housing, it is such, so much a 
bigger picture than just a physical structure over our heads. 
So Madam Chairman and Vice Chair, I thank you again for 
highlighting some of this. We need to do better. I know that we 
will. It is not just the structures, it is what we do with 
weatherization, it is what we do with rehabilitation of our 
homes. In some of our homes, we have families that are spending 
50 and 60 percent of their family income just to keep warm. We 
know that we can do more, we know that we do more to help these 
families who are paying more to keep their house heated on a 
monthly basis than they are paying for their mortgages.
    So when we talk about housing crisis in our Native 
communities, I think we need to remember that it is also a 
public safety crisis, a health care crisis, and we can do more. 
Thank you for your leadership and the leadership of so many who 
are working on these important issues. I appreciate it.
    The Chairwoman. Thank you, Senator.
    Senator Tester, did you want to make an opening statement?

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Yes, very quickly. And I want to thank you 
for holding this hearing on a very important issue, housing.
    Before I get to my testimony, though, I want to recognize 
someone sitting in the audience from Montana, Tom Acevedo, who 
is part of the management team of Salish and Kootenai 
Technologies, it is an Indian-owned company in Montana and 
really a bright light and a great example for other Indian-
owned companies in the State. Thanks for being here, Tom.
    Housing is important, there are no ifs, ands or buts about 
it. We need it for safety, we need it for happiness, we need it 
for health, we need it for employment. Unfortunately, way too 
many places in Indian Country the housing does not meet the 
needs that are out there.
    And in places like Montana and other places around the 
Country, they face geographic challenges, far, far away from 
towns, economic centers where they can really put some economic 
advantage as far as building houses. The statistics are 
startling and they are not fun. And I have seen this my whole 
life. In Rocky Boy Indian Reservation, it is 20 miles from my 
farm, housing has been something that has been a concern 
forever. We need to deal with it, we have dealt with it in a 
couple of ways, with the HEARTH Act that the Ranking Member 
talked about, critically important. Once this thing gets 
implemented, I think there are some good things that will come 
of it.
    And I think most of the folks in this room understand that 
the NAHASDA, the Native American Housing bill, will expire the 
end of September. Before then, and that is probably why the 
witnesses are here, and thank you for being here, we need to 
hear from you about what the challenges are on the ground. We 
need to know what to do to be able to improve that law, to make 
sure that we are doing the right thing from a policy level to 
empower you on the ground. That is why this panel is so 
important here today.
    I know money is going to be a big part of the discussion. 
Everybody can use more, there is never enough. In a perfect 
world, we would have all the money. But this isn't a perfect 
world that we live in. So I would ask you to realize, and I 
know you do, because you are at the front lines of 
sequestration, but realize that we need to figure out ways to 
do more with less. I need your help to do that. And this 
Committee needs your help to do that.
    There are a lot of states in this Country which do not have 
an Indian population, or don't at least have an Indian 
reservation, let's put it that way. We need to educate every 
member of Congress, we need to make every dollar count. We need 
to be able to streamline your programs so that they are easier 
for you to work with. We need to reduce administrative costs, 
we need to eliminate waste, fraud and abuse, all those good 
government things. And we need to identify the programs that 
can be cut and money can flow more to you for housing, because 
it does cost money to do.
    I just say thank you all for being here today. I look 
forward to your testimony. This is an important issue and 
hopefully we can find some solutions. Thank you all.
    The Chairwoman. Thank you. Senator Johnson?

                STATEMENT OF HON. TIM JOHNSON, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. Thank you, Chairwoman Cantwell, for 
holding this hearing on the housing crisis in Indian Country.
    I would like to welcome Paul Iron Cloud from Pine Ridge, 
South Dakota. Paul is Chief Executive Officer of the Oglala 
Sioux Lakota Housing Authority, serving the Pine Ridge Indian 
Reservation. Paul is a dear friend, and is a tireless advocate 
for Indian Country.
    As you know, Madam Chairwoman, this a very critical issue, 
especially in my home State of South Dakota. Statistics have 
repeatedly shined a light on, and I have seen first-hand the 
critical need for housing in Indian Country. As an original 
House co-sponsor of the Native American Housing Assistance and 
Self-Determination Act of 1996, I look forward to working with 
you, Madam Chair and colleagues, to reauthorize the program 
this year.
    It is also vital that we engage tribes and relevant 
agencies in this process. As chairman of the Committee on 
Banking, Housing and Urban Affairs, in last Congress I held two 
hearings addressing the dire state of Indian housing. In 2010, 
I chaired a joint Banking and Indian Affairs committee field 
hearing on Indian housing in Rapid City, South Dakota. HUD 
Secretary Donovan was able to see the immediate housing 
challenges on the Rosebud Sioux Reservation prior to our 
hearing.
    With a number of members overlapping on the Indian Affairs 
and Banking Committees, I look forward to our continued 
collaborative efforts to provide effective legislation for 
housing assistance. The testimony today will greatly help us in 
learning how we can improve housing for Indian Country.
    Thank you, Madam Chairwoman.
    The Chairwoman. Thank you. Are there any other statements 
by members? Senator Franken?

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. I want to associate myself with all the 
remarks I have heard thus far, and Senator Murkowski, you are 
so right that housing has to do with so much besides housing. I 
wrote a housing provision in the VAWA bill that I was very 
proud of, because you are so right, that a woman shouldn't have 
to decide between living with her abuser and living in a car, 
and her children shouldn't have to live with that, either. And 
you are so right about when we have had hearings about law 
enforcement, about how difficult it is to attract law 
enforcement, good law enforcement people, because of lack of 
housing. Same with teachers. And the same with doctors. Because 
there isn't the housing there.
    I don't want to get between us and the witnesses. I thank 
all the witnesses for being here today and I am eager to listen 
to your testimony. Thank you.
    The Chairwoman. Senator Heitkamp?

               STATEMENT OF HON. HEIDI HEITKAMP, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. Just quickly, we failed. You cannot look 
at the statistics of housing in Indian Country, certainly in my 
State, and not get an acute sense of failure. We have 
homelessness that far outstrips, even in my State, which we 
have a growing housing crisis, even in my State. And so I am 
very, very interested in your testimony.
    But I also would ask, Madam Chairwoman, if as we are 
talking and as we are thinking, if you can think about the 
other housing programs. I think way too often in Indian Country 
we think about that program that is NAHASDA, we think about the 
special program at the Small Business Administration or we 
think about the special Indian program, and we forget, we have 
first time homeowners, we have Section 8, we have all of the 
affordable housing programs that cities and counties and 
organizations across our boundaries are able to access. How are 
we using those programs?
    When I was attorney general in my State of North Dakota, I 
served on the board of directors for the housing finance 
agency. We tried for eight years to get a couple projects with 
first time homeowners on Indian Country. I would love to tell 
you that I was enormously successful, but I failed. I failed to 
make those programs accessible.
    So I am interested not only in what is happening right now 
with the programs that have been designated to encourage Indian 
housing, but how we haven't been able to access traditional 
affordable housing programs and how we haven't been able to 
leverage those programs.
    So I look forward to your testimony and look forward to 
having a dialogue after this opportunity. Thank you very much 
for bringing this very, very important issue to the forefront.
    The Chairwoman. Thank you, Senator.
    So we are going to work on this in the reauthorization, but 
let's hear from our witnesses. We are going to start with you, 
Mr Boyd, and go right down the line. We appreciate your 
submitting your written testimony, so you can sum up whatever 
you want to from that written testimony. We are asking people 
to keep within five minutes. You see a little clock there to 
help. We do want to get through everybody and we want to give 
members a chance to get questions.
    You certainly can be shorter if you want to be. We very, 
very much appreciate your being here and look forward to your 
testimony. Mr. Boyd, we will start with you.

         STATEMENT OF RODGER J. BOYD, DEPUTY ASSISTANT 
        SECRETARY, OFFICE OF NATIVE AMERICAN PROGRAMS, 
           OFFICE OF PUBLIC AND INDIAN HOUSING, U.S. 
          DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

    Mr. Boyd. Good afternoon, Chairwoman Cantwell, Vice 
Chairman Barrasso and Committee members.
    Before I start, I would like to commend and recognize my 
fellow panelists, many whom I have worked with in our 
respective communities and through negotiated rulemaking. I 
really commend their commitment and the hard work that they do 
within their committees, their communities and in working in 
partnership with HUD.
    This afternoon, I would like to talk about and focus on the 
Indian housing programs that provide the tools to us to work in 
this partnership with Indian tribes and to identify barriers 
and find solutions to further develop better affordable housing 
for Native Americans, Alaska Natives and Native Hawaiians. Our 
programs are available to 566 Federally-recognized tribes, 5 
State-recognized tribes and of course, the Department of 
Hawaiian Home Lands.
    From HUD's perspective, our Indian housing programs provide 
solutions to the barriers to Indian housing development. These 
programs have and are making great progress in providing 
housing opportunities to Native American families across the 
Country, because we do not take a one size fits all approach to 
Indian Country. Our programs provide the flexibility of our 
grant and loan recipients to design their housing programs 
based on their unique tribal housing and economic development 
needs. We continue to build upon this program by identifying 
new ways to work in partnership with tribes, and we work 
together to build better living environments in Native American 
communities through creating greater sustainable economic 
communities.
    We do administer a number of programs. The details of those 
programs are in my written testimony. In implementing these 
programs, the Department recognizes the right of tribal self-
governance and the unique relationship between the Federal 
Government and Indian tribes.
    One of the tools that we use, certainly, in working with 
tribes is negotiated rulemaking. HUD, in accordance with 
Section 106 of NAHASDA, has conducted negotiated rulemaking 
with tribes on three separate occasions and on both 
programmatic and formula issues. These sessions highlight and 
respect the government-to-government relationship that HUD has 
with these tribes. Using the collaborative approach, and a tool 
to overcome barriers in Indian housing development, HUD and the 
tribes have produced great results, bringing efficiencies to 
the program and resolving administrative challenges.
    The most recent negotiated rulemaking committee addressed 
the 2008 amendments to NAHASDA. The committee was composed of 
25 tribal representatives and two HUD representatives and 
achieved over a 90 percent consent rate on all issues. Many of 
the issues with NAHASDA were addressed, including the adoption 
of a provision to streamline guaranteed planning and reporting 
requirements while at the same time expanding upon quality and 
data collection.
    A main barrier to Indian housing development is accessing 
capital on reservations. HUD, in partnership with tribes, has 
attempted to overcome this barrier by providing assistance in 
building capacity for tribes to gain private capital through 
the sources such as low-income housing tax credits and Title 6 
within the program and Section 184, guaranteed loan program. A 
growing number of tribes are using these and other Federal and 
State tools to leverage private funding on reservations and 
tribal lands.
    Tribes are also looking beyond just individual housing 
units to expand the level of capital in their communities. More 
and more tribes and TDHEs are becoming strategic in their 
efforts to create sustainability in their economies and 
communities. As evidence to this, tribes have applied for and 
received HUD funding for sustainable planning and construction 
grants.
    In closing, HUD strongly supports reauthorization of 
NAHASDA, which authorizes the single largest source of Federal 
funding for housing in Indian Country. We have seen great 
strides and have seen many tribes under this legislation set 
great examples, not only for their communities but the other 
tribal communities throughout the United States.
    We look forward to working with the Committee and tribes to 
secure authorization this year. Thank you again, Chairwoman 
Cantwell and members of the Committee.
    [The prepared statement of Mr. Boyd follows:]

   Prepared Statement of Rodger J. Boyd, Deputy Assistant Secretary, 
    Office of Native American Programs, Office of Public and Indian 
       Housing, U.S. Department of Housing and Urban Development
Introduction
    Good Morning Chairwoman Cantwell, Vice Chairman Barrasso, and 
Members of the Committee. Thank you for inviting me to provide comments 
on how HUD's Indian housing, loan guarantee, and community development 
programs provide the tools for us to work in partnership with Indian 
tribes to identify barriers and find solutions to further the 
development and prosperity of Indian and Alaska Native communities.
    It is a pleasure to appear before you, and I would like to express 
HUD's appreciation for your continuing efforts to improve the housing 
conditions of American Indians, Alaska Natives, and Native Hawaiians.
    My name is Rodger Boyd, and I am Deputy Assistant Secretary for the 
Office of Native American Programs (ONAP) at HUD. ONAP is responsible 
for the management, operation, and oversight of HUD's Native American, 
Alaska Native and Native Hawaiian programs.
    These programs are available to 566 federally recognized Indian 
tribes; 5 state-recognized tribes, formerly eligible under the United 
State Housing Act of 1937; and the State of Hawaii's Department of 
Hawaiian Home Lands. We serve these entities directly, or through their 
tribally designated housing entities (TDHEs), by providing grants and 
loan guarantees designed to support affordable housing and community 
development activities, as well as identifying other HUD programs that 
our clients may access. Our partners are diverse; they are located on 
Indian reservations, in Alaska Native Villages, and on the Hawaiian 
home lands.
    From HUD's perspective, our Indian housing programs are making 
great progress in providing housing to Indian families across the 
country because we do not take a ``one-size-fits-all'' approach to 
Indian Country. Our programs provide the flexibility for our grant and 
loan recipients to tailor their housing programs to address their 
unique housing and economic development needs. We continue to build 
upon the programs by identifying new ways to work in partnership with 
tribes as we work together to help build a better living environment in 
Native American communities through creating sustainable tribal 
communities and tribal economies.
Housing Need in Indian Country
    To effectively administer Indian housing programs, it is vital to 
understand the current state of housing in Indian Country. In order to 
do so, HUD, through its office of Policy Development and Research, is 
developing a study on the extent of housing needs in Indian Country and 
for Native Hawaiians in Hawaii. The last comparable study was conducted 
in 1996.
Overview of Hud Native American and Native Hawaiian Programs
    Increasing homeownership and providing safe, culturally-appropriate 
housing in Indian Country is top priority. Our Native American housing 
and loan guarantee programs are the basis for accomplishing this within 
Indian Country.
    HUD administers four programs specifically targeted to American 
Indian and Alaska Native individuals and families:

  <bullet> The Indian Housing Block Grant program

  <bullet> The Federal Guarantees for Financing Tribal Housing 
        Activities, also known as the Title VI Loan Guarantee program

  <bullet> The Loan Guarantees for Indian Housing program, also known 
        as the Section 184 Loan Guarantee program, and the

  <bullet> Indian Community Development Block Grant program (ICDBG).

    In implementing these programs, the Department recognizes the right 
of tribal self-governance and the unique relationship between the 
Federal Government and tribal governments, established by long-standing 
treaties, court decisions, statutes, Executive Orders, and the United 
States Constitution. Each of the 566 federally recognized tribes has 
its own culture, traditions, and government. The Department strives to 
balance respect for these individual tribes with regulations and 
procedures that ensure accountability and consistency.
    HUD also administers two programs specifically targeted to Native 
Hawaiians eligible to reside on the Hawaiian home lands--the Native 
Hawaiian Housing Block Grant and the Native Hawaiian Loan Guarantee 
Program. The block grant program for Native Hawaiians is administered 
through the State of Hawaii's Department of Hawaiian Home Lands, and is 
augmented by the home loan guarantee program.
Indian Housing Block Grant (IHBG) Program
    The Native American Housing Assistance and Self-Determination Act 
of 1996, as amended, or NAHASDA, provides formula-based housing block 
grant assistance to Indian tribes or their tribally designated housing 
entities through the Indian Housing Block Grant Program (IHBG). Prior 
to NAHASDA, Indian housing authorities received funds under the 
authority of the United States Housing Act of 1937, as amended (1937 
Act).
    The IHBG is ONAP's largest program, both in terms of dollars 
appropriated and population served. Grants are awarded to eligible 
Indian tribes or their tribally designated housing entities (TDHE) for 
a range of affordable housing activities that primarily benefit low-
income Indian families living on Indian reservations or in other Indian 
service areas. The amount of each grant is based on a formula that 
considers local needs and the number of units developed with 1937 
Housing Act funding that are currently managed by the tribe or its 
tribally designated housing entity.
    The IHBG formula was developed by a negotiated rulemaking committee 
composed of representatives from HUD and from tribes across the 
country. Program regulations require that HUD periodically review the 
allocation formula with the consultation and involvement of the tribes. 
We are now in the process of reviewing nominations for the next formula 
negotiated rulemaking committee, and we expect to hold the first 
meeting this summer.
    The block grant approach offers each tribe the flexibility to 
design, implement, and administer unique, innovative housing programs, 
based on local need. Grantees have received more than $9.9 billion in 
16 years of funding (1998-2013), and with few exceptions, have been 
using the funds in a timely and effective manner. Overall, the IHBG 
program has a 94 percent expenditure rate.
    Under the Recovery Act of 2009, our recipients spent nearly 100 
percent of the $520 million received within the prescribed 3-year 
period. Recovery Act funds made possible the development of almost 
2,000 new affordable units, and more than 13,000 were substantially 
rehabilitated. Energy conservation enhancements made more than 2,300 
affordable units energy efficient.
    As of March 2013, IHBG recipients had built or acquired more than 
35,000 affordable housing units in Indian Country, and substantially 
rehabilitated more than 65,000 since the inception of the program in 
1998. IHBG recipients also currently maintain more than 52,000 ``HUD 
units'' that were funded before NAHASDA was enacted.
    Tribal recipients have been very innovative in their use of IHBG 
funds, particularly in the areas of energy efficiency and green 
projects. For example, the Ho-Chunk Housing Authority of Wisconsin has 
developed housing projects that include green, energy-efficiency 
enhancements, including super-insulation, passive-solar design, 
geothermal systems, and solar hot-water heaters.
    The Choctaw Housing Authority of Oklahoma has recently built 24 new 
units that are all Energy Star Certified.
    Just one year ago, the Tlingit-Haida Regional Housing Authority, in 
Juneau, Alaska, celebrated the Grand Opening of its Five Star Plus, 
energy efficient Saxman Senior Center. And the Ketchikan community, in 
southeast Alaska completed a 12-unit, condo-style building to house 
elders, which is the first building in that area to be certified LEED 
Silver.
    The Puyallup Tribe in Tacoma has 10 units of new affordable housing 
that is certified LEED Platinum.
    The Isleta Pueblo in New Mexico has used the innovative method of 
lava block construction to build 20 single-family homes. They realized 
a 50 percent cost savings over conventional construction techniques. 
The homes have maintenance-free exteriors, Energy Star appliances and 
fixtures, and the materials are termite-resistant and impervious to 
wind damage. The development created job training and employment 
opportunities for local community.
    These are just a few examples of the thoughtful, and forward-
thinking designs that our tribal grantees have incorporated into their 
low-income housing projects, emphasizing sustainability and responsible 
stewardship of natural resources.
    We have seen the great strides that have been made in Indian 
housing under this seminal piece of Indian legislation, even in 
challenging fiscal environments. Therefore, HUD strongly supports the 
reauthorization of NAHASDA this year.
Title VI Loan Guarantee Fund--Federal Guarantees for Financing for 
        Tribal Housing Activities
    NAHASDA also authorizes the Title VI program, which offers 
recipients of the IHBG (tribes and their TDHEs) a loan guarantee 
program that encourages long-term projects and the leveraging of a 
variety of funding sources. Under Title VI, HUD can guarantee 95 
percent of a loan for affordable housing activities. Borrowers pledge a 
portion of their current and future IHBG funds as security. This 
program has provided an incentive for lenders to get involved in the 
development of tribal housing.
    Since its first year of funding, in the year 2000, 72 Title VI 
loans have been guaranteed by HUD for about $180 million. These loans 
have financed more than 2,700 affordable homes, and enabled borrowers 
to leverage almost $74.7 million for housing and community development.
Section 184 Indian Housing Loan Guarantee Fund--Section 184
    The Section 184 program was authorized by the Housing and Community 
Development Act of 1992, as amended. Like NAHASDA, HUD strongly 
supports the reauthorization of this program this year. Since its 
inception, the program has guaranteed more than 20,800 loans with a 
total value of $3.32 billion.
    Section 184 is a single-family mortgage loan program that provides 
a 100 percent guarantee for private mortgage loans issued to eligible 
borrowers. Eligible borrowers include American Indian and Alaska Native 
families and individuals, Indian tribes, and TDHEs. There are no income 
limits. Loans are used to purchase, construct, rehabilitate, refinance, 
or purchase and rehabilitate a home located on a reservation or within 
an Indian area. A one-time, guarantee fee is charged; it can be 
financed or paid in cash at closing. The maximum mortgage term is 30 
years.
Indian Community Development Block Grant (ICDBG) Program
    The ICDBG program provides federal aid for Indian tribes and Alaska 
Native Villages to develop viable Native American communities. 
Competitive grants are awarded to eligible Indian tribes and Alaska 
Native Villages to improve the housing stock, provide community 
facilities, make infrastructure improvements, fund micro-enterprises, 
and expand job opportunities. Eligible activities include housing 
rehabilitation, acquisition of land for housing, and assistance for 
homeownership opportunities for low- and moderate-income persons, 
construction of single- or multi-use facilities, streets and public 
facilities, and economic development projects--especially those 
sponsored by nonprofit tribal organizations or local development 
corporations.
    In the last 20 years, Indian Country has received more than $1.2 
billion in ICDBGs. In the last 5 years, recipients have used ICDBGs for 
a variety of projects, including the substantial rehabilitation of more 
than 2,000 affordable housing units, and the construction of almost 200 
community buildings for the benefit of low-income housing residents.
    In FY 2012, 76 recipients received more than $56.2 million to fund 
projects that will improve their communities. A tribe in Wisconsin 
plans to use its 2012 ICDBG to install solar photovoltaic panels on 
low-income, single-family homes and apartments to decrease energy 
costs. A tribe in Alaska will build a group home to reduce the number 
of homeless native youths. A tribe in California will upgrade its 
reservation's old sewer lines. And a tribe in Iowa will construct a 
travel center/truck stop that will include a convenience store, a 
branch bank, and car and truck fueling stations.
    In FY 2012, more than $3 million in ICDBG funds were also awarded 
to nine recipients to address emergencies and imminent threats to their 
communities, such as floods, fires, windstorms, and contaminated water 
systems.
Native Hawaiian Housing Block Grant Program (NHHBG)
    The NHHBG program, Title VIII of NAHASDA, was authorized by the 
Hawaiian Home Lands Homeownership Act of 2000. The Department of 
Hawaiian Home Lands (DHHL) is the sole recipient. The NHHBG is designed 
to primarily benefit low-income Native Hawaiians who are eligible to 
reside on the Hawaiian home lands. Eligible activities are the same as 
for the IHBG program. DHHL provides many housing services, including 
counseling and technical assistance to prepare families for home 
purchase and ownership. About 90 percent of NHHBG funds have been used 
to build new homes and develop the related infrastructure.
    In 8 years of program activity (2005-2012), more than 500 
affordable homes have been built, acquired, or substantially 
rehabilitated on the Hawaiian home lands. Approximately 1,400 
individuals and families have received pre-and post-homebuyer 
education, financial literacy training, and/or self-help home repair 
training to sustain safe, decent housing. Three community centers have 
been rehabbed, and more than 300 lots have been improved with 
infrastructure to support construction of new homes.
    The Department of Hawaiian Home Lands continues to work 
successfully with many Hawaiian organizations, civic groups, and 
service agencies in the public, private, and government sectors. 
Partners have included the Habitat for Humanity, the County of Hawaii, 
the Council for Native Hawaiian Advancement, the U.S. Department of 
Agriculture--Rural Development, and many others.
    HUD strongly supports the reauthorization of this highly successful 
block grant program.
Section 184A--Native Hawaiian Loan Guarantee Program
    Section 184A was established by Section 514 of the American 
Homeownership and Economic Opportunity Act of 2000, which amended the 
Housing and Community Development Act of 1992. The program is similar 
to Section 184, but is intended for Native Hawaiians eligible to reside 
on the Hawaiian home lands. In its 8 years of operation, the program 
has guaranteed 276 loans for more than $69.5 million.
Helping Tribal Communities Succeed in Affordable Housing and Economic 
        Development
    We would like to share with you some perspectives on how tribal 
communities overcome barriers to Indian housing development and 
succeed.
    We encourage tribes to look to federal resources such as HUD's 
Indian Housing Block Grant and Title VI programs, but to also consider 
other opportunities. Tribes and TDHEs are looking beyond just building 
individual houses and are becoming more strategic in their efforts to 
create more sustainability in their economics and communities.
    Tribes from the southwest to the northeast have leveraged HUD 
programs outside of ONAP such as the those sponsored by the Office of 
Sustainable Housing and Communities, and Green Construction grants 
administered by HUD's Office of Policy Development and Research.
    Additionally, Tribes are applying for and receiving assistance from 
federal and state programs that support housing, such as grants or 
loans from Federal Home Loan Banks, USDA's Rural Development, and the 
Department of Energy. In addition, they are receiving allocations of 
Low Income Housing Tax Credits that can attract investment to Tribe-
sponsored affordable housing projects.
    We have engaged in marketing and outreach activities designed to 
make tribes and TDHEs more familiar with our programs, particularly 
those with federal guarantees to lower the risks that have 
traditionally made the private sector shy away from partnering with 
tribes.
    We can also assist with advice on how to leverage private-sector 
capital to create more housing on reservations. As we move forward, 
we're cognizant of, and will work within, the government-to-government 
relationship that exists between this Department and the Federally 
recognized Indian tribes we serve.
    For various reasons, housing development on reservations has been 
viewed by many as a ``social program,'' and not as an engine for 
economic development. We need to advance our collaboration with tribes, 
other Federal agencies, and the private sector to clearly establish 
housing development as a key component, a building block, in the 
creation of sustainable economies on Indian reservations.
    Over many years, we have concentrated on the development and 
management of HUD-assisted housing; now we need to develop the capacity 
to expand beyond that. Through the leveraging of federal financial 
resources with private capital, we can create greater opportunities for 
housing, new businesses and jobs . . . all contributing to the creation 
of sustainable economies.
    We have identified some key building blocks to establish the 
foundation for developing more sustainable economies. These are:

  <bullet> creating institutions
  <bullet> investing in human capital
  <bullet> strengthening legal frameworks
  <bullet> leveraging sources of capital
  <bullet> fostering economic diversity

    HUD's goal is to use its Native American programs as catalysts for 
economic development, and to contribute to building sustainable 
economies within Native American communities.
    How do these programs contribute to sustainable economies? 
Homeownership programs build equity and promote asset building for 
Native American families. As a result, there is a greater level of 
commerce and expenditures within the community, and at Native American-
owned businesses. Developing housing also greatly assists in creating 
permanent local jobs.
    Not only do these programs provide an influx of funds into Indian 
communities, but they can also be used to attract other sources of 
capital. This ability to leverage other federal money as well as state 
funds and private capital is key to building a sustainable economy that 
is not solely dependent on federal funds.
    Today, there are more ways to leverage federal funds than ever 
before, such as using low-income housing tax credits, other federal and 
state programs, and partnerships with the private sector. HUD 
encourages tribes to look beyond their grant funding and to use these 
resources and other sources of capital to make possible mixed-use 
development and the overall expansion of economic development to Indian 
Country.
    Indeed, there are dozens of tribes that are now using these 
strategies successfully. But overcrowding, substandard housing, and 
dire poverty are still prevalent in much of Indian Country, and these 
challenges will no doubt be with us for many years to come. The block 
grant program, and other federal support programs provide these Native 
communities with a solid foundation on which to build their futures.
Closing
    Thank you again, Chairwoman Cantwell, and members of the Committee, 
for the opportunity to appear before you today. We look forward to 
continuing to work with you and your staffs on these issues. I would be 
happy to answer any questions you may have.

    The Chairwoman. Thank you, Mr. Boyd.
    Now we are going to hear from Ms. Cheryl Causley, who is 
the Chairperson of the National American Indian Housing 
Council. Welcome, thank you for being here.

 STATEMENT OF CHERYL A. CAUSLEY, CHAIRWOMAN, NATIONAL AMERICAN 
                     INDIAN HOUSING COUNCIL

    Ms. Causley. Thank you. Good afternoon, Chairman Cantwell, 
Vice Chairman Barrasso, distinguished members of the Senate 
Committee on Indian Affairs. Thank you for conducting this 
oversight hearing.
    My name is Cheryl Causley. I am an enrolled member and 
Director of Housing for the Bay Mills Indian Community.
    I appear before you today in my capacity as Chairwoman of 
the National American Indian Housing Council. NAIHC was founded 
in 1974 and serves its members by providing invaluable training 
and technical assistance to its tribes and its tribal housing 
entities. Our membership is expansive, comprised of 274 
members, representing 473 tribes and tribal housing 
organizations.
    NAIHC's member tribes span the entire Country and reside in 
each State represented by members of this Committee.
    The barriers in the Indian housing development are many, 
but they can be broken down into four categories: Federal 
delays in providing necessary approvals and funding; lack of 
technical capacity enabling tribes to maximize scarce 
resources; lack of physical infrastructure; weak tribal 
economies that fail to provide jobs and income to Native 
families, resulting in an ongoing inability to finance homes 
and related capital assets.
    There is a consensus in Congress, the Federal Government, 
with tribal leaders and organizations that there is a severe 
housing shortage in tribal communities. Many homes, as a 
result, are overcrowded, in need of substantial repair, and 
many homes lack basic amenities, such as complete kitchens and 
plumbing.
    The estimate is around 250,000 new units of housing. We 
hope to have a better estimate at the conclusion of HUD's needs 
study.
    These issues are further complicated by the status of 
Indian lands, which are held in trust or restricted fee status 
by the United States for benefit of the tribes and their 
members. As a result, private financial institutions are leery 
of lending for new construction or home improvements. Private 
investment, therefore, in real estate in Indian Country is 
virtually non-existent. Tribes almost entirely are dependent 
upon the Federal Government for financial support in meeting 
their growing housing needs.
    In 1996, Congress passed NAHASDA to address the housing 
crisis in Indian Country, by consolidating and block granting 
Federal housing programs directly to Indian tribes or their 
tribally-designated housing entities. NAHASDA represents a 
positive and a welcome change in Federal Indian housing policy 
and embraces the principles of tribal self-determination, 
including local decision-making and reduced administrative 
bureaucracy.
    The results have been impressive, with more than 110,000 
new homes built, acquired or renovated for American Indian and 
Alaska Native families. However, because of the sheer scale of 
the need and lack of sufficient funding, housing conditions in 
Native communities remain some of the worst in the Nation. To 
further address ongoing barriers to the delivery of Indian 
housing, additional funding for our NAHASDA Indian housing 
block grant is required. In the absence of the additional 
funding, modest legislative reform, such as that within the 
draft reauthorization bill, presented by NAIHC, will provide 
opportunities to reduce barriers to the delivery of safe, 
affordable housing for Native communities.
    Some examples of the important reforms that will improve 
the delivery of housing are to simplify the environmental 
review requirements, eliminating conflicting Federal labor 
standards, modernizing the 30 percent rule. Tribal housing 
entities are encouraged to leverage their funds to secure 
sources of financing, such as Title 6, 184 and low-income 
housing tax credits to combine funding streams from multiple 
sources, from USDA, CDFI, Federal Home Loan Bank, private 
foundations and commercial banks.
    Even a simple pooling of existing resources is difficult 
because compliance requirements actually vary from program to 
program, presenting barriers to efficient administration of 
multiple funding streams, and limit the ability of tribes to 
access multiple programs in an effort to reach adequate scale.
    In closing, I would like to congratulate you, Chairwoman 
Cantwell, as the first woman Chair of the Senate Committee on 
Indian Affairs. Thank you to all the members of this Committee 
for holding this hearing. I would be happy to answer any 
questions that you may have.
    [The prepared statement of Ms. Causley follows:]

Prepared Statement of Cheryl A. Causley, Chairwoman, National American 
                         Indian Housing Council
    Good afternoon Chairwoman Cantwell, Vice Chairman Barrasso, and 
distinguished members of the Committee on Indian Affairs. Thank you for 
the opportunity to appear before you today to help the Committee to 
identify barriers to Indian housing development as well as propose 
solutions to these difficult challenges.
    My name is Cheryl Causley and I am the Executive Director of the 
Bay Mills Indian Housing Authority. I am an enrolled member of the Bay 
Mills Indian Community located in Brimley, Michigan, and am here today 
in my capacity as Chairwoman of the National American Indian Housing 
Council (NAIHC).
Background on the National American Indian Housing Council
    The NAIHC was founded in 1974 and for nearly four decades has 
served its members by providing invaluable training and technical 
assistance (T&TA) to all tribes and tribal housing entities; providing 
information to Congress regarding the issues and challenges that tribes 
face in terms of housing, infrastructure, and community and economic 
development; and working with key federal agencies to address these 
important issues.
    The membership of NAIHC is expansive, comprised of 274 members 
representing 473 \1\ tribes and tribal housing organizations. NAIHC's 
member tribes span the entire country from Florida to Alaska, from New 
Mexico to Maine, and reside in each and every state represented by the 
Members of this Committee. Our members are deeply appreciative of the 
consistent leadership this Committee provides in Congress related to 
issues affecting tribal communities.
---------------------------------------------------------------------------
    \1\ There are 566 federally recognized Indian tribes and Alaska 
Native villages in the United States, all of which are eligible for 
membership in NAIHC. Other NAIHC members include state-recognized 
tribes eligible for housing assistance under the 1937 Housing Act and 
that were subsequently grandfathered in the Native American Housing 
Assistance and Self-Determination Act of 1996; and the Department of 
Hawaiian Home Lands, the state agency that administers the Native 
Hawaiian Housing Block Grant program.
---------------------------------------------------------------------------
    NAIHC's primary mission is to support tribal housing entities in 
their efforts to provide safe, decent, affordable, and culturally 
appropriate housing for Native people.
    As this Committee knows, tribal communities suffer from some of the 
worst housing conditions in the United States. The causes are many, but 
can be broken down largely into four categories:

        1. Federal delays in providing necessary approvals and funding;

        2. Lack of technical capacity enabling tribes to maximize 
        scarce resources;

        3. Lack of physical infrastructure; and

        4. Weak tribal economies that fail to provide jobs and income 
        to Native families, resulting in an ongoing inability to 
        finance homes and related capital assets.

    Solutions include new and innovative partnerships between the 
federal and tribal governments--as well as the private sector--that 
could provide tribal communities the tools they need to meet the 
longstanding housing challenges and build better housing environments.
Tribal Surface Leasing Authority: Potential for Expedited Lease 
        Approvals
    In the last session of Congress, the NAIHC was the lead proponent 
of the Helping Expedite and Advance Responsible Tribal Homeownership 
Act (HEARTH Act), one of only eight Indian tribal bills enacted into 
law in the 2011-2012 timeframe. The HEARTH Act builds on the Navajo 
Surface Leasing Reform Act of 2000, and authorizes Indian tribes in 
general to lease surface tribal trust lands pursuant to their own 
tribal surface leasing ordinances. Once a tribal surface leasing 
ordinance is approved by the Interior Secretary, the tribe may pursue 
surface leasing of its tribal trust lands for a variety of purposes, 
including home site leases, without the review or approval of the 
Secretary.
    While this may sound elementary to some, these amendments 
strengthen tribal self-determination and give tribes a tool they will 
assuredly use to expedite leasing decisions and to improve the approval 
process that housing development relies upon.
General Economic Conditions in Indian Country
    Recently, our country has gone through an economic downturn that 
many have described as the worst recession since World War II. This 
economic reality is greatly magnified in Indian communities. The 
national unemployment rate peaked at an alarming rate of nearly 10 
percent and still hovers around 8 percent. The rate in tribal 
communities is 49 percent. \2\ The highest unemployment rates are on 
the Plains reservations, where the average rate is 77 percent. \3\
---------------------------------------------------------------------------
    \2\ Bureau of Indian Affairs Labor Force Report (2005).
    \3\ Many of these reservations are in the state of South Dakota, 
which has one of the lowest unemployment rates in the nation. On some 
SD reservations, the unemployment rate exceeds 80 percent.
---------------------------------------------------------------------------
    Because of the remote locations of many reservations, there is a 
lack of basic infrastructure and economic development prospects are 
difficult to identify and even more difficult to pursue. As a result, 
the poverty rate in Indian Country is exceedingly high at 28.4 percent, 
nearly three times the national average. \4\ These employment and 
economic development challenges exacerbate the housing situation in 
Indian Country.
---------------------------------------------------------------------------
    \4\ U.S. Census Bureau, American Indian and Alaska Native Heritage 
Month: November 2011. See http://www.census.gov.

  <bullet> According to the 2000 U.S. Census, nearly 12 percent of 
        Native American households lack plumbing compared to 1.2 
---------------------------------------------------------------------------
        percent of the general U.S. population.

  <bullet> According to 2002 statistics, 90,000 Indian families are 
        homeless or under-housed.

  <bullet> On tribal lands, 28 percent of Indian households were found 
        to be over crowded or to lack adequate plumbing and kitchen 
        facilities. The national average is 5.4 percent when structures 
        that lack heating and electrical equipment are included.

  <bullet> Seventy percent of the existing housing stock in Indian 
        Country is in need of upgrades and repairs, many of them 
        extensive.

  <bullet> Less than half of all reservation homes are connected to 
        water sanitation facilities.

    There is consensus in Congress, the Federal Government, tribal 
leaders, and tribal organizations that there is a severe housing 
shortage in tribal communities; that many homes are, as a result, 
overcrowded; that many of the existing homes are in need of repairs, 
some of them substantial; that many homes lack basic amenities that 
many of us take for granted, such as complete kitchens and plumbing; 
and that at least 250,000 new housing units are needed in Indian 
Country.
    These issues are further complicated by the status of Indian lands, 
which are held in trust or restricted-fee status by the United States 
for the benefit of the tribes or their members. As a result, private 
financial institutions are leery of lending for new construction or 
home improvements. Private investment, therefore, in real estate in 
Indian Country is virtually nonexistent, with tribes almost entirely 
dependent on the Federal Government for financial support in meeting 
their growing housing needs.
Brief Summary of the Problems Regarding Housing in Indian Country
    The Housing Act of 1937 authorized local governments to organize 
public housing agencies that received federal subsidies to improve 
living conditions for low-income families. It was not until 1961 that 
the Public Housing Administration recognized tribal governments as 
local governing bodies that could establish Indian Housing Authorities 
under tribal law. The ensuing three decades led to improved housing 
conditions throughout tribal communities, however, enormous hurdles 
plagued most tribal housing programs.
    Numerous tribal leaders, tribal housing advocates and Members of 
Congress recognized a need for significant changes to federal law to 
provide tribes access to federal housing funds in a manner consistent 
with tribal self-determination.
The Native American Housing Assistance and Self-Determination Act
    In 1996, Congress passed the Native American Housing Assistance and 
Self-Determination Act (NAHASDA) to address the housing crisis in 
Indian Country by consolidating and block granting federal housing 
programs directly to Indian tribes or their tribally-designated housing 
entities (TDHEs). For seventeen years, NAHASDA has been the cornerstone 
for providing housing assistance to low-income families on Indian 
reservations, in Alaska Native villages, and on Hawaiian Home Lands.
    The Indian Housing Block Grant (IHBG) is the centerpiece of 
NAHASDA, and since its first fiscal year of funding in 1998, NAHASDA 
has been the single largest source of funding for tribal housing.
    Administered by the Department of Housing and Urban Development 
(HUD), NAHASDA specifies which activities are eligible for funding. \5\ 
Not only do IHBG funds support new housing development, acquisition, 
rehabilitation, and other housing services that are critical for tribal 
communities, they cover essential planning and operating expenses for 
tribal housing entities. Between 2006 and 2010, a significant portion 
of IHBG funds, approximately 24 percent, were used for critical 
planning, administration, and housing management and services.
---------------------------------------------------------------------------
    \5\ Eligible activities include, but are not limited to, down-
payment assistance, property acquisition, new construction, safety 
programs, planning and administration, and housing rehabilitation.
---------------------------------------------------------------------------
    Despite advances made by some tribes since 1996, many tribes lack 
administrative capacity to manage their block grants in effective and 
efficient ways. After formal hearings and much deliberation, section 
703 of NAHASDA reflects congressional authorizers' thoughtful 
conclusion that T&TA is critical to the success of NAHASDA's block 
grant regime. \6\ Congressional appropriators share this view. In the 
Fiscal Year 2013 Transportation, Housing and Urban Development spending 
bill considered last June, appropriators acknowledged an enormous need 
for T&TA in Indian Country.
---------------------------------------------------------------------------
    \6\ Section 703 of NAHASDA is titled, ``Training and Technical 
Assistance,'' and provides that ``(T)here are authorized to be 
appropriated for assistance for a national organization representing 
Native America housing interests for providing training and technical 
assistance to Indian housing authorizes and tribally-designated 
entities such sums as may be necessary [for subsequent fiscal years].'' 
25 U.S.C.  4212.
---------------------------------------------------------------------------
    One of the most important services the NAIHC has provided for more 
than a decade is T&TA to tribes and their TDHEs. Reflecting the 
importance of T&TA and the value they place on NAIHC-provided 
assistance, tribes have voted each year since 2006 to ``shave'' their 
respective block grant amounts and allocate the funding to NAIHC for 
its T&TA program. Despite the plain language of section 703, recent 
changes to appropriations bills have radically changed how training 
funds are allocated.
    Fiscal Year 2012 funding, for instance, was provided to NAIHC but 
also to other tribal organizations and at least one non-Indian 
organization. We point out that neither tribal leaders nor tribal 
housing managers were consulted before these changes were implemented 
by HUD.
    In addition to its key T&TA role, and in anticipation of NAHASDA's 
reauthorization this year, NAIHC also undertook a comprehensive 
outreach process to encouraging open discussion about the Act from 
inception to the present, from the perspective of the tribes and their 
TDHEs.
    The outreach facilitated in-depth, ongoing discussions to assess 
the effectiveness of the Act, its individual components, and its rules 
and regulations in meeting its intended purpose(s). The objective of 
this extensive outreach process was to have a reauthorized Act that 
more effectively accomplishes its objectives.
    With this process now complete, NAIHC has shared a discussion draft 
bill with Members of Congress and interested stakeholders. NAIHC 
encourages the swift reauthorization of this important statute.
Leveraging Housing Funds
    Relying on appropriated dollars to build and renovate homes has 
been the standard practice in Indian Country. Alternatives, such as 
leveraging existing funds with guarantees or investing borrowed money, 
can bring new opportunities to Native families in search of housing.
    The tools provided in NAHASDA have spurred several tribes into 
exploring partnerships with lenders or utilizing existing funds to 
enhance the effectiveness, efficiency, and success of housing projects.
    For example, tribal housing entities are increasingly encouraged to 
leverage their IHBG funding to secure other sources of financing, such 
as Low Income Housing Tax Credits. They are also beginning to combine 
funding streams from multiple sources such as the U.S. Department of 
Agriculture Rural Development, U.S. Treasury Department's Community 
Development Financial Institutions Fund, the Federal Home Loan Bank, 
private foundations, and commercial banks. Even a simple ``pooling'' of 
existing resources is difficult because compliance requirements vary 
from program to program, presenting barriers to efficient 
administration of multiple funding streams and limit the ability of 
tribes to access multiple programs in an effort to reach adequate 
scale.
    While tribes are doing their best to minimize these barriers and 
achieve economies of scale that accompany resource ``pooling,'' a 
better solution would be for the Federal Government to launch a 
demonstration project authorizing tribes to reach across the spectrum 
of federal programs to access currently disparate programs and 
resources. This is already being done in the realm of labor and 
employment training with the universally popular Indian Employment, 
Training and Related Services Act (Pub.L. 102-477) otherwise known as 
the ``477 Program.''
    It should also be noted that eligibility to receive funding 
available through various federal housing programs is not consistent. A 
number of organizations in Alaska and Oklahoma, for example, cannot be 
accurately characterized as either tribes, units of local government or 
501(c)(3) non-profit organizations. A simple solution would be to 
review eligibility requirements for federal housing programs and, 
whenever possible, extend eligibility to entities that have been 
designated as TDHEs for one or more Indian Tribes for the purposes of 
NAHASDA.
Title VI Loan Guarantee Program
    Under Title VI of NAHASDA, HUD is authorized to guarantee notes or 
other obligations issued by tribes, or tribal housing entities, if 
approved by the tribe, for the purpose of financing affordable housing 
activities as described in section 202 of NAHASDA. IHBG funds may be 
used as security for the guarantee or other obligations. The objectives 
of the program are to enhance the development of affordable housing 
activities, increase access to capital to further economic growth, and 
encourage participation in the financing of tribal housing programs or 
financial institutions that do not normally serve tribal areas.
Case Study: Passamaquoddy Tribe of Maine
    The Passamaquoddy Tribe of Maine has found creative approaches to 
maximize the impact of NAHASDA funds they receive. Using the Title VI 
loan guarantee program to attract other sources of capital, the Tribe 
successfully leveraged its IHBG funds to enhance its housing 
development strategies. The flexibility of the Title VI program 
criteria allows financing of any NAHASDA-eligible affordable housing 
activity for a period of up to twenty years. Title VI has also proven 
to be a cost-effective source of gap financing during initial stages of 
a housing project.
    The Tribe used Title VI to construct twenty-eight low-income 
housing tax credit units and a community center. The balance on the 
Title VI loan was paid down with the tax credits and Federal Home Loan 
Bank of Boston's Affordable Housing Program funds.
Section 184 Home Loan Program
    HUD's section 184 program is a mortgage loan product designed to 
resemble a conventional or private housing loan, and there are no 
income limits for the section 184 Loan program. Because the section 184 
loan program is guaranteed by the Federal Government, the program has 
provided much needed access to capital to many individuals and Native 
families who might otherwise struggle to obtain home financing.
Case Study: White Mountain Apache Tribe
    The White Mountain Apache Tribe of Arizona utilized a blend of 
funding streams including NAHASDA, section 184 guarantees, and 
tribally-issued, tax-exempt bonds to develop a 250 unit single-family 
housing project. This project provides long-term rentals (amount paid 
determined on family's ability) with the housing entity as the lessor 
and the tenants have the opportunity to purchase their units.
Case Study: Bay Mills Housing Authority
    The Bay Mills Housing Authority of Michigan developed a tri-party 
agreement that included the Central Savings Bank, which was able to 
offer the section 184 loan program, USDA Rural Development loans, or 
tribal loans to members of the Tribe. Bay Mills used NAHASDA funds as 
down-payment assistance of up to 10 percent of the loan (not to exceed 
$8,000) to families with incomes at or below 80 percent of the area 
median. The Tribe provides similar opportunities to families with 
higher incomes.
    As the case studies above demonstrate, the 184 program has been a 
success when the program is viable and has funding available. In recent 
years, however, uncertainty caused by delay in congressional enactment 
of annual appropriations bills has prompted HUD to place restrictions 
on the 184 program. Most recently, on March 8, 2013, HUD announced that 
it would no longer issue firm commitments under the 184 program until 
Congress appropriated additional funds. This resulted in some borrowers 
and lenders being forced to secure alternative financing.
Non-Profit Incorporations to Enhance Access to Funding
    Some tribes have created 501(c)(3) non-profit corporations for the 
purposes of establishing an independent organization that accesses 
additional housing funding opportunities. Forming a 501(c)(3) is a 
multi-step process. First, the concept must be endorsed by the tribe's 
governing body. Once the concept is approved by the tribal government, 
a charter must be developed and submitted to the tribe and approved. 
Once approved and chartered, the non-profit must maneuver through a 
complex field of Internal Revenue Service rules and regulations to 
appropriately establish a non-profit entity. Based on multiple tribal 
housing examples, this process has provided increased access to a 
variety of funding possibilities and a greater ability to serve the 
individual housing needs of tribal members.
Case Study: Yukon-Koyukuk Elder Assisted Living Facility
    The Yukon-Koyukuk Elder Assisted Living Consortium (YKEALC) is a 
501(c)(3) organization founded to develop the Yukon-Koyukuk Elder 
Assisted Living Facility in Galena, Alaska. The facility is located on 
the banks of the Yukon River in central Alaska and was completed in 
2011.
    Five federally-recognized Alaska Native tribes came together to 
create the facility: Nulato Tribal Council, Louden Tribal Council, 
Koyukuk Tribal Council, Ruby Tribal Council and Kaltag Tribal Council. 
Total investment in this assisted living center was $7.8 million.
    These tribes needed a closer facility to provide housing and 
services to their elders. Without a closer facility, elders would have 
been forced to move, and this would have put them far from their 
families, friends and culture. Through the development of YKEALC the 
elders can remain in their tribal communities and receive top quality 
housing and health care.
    The New Markets Tax Credit financing will allow the facility to 
purchase medical supplies, install solar panels on the roof and install 
a wood-based heating system. These energy efficiency measures are 
critically important due to the very high cost of energy in this very 
remote region. The financing also provides working capital to help fund 
operations at the facility. The project created twenty-eight 
construction jobs and ten permanent jobs.
    YKEALC will also work to keep the elders connected to the 
community-a crucial element of elder care. This is done through 
volunteer efforts of local residents bringing fish and game to the 
facility for community meals.
Native Community Development Financial Institutions
    Increasingly, tribal housing programs are exploring the advantages 
of instituting and working with Native Community Development Financial 
Institutions (Native CDFIs) in an effort to leverage resources for 
homeownership. Native CDFIs were created when the Community Development 
Banking and Financial Institutions Act of 1994 established the CDFI, 
whose purpose is to promote economic revitalization and community 
development through investment and assistance to fund-certified CDFIs. 
The Fund offers grants, loans, equity investments, and other forms of 
assistance on a matching funds basis. CDFIs are administered by the 
U.S. Treasury Department.
    These Native CDFIs must demonstrate their independence from tribal 
government and inclusion of the tribal target population on its board 
of directors to obtain funding from the Fund. This structure is 
intended to assure separation from tribal politics and sound lending 
practices. CDFIs may also attract financial support from banks and 
other lenders and are especially conducive to tribal housing programs 
that seek focus on homeownership loans.
    It is the goal of most Native CDFIs to bring in funding from 
various sources to lend back to tribal community members at favorable 
rates or provide the necessary financial education and credit 
counseling to increase tribal members' access to lending products. 
Native CDFI's not only help to boost homeownership through providing 
loan products and other services, but they provide tribal members with 
the knowledge and skills in building productive financial 
opportunities.
Case Study: New Mexico Native CDFIs
    In New Mexico, 10.7 percent of the population is identified as 
American Indian and/or Alaska Native (AI/AN)--making it the third 
highest AI/AN populated state proportionate to the rest of the state's 
population. Out of the twelve certified CDFIs in the state there are 
four Native CDFIs that provide varied services to the tribal 
communities of Laguna Pueblo, Ohkay Owingeh, Isleta Pueblo, and the 
Navajo communities near Gallup, New Mexico. They provide mixed lending 
products, such as home mortgage loans, home rehabilitation loans, and 
construction lending. In addition, they provide homeownership 
education, financial education, and credit counseling and repair.
    The financing of the Native CDFIs are diverse, and underscore the 
multifaceted contribution from various funding sources to meet the 
housing needs in the New Mexico tribal communities. Three of the New 
Mexico Native CDFIs receive direct funding from their respective TDHE, 
two CDFIs receive funding from the New Mexico Mortgage Finance 
Authority (a state agency), and two CDFIs receive funding from non-
profit entities. The Tiwa Lending Services (TLS) receives direct 
funding from the Pueblo of Isleta, which transferred its home loan 
portfolio and tribal funds to TLS.
Case Study: Ho-Chunk Community Development Corporation
    The Ho-Chunk Community Development Corporation (HCCDC) is an 
emerging CDFI, and was formed by and partners with the Winnebago Tribe 
and its entities. The Mission of the Ho-Chunk Community Development 
Corporation is to raise the socio-economic and educational levels of 
Native American communities and the people of Thurston County, 
Nebraska. A goal of HCCDC is to decrease substandard housing, increase 
housing opportunity, increase clients' ability to access housing, and 
increase capital available locally.
    The Winnebago Reservation lacks affordable housing and tribal 
members who are able to afford a mortgage are forced to live elsewhere. 
Other tribal members lack the funds for the initial down payment to 
purchase a home. Using the Winnebago Tribe's other private subsidiary, 
Ho-Chunk Inc., the HCCDC and the Winnebago Tribe have worked together 
to develop a Housing Down Payment Assistance Program that provides a 
significant portion of a standard down payment for a new homeowner. The 
homeowner is required to go through a special financial and 
homeownership education course and must meet other criteria to qualify.
    In 2010, Ho-Chunk, Inc. and the Winnebago Tribe authorized a $1 
million Housing Stimulus Program to set aside Ho-Chunk, Inc. dividends 
and other tax revenues to offer $50,000 in down payment assistance to 
up to twenty new homeowners who build a home on the Winnebago 
reservation. Through these combined efforts, housing on their 
reservation is more affordable and tribal members can start building 
the traditional wealth that other non-Native homeowners have gained.
    Beyond their down payment assistance program, the HCCDC has 
invested in Ho-Chunk Village, a modern comprehensive subdivision that 
incorporates their traditional village design. The Village will provide 
both commercial and residential development with a senior-living 
housing project, private homes, a 20-unit apartment complex, and 10 
unit townhouses. On the commercial side, the Village will include a 
commercial office building, laser art panels, veteran's park, sculpture 
garden, theater, playground, and public-use building. Beyond creating 
the needed affordable housing opportunities, the development of the Ho-
Chunk Village is raising the tribal economy and creating much-needed 
jobs.
Conclusion
    Given the funding constraints in the tribal housing arena and the 
need to not only maintain existing units, but keep up with growing 
tribal populations and meet the tremendous existing housing backlog, 
tribes have, out of necessity, been very creative in developing 
partnerships and crafting innovative solutions to meet their unique 
housing needs and expand community development.
    In closing, I want to thank you Chairwoman Cantwell, Vice Chairman 
Barrasso, and all Members of the Committee for holding this hearing and 
for the opportunity to highlight solutions that help meet the 
overwhelming housing needs in tribal communities. Your continued 
support of tribal communities is truly appreciated, and NAIHC is eager 
to work with you and your staff on these often-challenging issues.

    The Chairwoman. Thank you very much.
    Next we are going to hear from Annette Bryan, from the 
Puyallup Tribe. Thank you for being here, thanks for traveling 
all the way from the West Coast.

STATEMENT OF ANNETTE BRYAN, EXECUTIVE DIRECTOR, PUYALLUP NATION 
                       HOUSING AUTHORITY

    Ms. Bryan. Good afternoon, Chairman Cantwell, Vice Chairman 
Barrasso and members of the Committee. Thank you for the 
opportunity to provide testimony today on barriers and 
solutions to housing development in Indian Country. I lift my 
hands to each of you in thanks for all of the hard work that 
you do on behalf of tribal people.
    My name is Annette Bryan. I am the Executive Director of 
the Puyallup Nation Housing Authority for the Puyallup Tribe of 
Indians in Tacoma, Washington, the other Washington. And our 
tribe has over 4,000 enrolled members covering about 28 square 
miles. We have developed a number of successful economic 
development activities; however, poverty and inadequate housing 
are still endemic.
    PNHA was established to provide decent, safe, sanitary and 
affordable housing for low-income tribal members and other 
Indians in our service area. Our dedicated and wonderful staff 
prides itself in the work that we do, but every day we strive 
to do what we can in the enormous housing needs that we face.
    Under NAHASDA, we have been able to develop capacity, 
construct more than 50 new affordable housing units and 
increase safety by installing cameras and providing a full-time 
police officer with a canine unit dedicated to the housing. We 
have developed a broad range of services and programs, 
including rental and home buyer units, a rental assistance 
voucher program, a down payment assistance program and a self-
sufficiency program.
    I will testify about certain barriers. The first barrier, 
inadequate funding; second barrier, redundant requirements; and 
the third barrier, total development cost limitations. I will 
then conclude by addressing reauthorization.
    The first barrier, inadequate funding. The President's 
budget, released today, flatlines NAHASDA at $650 million. To 
compound that funding issue, NAHASDA block grant does not 
provide any additional funds for operation and maintenance of 
our new units. We are at a point where we are not able to 
construct or acquire any more new units, because our grant 
funds need to be spent to maintain and operate those we already 
have.
    We need Congress to, at the very least, allow us to keep 
pace with inflation. Congress should increase the annual 
NAHASDA block grant appropriations to at least $875 million 
with subsequent annul increases in order to meet current 
inflation and keep pace with future inflation.
    The second barrier is redundant requirements. One of the 
necessary responses to insufficient funding is leveraging 
funding from other sources. When tribes combine sources from 
different Federal agencies, we are required, for environmental 
reviews, for example, to do an environmental review for each 
Federal agency in which we are given funding for. NAHASDA 
authorizes tribes to carry out their own environmental reviews 
and use their own tribally-determined prevailing wage rates in 
lieu of Davis-Bacon rates. However, other funding requirements 
on top of that require us to meet that obligation multiple 
times, creating redundancy. Puyallup supports amendments to 
NAHASDA that would allow for consolidation of environmental 
review and prevailing wage requirements in those situations to 
avoid redundancy and cost.
    The third barrier, total development cost limits on green 
building. At the Puyallup Tribe of Indians, we have developed 
two, all of our units are green, but we have a LEED Platinum 
certified building. There is a picture of it over here. We are 
using different kinds of technologies that are costing a little 
bit more. So we are asking for flexibility in the total 
development cost, 10 to 20 percent. We get a 10 percent waiver 
from HUD. However, it is time-consuming to ask for that and 
takes a little bit more process, process, process. So more 
flexibility in that would be helpful.
    One step Congress could take to facilitate green building 
would be to expressly authorize a waiver of greater flexibility 
around moderate design standards that have been promulgated in 
the NAHASDA regulations.
    NAHASDA reauthorization. If NAHASDA is not reauthorized, we 
will not be able to continue to operate our critically-needed 
programs and services. Like the VAWA Act, protecting Native 
women, the NAHASDA Act protects Native families. NAHASDA is 
fundamentally a success, and while there is room for 
Improvement, NAHASDA is critical to providing Indian housing 
for Indian people. Without it, we will be devastated. We 
strongly support reauthorization of NAHASDA to continue this 
successful program to meet these critical needs.
    On behalf of the Puyallup Tribal Council and the Puyallup 
Nation Housing Board of COMmissioners, I would like to thank 
you for this opportunity, and I am happy to answer any 
questions the Committee may have.
    [The prepared statement of Ms. Bryan follows:]

   Prepared Statement of Annette Bryan, Executive Director, Puyallup 
                        Nation Housing Authority
    Good afternoon, Chairwoman Cantwell, Vice-Chairman Barrasso, and 
distinguished members of the Senate Committee on Indian Affairs. My 
name is Annette Bryan, and I am the Executive Director of the Puyallup 
Nation Housing Authority (PNHA) and have been at PNHA since 2004, first 
as a member of the Board of Commissioners and then as Executive 
Director.
    On behalf of the Puyallup Tribe and the Puyallup Nation Housing 
Authority, I would like to thank the Chair, Vice-Chair, and the 
Committee Members for holding this hearing and for establishing the 
reauthorization of the Native American Housing and Self-Determination 
Act (NAHASDA) as a priority legislative item for the 113th Congress. I 
am honored to testify at today's hearing concerning barriers to 
providing housing in Indian Country, and in support of the 
reauthorization of NAHSADA. Ensuring adequate housing is paramount to 
the quality of life in Indian Country, and this hearing will help us 
break down existing barriers so we can move forward on this important 
task. Furthermore, this hearing will lay the groundwork needed to enact 
a reauthorization for NAHASDA that builds upon its successes.
    We would like to thank the Chairwoman for her efforts to provide 
resources to meet the severe needs for housing and other assistance in 
Indian Country. The housing needs for the Puyallup Tribe, and across 
Indian country, are extreme. The NAHASDA has provided PNHA with tools 
to make notable progress in meeting the housing needs of our Tribe, but 
there is still a significant unmet need that is far too large. 
Reauthorization of the NAHASDA provides a necessary opportunity to 
strengthen the Act by increasing its flexibility and efficiency. I will 
discuss a number of barriers to providing effective housing assistance 
in Indian Country, many of which can be addressed through amendments in 
the reauthorization process and funding in accordance with the dire 
housing needs in Indian Country. First, I will provide some background 
about our Tribe and PNHA.
The Puyallup Tribe and the Puyallup Nation Housing Authority
    The Puyallup Tribe is a federally recognized tribe located in the 
Southern Puget Sound area of Washington State. In our aboriginal 
language, we are known as the S'Puyalupubsh, meaning ``generous and 
welcoming behavior to all people (friends and strangers) who enter our 
lands.'' Our people lived in villages from the foothills of Mount 
Tacoma, along the rivers and creeks to the shores of Puget Sound. Our 
villages were scattered throughout the many islands, prairies and rich 
valley country of the Pacific Northwest. Historians often noted because 
of the abundance of salmon and shellfish that ``When the tides were 
out, the table was spread.''
    Our people lived here for thousands of years existing by the 
bountiful gifts provided by the Creator. Our Mother, Mount Tacoma, 
provided the water that supplied our salmon. We were fed by the 
abundance of nature's gifts: Salmon, shellfish, wild game, roots and 
berries. The cedar trees provided our homes, utensils, clothing and 
transportation. All of these gifts are part of our rich cultural 
heritage we have today. Our environment was rich in the wealth of 
natural resources, providing all our needs, allowing us to live 
healthy, happy lives. There were no worries of where the next meal 
would come from or where we would sleep. There was the freedom to 
practice our religion, train our children and take care of our elders.
    Today we are known as the Puyallup Tribe of Indians. Times have 
changed and the conditions we live in have changed dramatically, but 
the Puyallup Tribe endures. The membership of the Tribe has grown 
considerably in recent years, and is now more than 4,000 people. A 
majority of tribal members live in the Puget Sound region; however 
there are members spread across the country. Tribal members play vital 
roles in many aspects of life in the Puget Sound region. Adult members 
work as attorneys and fisherman, doctors and construction workers. Some 
are entrepreneurs who operate successful businesses. Many members are 
active in sharing the rich Puyallup culture with the community through 
pow wows, art exhibits and other activities. Yet there are still many--
too many--of our people who are in poverty. As a result many do not 
have access to safe, sanitary, and adequate housing.
    Recognizing this need, the Tribe established the Puyallup Nation 
Housing Authority in 1977. PNHA is the tribally designated housing 
entity of the Puyallup Tribe. It carries out the low-income housing 
program for the Puyallup Tribe, and is the recipient of the Tribe's 
Indian Housing Block Grant under the NAHASDA. Our mission is to provide 
assistance and opportunities for eligible and qualified Native 
Americans within the Puyallup Tribe's service area to obtain decent, 
safe, sanitary and affordable housing.
    PNHA was established to provide decent, safe, sanitary and 
affordable housing for low-income tribal members and other Indians in 
our service area. We endeavor to alleviate the acute shortage of 
decent, safe and sanitary dwellings in our area through the 
construction of new homes and the alteration and repair of existing 
homes. We also manage and maintain residential properties that are 
owned by the Tribe or the PNHA to provide housing to members and the 
Indian community. Our staff of 18 prides itself in our work, but we 
strive every day to do what we can to meet the enormous housing needs 
we face.
    Through NAHASDA, PNHA offers assistance to eligible participants 
through our Home Ownership Opportunity program, opportunities to live 
in low rent apartment or homes that are owned by the Tribe or PNHA, and 
our rental assistance program. Our Home Ownership Opportunity Program 
is a lease-to-own opportunity for eligible applicants. It is successful 
in several aspects. It not only provides safe and sanitary housing for 
the family or individual, but also the pride, stability and 
responsibility that comes with being a home owner.
    Unfortunately, many of our members and other intended beneficiaries 
are not eligible for our Home Ownership Opportunity Program. Thus, we 
have many people seeking on-reservation low income rental units. We 
manage 59 units that are available for low rent living. These include 
our 27 apartments and 22 townhouses along with our newly constructed 
ARRA-funded 10-unit Longhouse project. Significantly, our Phase I 
Longhouse project was recognized by the U.S. Green Building Council as 
its LEED for Homes 2012 Project of the Year. It is also one of six 
projects worldwide honored with a SEED (Social Economic Environmental 
Design) Award for Excellence in Public Interest Design. It also earned 
the rare LEED Platinum rating, the highest building certification for 
leadership in energy and environmental design. We are particularly 
proud of our Longhouse project and are pleased to offer it to our 
members as a housing opportunity. Phase II Longhouse will open in May, 
providing 10 additional units.
    Because it is important to us to make sure that our elders have a 
safe, comfortable place to live, we also manage our Elders Healthy Home 
and eight Elders units. In the effort to care for our elders, we also 
provide assistance specifically through our Elders' Repair and 
Renovation Program.
    Our combined units that we manage or provide rental or homebuyer 
assistance to result in approximately 215 families and individuals 
being served.
    NAHASDA marks a significant step towards self-determination in the 
housing arena. This monumental Act has spawned much improvement and 
progress in the Indian housing arena. It has been a great vehicle for 
tribes generally and for the PNHA specifically to develop housing to 
meet the needs of tribal members and other Indians in its service area. 
If NAHASDA is not reauthorized, PNHA would not be able to continue to 
operate its critically needed programs and services.
    NAHASDA is a success. Nonetheless, significant need remains. 
Greater flexibility and efficiencies are needed. Amendment through 
reauthorization is not enough, however, for tribes and TDHEs to truly 
meet the needs of their service populations: NAHASDA must also be 
funded in accordance with the dire housing needs in Indian country. The 
specific barriers we face in carrying our mission to develop Indian 
housing and provide assistance for eligible persons to obtain decent, 
safe, sanitary and affordable housing are set forth below. The lack of 
sufficient funding is foremost among the barriers to effectively 
provide housing in Indian country.
Barrier No. 1--Insufficient Funding
    Since the passage of NAHASDA, the PNHA has developed a broad range 
of housing services, using the flexibility in the Act to meet the needs 
of our service population in the most efficient manner possible. We 
have developed several programs to utilize the tools in NAHASDA 
intended to facilitate homeownership and provide affordable housing. As 
set forth above, we have leveraged our IHBG funding with a Title VI 
Loan Guaranty to construct 22 units of affordable housing serving low-
income Puyallup Tribal members and other Indians. We have developed a 
rental assistance voucher program, to assist with rental payments. This 
program currently serves up to 40 households per year, although this 
program is being reduced due to budget cuts. We have also established a 
down payment assistance program to eligible Indian recipients with 
loans or mortgages to improve existing homes or purchase or construct 
their own new off reservation homes. PNHA also provides financial and 
homebuyer counseling to its program participants. All of these programs 
are designed to assist low income members, but even with these 
benefits, only a small fraction of the families on our waiting list are 
financially capable of participating in these programs.
    As required by NAHASDA, PNHA maintains waiting lists for the 
various programs it offers. Currently, there are 240 low-income 
households on all of our waiting lists: Homeownership Opportunity = 31; 
Low Rent Program = 123; Rental Assistance Voucher Program = 86. While 
these numbers may not look alarming, we can only provide new housing as 
it becomes available and we are currently 98 percent occupied.
    To adequately meet the need for affordable housing for the low-
income population we serve, we estimate that we would need to construct 
an additional 240 units. The levels of funding in our current IHBG do 
not provide us with the resources to construct anywhere near that 
number of units. To compound the funding problem, for each unit we 
construct with NAHASDA funds, we take on the responsibility to maintain 
and operate that unit. The NAHASDA block grant does not provide any 
additional funds for maintenance and operations. Thus, the more units 
we build and operate, the more of our annual block grant is taken up by 
maintenance and operation costs. We are rapidly approaching the point 
where we will not be able to afford to construct or acquire any more 
units because our grant funds need to be spent to maintain and operate 
those we already have. Yet that stock of housing is woefully 
insufficient to meet the overwhelming need.
    Further, the annual Indian Housing Block Grant appropriations under 
NAHASDA have not kept pace with inflation, and in real dollars the last 
few years of appropriations represent a significant decrease from the 
amounts initially appropriated in the early years of NAHASDA. The 
amounts adopted over the past few years have essentially remained flat, 
while both the need and the costs of serving that need have increased. 
The automatic sequester cuts have further impacted our operations, and 
continued cuts will have significant adverse consequences. The annual 
funding we currently have is nowhere near sufficient to meet the 
substantial need for housing services. The cuts would result in 
overwhelming unmet need. Further, such cuts would require us to reduce 
services and/or staff. In the current economy, these scenarios will be 
devastating to our people.
    We are also aware of Congress' concern with the significant amounts 
of ``unexpended'' funds in the NAHASDA pipeline. While some tribes and 
TDHEs may have had difficulties spending down funds, we note that there 
are numerous bureaucratic and logistical barriers to quick spend down. 
NAIHC and other tribes/TDHEs have pledged assistance to those tribes, 
and NAIHC has set up a working group to further explore the issue and 
develop solutions. We note that, overall, the unexpended funds problem 
involves a small number of tribes, and that overall the NAHASDA block 
grant program has a very efficient spend-down rate. We also note that 
the Puyallup Nation Housing Authority has been able to spend its funds 
down in an efficient and effective manner.
    The annual IHBG appropriation is the budget we rely on to provide 
services year-in and year-out, any proposed cuts will impact us as an 
organization and our constituents in a dramatic way. Tribes and TDHEs 
need a longer term sustainable appropriation for housing, one that 
would at the very least keep pace with inflation.
    Solution: PNHA requests that, at a minimum, Congress appropriate 
sufficient funds in the annual block grant to keep up with inflation. 
That amount for this Fiscal Year would be approximately $875 million, 
with subsequent annual increases, to meet current inflation and to keep 
pace with future inflation.
Barrier No. 2--30 Percent Maximum Rent Rule
    When an Indian-specific housing program was created through 
NAHASDA, certain aspects of the prior 1937 Housing Act were retained. 
One of these was the requirement that tribes may charge no more for 
rents than 30 percent of the adjusted annual income of households. 
NAHASDA Section 203(a), 25 U.S.C.  4133(a).
    While this appears to be a common sense measure to ensure that 
affordable housing remains affordable, it is a concept that has not 
transferred over well to the NAHASDA framework. First and foremost, 
under the 1937 Act Public Housing program, there is a specific line 
item for maintenance and operation of managed premises. As noted above, 
there is no such appropriation under NAHASDA. Oftentimes the only funds 
that are available for maintenance and operations come from the rents 
that tribes and TDHEs are able to charge. But there are many low-income 
clients whose annual adjusted income (a term defined by the statute) is 
at or near zero, and therefore the rents that the tribe or TDHE can 
charge is zero or de minimis. Under the 30 percent rule, tribes and 
TDHEs are prohibited from charging a base administrative fee if that 
fee is in excess of 30 percent of income. Further, the work required to 
certify and recertify the annual adjusted income of each household in 
order to make appropriate adjustments to rent is substantial and 
burdensome.
    Moreover, the 30 percent rule applies where the tribe or TDHE is 
providing a rental or homebuyer subsidy to a tribal member in a unit 
owned or managed by another landlord. Thus, where a tribe or TDHE 
decides to undertake a rental assistance voucher program--like PNHA--we 
are required to provide a subsidy in a sufficient amount to ensure that 
the tenant or homebuyer is paying no more than 30 percent of their 
income. We are prohibited from providing a flat voucher amount (such as 
a payment of $200 per month per household in the program), which would 
enable us to spread our resources among more households.
    Solution: PNHA supports an amendment to NAHASDA that would 
eliminate or modify the application of the 30 percent maximum rent rule 
to Indian housing programs.
Barrier No. 3--Redundancy in Administrative Requirements Where 
        Additional Sources of Funds are Leveraged
    One of the responses to the insufficient amounts of funding under 
the NAHASDA IHBG appropriations is to blend additional sources of 
funding into construction projects, which PNHA and many other tribal 
programs have done successfully.
    Yet this blending of funds results in additional bureaucratic 
requirements, which are often redundant, and which therefore incur 
additional costs for administration--meaning less money to spend on 
housing construction. There are two main areas where we see this 
problem: environmental review and payment of prevailing wage rates.
    Environmental Review. One of the innovations of NAHASDA was to 
allow tribes to exercise environmental review requirements that would 
otherwise be carried out by HUD. NAHASDA Section 105, 25 U.S.C. 4115. 
For those tribes, like Puyallup, that have the capacity in-house to 
conduct environmental review, it is both an exercise of the Tribe's 
sovereignty as well as administratively more efficient to have such 
reviews carried out by the Tribe. Under the NAHASDA regulations, where 
a tribe does assume environmental review responsibilities, it must do 
so in accordance with the applicable HUD environmental review 
regulations at 24 CFR parts 50 and 58. PNHA has worked with the Tribe 
to tool up for and carry out environmental reviews consistent with the 
HUD-mandated process.
    However, because our housing is built on and involves leasing of 
trust lands, there are in a number of cases additional, overlapping, 
and redundant environmental review requirements imposed by the Bureau 
of Indian Affairs (in exercising their authority to review and approve 
residential leases on trust lands). Further, when PNHA leverages its 
NAHASDA funds by using grant funds from other federal agencies (such as 
USDA--Rural Development), that agency's environmental review 
requirements will also apply. Thus, PNHA in such circumstances will be 
required to undertake three different environmental reviews--all of 
which are intended to meet the same federal statutory requirements 
under the National Environmental Policy Act--because each federal 
agency has its own guidelines and procedures. The resulting 
administrative and legal costs in doing so takes funds away from 
constructing houses.
    Solution: PNHA supports a proposal, which we hope to see included 
as an amendment in the reauthorization process, that would deem a tribe 
to have satisfied all applicable environmental review requirements that 
might apply to a multiple-funding sourced project if the tribe 
satisfactorily completed the applicable HUD environmental review 
process.
    Prevailing Wage Rates. NAHASDA, like many other federal statutes, 
requires that funding recipients pay laborers and other workers a 
minimum wage based on the prevailing wages in the locale where the 
project is being developed or operated. Such provisions are generally 
referred to as the Davis-Bacon Acts, which were a series of federal 
laws establishing such prevailing wage requirements on projects using 
federal funds. Those wage rates are determined by the Department of 
Labor (and, for certain activities related to operation of housing 
projects, by HUD).
    Another important innovation of NAHASDA was to allow tribes to 
develop and apply their own prevailing wage rates as the standard 
minimum wages to be paid to laborers and other workers on development 
and operations. NAHASDA Section 104(b)(3), 25 U.S.C. 4114(b)(3). The 
Puyallup Tribe has exercised its sovereign authority under this section 
and has developed its own prevailing wage rates, which apply to PNHA 
projects.
    However, as with the environmental review requirements I just 
discussed, where a tribe uses multiple federal funding sources on a 
project, the Davis-Bacon requirements will apply to those other sources 
of funds--even if the tribally determined prevailing wage rates apply 
to the use of NAHASDA funds. Under such circumstances, the tribal 
housing program will have to separately track the expenditure of each 
set of funds and set up two distinct payrolls (and payment rates) for 
work done under each funding source. Doing so involves a substantial 
administrative and accounting burden, transferring costs from building 
houses to managing accounts.
    Solution: As with the environmental review issue, PNHA supports a 
proposal, which we hope to see included as an amendment in the 
reauthorization process, that would authorize a tribe to apply the 
tribally-determined prevailing wage rate to all sources of funds used 
in a project that was funded in part by NAHASDA block grant funding.
Barrier No. 4--Delays in HUD Response to Requests for Approvals or 
        Waivers
    The HUD Office of Native American Programs (ONAP) has been a strong 
and reliable partner for the PNHA. In particular, the Northwest ONAP 
has been very helpful in providing technical assistance, advice, and 
oversight. But ONAP, like many federal agencies, is often short-staffed 
and underfunded, and in a number of instances may not be able to 
respond in a timely manner to certain requests.
    Where this situation has the potential to become a barrier is in 
those areas where--under the statute--HUD is given the authority to 
approve waivers of certain statutory requirements or timelines. For 
example, NAHASDA requires IHBG recipients to enter into Local 
Cooperation Agreements with local governments to provide for services 
in exchange for payments in lieu of taxes or user fees. In some 
instances, however, those local governments are uncooperative or simply 
unwilling to enter into such agreements. NAHASDA, therefore, gives 
tribes the right to ask HUD for a waiver of the Local Cooperation 
Agreement requirement if the tribe has made ``a good faith effort'' to 
enter into such an agreement and agrees to make payments in lieu of 
taxes. NAHASDA Section 101(c), 25 U.S.C. 4111(c).
    This provision, however, contains no timeline for HUD to act on 
such a waiver request. Yet, unless a tribe obtains an agreement or a 
waiver, it is unable to expend NAHASDA funds on a project in that 
jurisdiction. This is particularly a barrier for tribes like Puyallup 
that are located in areas with overlapping jurisdictions with other 
local governments. Other areas under the statute where HUD has similar 
waiver or other approval authority, but no enforceable timelines, 
include environmental review requirements, submission of Indian Housing 
Plans and response to comments on draft monitoring reports.
    Solution: PNHA supports a series of NAHASDA amendments that would 
establish a timeline for each of these approval processes. In addition, 
similar to the process involved in the approval of gaming compacts 
under the Indian Gaming Regulatory Act, these proposals would state 
that if HUD was unable to meet the applicable deadline, that the 
request for waiver or other approval would be ``deemed approved.''
Barrier No. 5--Lack of Flexibility in Total Development Cost (TDC) 
        Limits Undermines Ability to Do Green Building
    One avenue that PNHA has explored through its NAHASDA funds is the 
development of energy efficient, ``green'' building designs, recently 
completing an ``elder healthy home'' demonstration project and a multi-
unit low-income housing development with solar heating and other green 
design features. It is important for green buildings to be easier to 
construct or pursue. One step Congress could take to facilitate green 
building would be to expressly authorize a waiver or greater 
flexibility around the ``moderate design'' standards that have been 
promulgated in the NAHASDA regulations when it comes to green building. 
The NAHASDA regulations interpret the ``affordable housing'' 
requirements of the Act to require that homes be built within strict 
cost limits, known as ``total development costs'' (TDC). While this 
limitation is generally a good idea, it does not take into account that 
incorporating green building design elements increases the upfront 
development cost of construction, while ultimately saving money (for 
both the tribe and for the tenant/homebuyer). PNHA's own recent 
experience bears this out: PNHA had to use funding other than NAHASDA 
to complete its elder healthy home because it could not meet the TDC 
limits--even though upon completion the home would cost less to 
maintain and less to heat than conventionally-built homes.
    Solution: PNHA would support an effort by Congress to add language 
to NAHASDA that would require exemption from or greater flexibility 
around the ``moderate design'' and TDC limitations when a tribe or TDHE 
is incorporating energy efficient components in building construction. 
Again, the upcoming reauthorization of NAHASDA would provide an 
appropriate vehicle for such an amendment.
Barrier No. 6--Disruption in Section 184 Loan Guaranty Program
    We join with other tribes in expressing our dismay regarding the 
oversight that resulted in the Section 184 program exhausting its 
resources. However, we applaud Congress in quickly resolving this 
matter by providing more than $12 million for the program in the 
recently enacted continuing appropriations act for FY 2013. This 
funding level is a little more than double previous funding levels and 
will allow the program to help--according to HUD--as many as 3,500 
Native American families to either purchase a home or refinance between 
now and the end of FY 2013.
    Solution: While we are grateful for the increase in funding for the 
Section 184 program, both Congress and the Administration must ensure 
that such an oversight does not happen again.
Conclusion
    NAHASDA represents great progress toward the goal of self-
determination and has provided tribes and TDHEs with important tools 
for meeting the vast housing needs in Indian Country. However, 
amendments to NAHASDA are needed to increase flexibility and 
efficiencies in ways that will enable tribes and TDHEs to do even more 
in this arena. We need the flexibility to identify and target our local 
needs, we need to be free of micromanagement and overlapping and 
duplicative oversight requirements and we need adequate funding. The 
need is there in Indian Country and we look forward to working with the 
Committee on the best ways to address it.

    The Chairwoman. Thank you very much.
    Mr. Paul Iron Cloud, welcome to the Committee. Thank you 
for being here.

   STATEMENT OF PAUL IRON CLOUD, CEO, OGLALA SIOUX (LAKOTA) 
                HOUSING, PINE RIDGE RESERVATION

    Mr. Iron Cloud. Thank you very much for holding this 
hearing today, which is very important to our Native Americans 
in all the States, and the State of South Dakota.
    I also want to thank the Committed for listening to some of 
the things that we are going to say. It probably won't be the 
popular thing that you want to hear. I really thank somebody up 
there, of course Tim Johnson did a lot of work for the Oglala 
Sioux Tribe in many areas. He is going to be greatly missed 
when he leaves Congress. I just want to thank Tim for all the 
things you have done for us.
    Well, everybody had a little something to read. I want to 
speak from my heart today on the things that I see that 
everybody needs to hear. And I won't be able to say it all, 
because I only have five minutes. But the big thing is in our 
Country is the worst housing conditions there ever were. We 
need 4,000 homes at Pine Ridge. Our houses need reconditioned. 
We can't get new homes, because we don't get enough money from 
NAHASDA.
    The big thing is, we are at, I would say, 630, 640, 650 
million dollars, as long as I remember. And the thing is, that 
I see, there has to be more money put into the budget for 
Indian housing. We have a very tough reservation at Pine Ridge. 
We have approximately 40,000 people. And there are so many of 
them that need homes. I go through people sitting in my office 
with kids that don't have a place to go. That just doesn't 
happen one day, it happens all the time.
    We have two, three families living in a house. Living like 
that, the health hazard of that, as well as education. I am 
going to tell you a story about education. When you have two or 
three families living in a house, how do you expect the kids to 
do their homework when they come back from school? Our 
education, I will just tell you another statistic, we had about 
64 percent on our reservation graduate from high school. Now it 
is down to 46 percent. So that tells you the social problem is 
high.
    The reason why I say that is, when I was president of the 
Oglala Sioux Tribe in the late 1980s and early 1990s, we had 
110 police officers to cover 80 by 100 miles. Now we have, the 
last count I had was 44 officers. Now, how do we say we are 
going to protect our tenants that want a safe place to live? 
How in the world do we address that?
    Our families are hurting. Our families are crying. Our 
elders are crying. When you have to live under those 
conditions, we don't deserve that, Native Americans. We had a 
lot of treaties that were made by the United States Government 
that were supposed to have taken care of us as long as the 
rivers flowed and the grass grew. That means forever. We gave 
up a lot of land.
    There is one thing that we are doing to show Congress the 
real numbers of our people. That is that needs assessment that 
we are doing now. It is going to show how many people are 
living in these houses, two, three families. We are doing all 
of that. We are going to be done with that program, I'd say, in 
June or July. That is going to be able to tell Congress how 
many people are actually in Pine Ridge.
    In Rosebud, Cheyenne River, Lower Brule, they are all doing 
the same thing. Our need is so great. People don't have trust 
in us any more. I have 24 or 26 seconds left to try to say 
something in 26 seconds. I am going to try to answer any 
questions that you do have for us, and I just come here with a 
good heart and I like to do things that are going to better the 
living of our people.
    Thank you very much.
    [The prepared statement of Mr. Iron Cloud follows:]

   Prepared Statement of Paul Iron Cloud, CEO, Oglala Sioux (Lakota) 
                    Housing, Pine Ridge Reservation
    Good afternoon. My name is Paul Iron Cloud and I greet you all with 
a warm handshake.
    On behalf of Oglala Sioux (Lakota) Housing, where I am the Chief 
Executive Officer, and my Oglala Sioux Tribe I want to thank this 
Committee, Chairwoman Cantwell and particularly our longtime friend and 
supporter Senator Tim Johnson for holding this Hearing. It is critical 
for Congress from time-to-time to evaluate how federal tribal programs 
can be improved. It is particularly important in years like this when 
important programs such as the Native American Housing Assistance and 
Self-Determination Act (NAHASDA) come up for reauthorization. I also 
want to express my personal appreciation to you for inviting me once 
again to testify. It has always been an honor to appear before this 
Committee.
    Oglala Sioux (Lakota) Housing was the first tribal housing program 
to receive federal funding in 1961 and fifty years ago we at Pine Ridge 
built the first publicly assisted low-income housing on an Indian 
reservation. We are today the 5th largest tribal population in the 
country, the 7th largest reservation and we and a significant segment 
of Indian country face a housing crisis that has not been seen for 
forty years.
Worst Housing Conditions in the Country
    Oglala Sioux (Lakota) Housing has built over 2,200 housing units 
since 1961 but most of that was done before 1996 and the establishment 
of the Native American Housing Assistance and Self-Determination Act. 
Sadly in 2013 our housing, and tribal housing on many similarly 
situated reservations and Alaskan Native communities, is far worse 
today than 17 years ago. Though NAHASDA provides us and many other 
tribes and tribal housing entities valuable resources, because of 
stagnant and reduced funding levels as well as flawed funding 
allocation methods, we and a large number of other tribes today have 
the worst housing in the United States.
    For at least a generation now, many of our people, infants, elders, 
vets and families have had to live in housing conditions that no 
American should have to endure. For these land based tribes, these 
conditions are also caused by poverty and unemployment rates that in 
some cases exceed 80 percent. At Pine Ridge and many nearby South 
Dakota reservations for years now our counties have ranked in the top 
five in the entire country for poverty and unemployment.
    NAHASDA funding levels limit us to building on average no more than 
30 to 40 units a year, yet we currently need 4,000 new units and 1,000 
homes repaired. The result is that we now have the most overcrowded 
housing in this country. We have many situations where 3 or 4 families 
are packed into a single two-bedroom home or a family of six tries to 
survive in a one bedroom apartment. This overcrowding affects the 
physical, social and mental state of our people. Schooling is impacted, 
health conditions suffer and the family unit is impaired. Imagine what 
it might be like to live with 12 to 16 people in a small home. These 
housing conditions also fuel our growing tragedies of suicides, sexual 
abuse, alcoholism, gangs and drug use in many of our communities.
    I and our tribal leaders are most troubled by what these housing 
conditions do to a child trying to do his or her homework, a young 
family starting out their married life, our honored vets and our tribal 
elders who are attempting to live out their lives with some dignity and 
safety.
    My Tribe, and other members of a coalition for land based and 
treaty tribes known as A Coalition for Indian Housing, understand that 
these extremely bad conditions do not exist for all tribes, not even 
for a majority of tribes. And we understand that they are not caused by 
unique problems or performance issues on our reservations but rather 
are directly related to poverty, unemployment, lack of economic 
development and, most importantly, a serious shortage of financial 
resources to develop new housing. We appreciate the NAHASDA program and 
its grants, but we believe its allocation methods do not adequately 
take into account the differing needs of tribes and that in the last 
sixteen years there has simply been insufficient funding appropriated 
for the NAHASDA program.
The Dakota Housing Needs Assessment Pilot Project
    Federal efforts, including NAHASDA negotiated rulemaking, continue 
to inaccurately determine the varying housing needs of tribal members 
and, in our opinion, fail to allocate federal funding appropriately. It 
is for these reasons we and four other tribal housing programs have 
taken the unusual step of joining together to fashion a global 
positioning system and geographic information system based local 
housing needs assessment procedure. This is known as the Dakota Housing 
Needs Assessment Pilot Project. We will each conclude statistically 
accurate housing surveys later this spring on each of our reservations. 
The project is designed to improve tribal data and program management. 
It will also give each of us the ability to do the ``census 
challenges'' that NAHASDA permits us to make under its block grant 
allocation formula. However, if results should prove out, we believe 
that this Pilot Project could have nationwide application and could 
change how housing need is determined on reservations and result in 
better allocation of federal tribal housing funds. It is our hope that, 
later this summer, our Pilot Project will be able to report to 
Congress, the U.S. Department of Housing and Urban Development, Office 
of Management and Budget, and our fellow tribes that there is in fact 
an effective, efficient and relatively inexpensive way that housing 
need determinations can be done universally.
    I would be remiss if I did not also mention that if a GPS and GIS 
needs assessment requirement was to replace the current defective U.S. 
Census method in the NAHASDA program, tribes, Congress, OMB and HUD 
would also then have an accurate, reliable and efficient way to better 
manage federal funding.
The Need for an Emergency Housing Effort
    Understanding the limitations of NAHASDA, the disparity of housing 
needs on Indian reservations and Alaska Native communities, and the 
unacceptable and tragic housing conditions that exist on some 
reservations, we believe new federal Indian housing emergency funding 
grants need to be established. There are a number of ways that this 
could be structured. The critical aspect of such a funding program is 
to acknowledge that there are significant numbers of tribes and 
tribally enrolled members that have extreme and unacceptable housing 
conditions. Furthermore, that federal trust responsibilities and, in 
some cases, treaty obligations require the U.S. government to address 
these terrible housing conditions.
    This funding, possibly joined by other private funds, would be 
allocated in a new way. The total appropriation amount would certainly 
be less than NAHASDA amounts. Furthermore, grants would be awarded 
using a competitive process, based both on need and a requirement that 
all recipients clearly demonstrate their capacity to spend the money 
they receive.
Amend the ``Thirty Percent Rule''
    There is a third issue that I would like to address for the 
Committee and this directly relates to the reauthorization of NAHASDA. 
I am sure this Committee is particularly well aware; NAHASDA was 
fundamentally designed by Congress to be a government-to-government, 
self-determination, block grant program. When it was evolved from 
public housing thousands of 1937 Housing Act rules and requirements 
were stripped away and tribes were given the right to pretty much 
create their own programs. The statute pronounced that NAHASDA had to 
function based on self-determination and tribal self-governance. 
Furthermore, it set a rule making process that recognized this and 
dictated that in all rule making the Secretary of HUD has to establish 
a negotiated rulemaking committee so that local and tribal 
determination would be part of this process.
    Unfortunately Congress failed to omit one rather expensive and 
burdensome rule.
    Instead of allowing tribes to find for themselves the best method 
for ensuring that low-income homebuyers and renters would not be unduly 
charged for living in their NAHASDA tribal units, the law imposed the 
``30 percent rule'' that had previously existed in the public housing 
program. From the start of NAHASDA, tribes realized the cost and damage 
resulting from this rule. Being unable to change or modify this 
statutory provision through rulemaking, over the past 16 years groups 
like National American Indian Housing Council, regional Indian housing 
associations, and many individual tribes have, with unanimous 
agreement, petitioned Congress to modify this statutory provision and 
permit the individual tribes and their housing entities to develop for 
themselves the process and procedure for charging their low-income 
tribal members.
    The current ``30 percent rule'' does much harm. It costs tribal 
housing programs an enormous amount of money to administer, it diverts 
tenant service representatives from performing important management and 
tenant counseling services, and it creates an unhealthy and adversarial 
relationship in Indian country that often poisons individual tenant and 
tribal housing entity relations.
    In closing, I would like to make mention that in the last two years 
Senator Johnson, members of your Committee staff and a host of other 
Congressional and administration officials have visited Pine Ridge and 
other similar South Dakota reservations to learn of our housing 
conditions. We are most appreciative that they did. For the many others 
who have not had the opportunity to see the worst conditions in Indian 
country, we, along with Oglala Sioux Tribe Partnership for Housing have 
decided to bring that Indian housing to Washington. Our purpose is to 
show Congress and America the overcrowded conditions that far too many 
tribal members across this country have had to endure. Next week 
facades and pieces of a deconstructed home from our first Indian 
housing project are being trucked to Washington, D.C. and put on 
display.
    Not everyone can go to our reservations to see these housing 
conditions, so we and our Trail of Hope * are bringing this housing to 
them. I hope that each member of this Committee and your staff will 
join us on April 17th near the Capitol to show America the type of 
housing that many American Indians and Alaska Natives have had to live 
in for far too long.
---------------------------------------------------------------------------
    * www.facebook.com/TrailofHopeforIndianHousing
---------------------------------------------------------------------------
    Again, on behalf of President Brewer and the Oglala Sioux Tribe, I 
want to thank you for inviting me to provide this testimony and I would 
like to reserve the right to supplement this testimony in the next 20 
days.

    The Chairwoman. Thank you, Mr. Paul Iron Cloud. We very 
much appreciate your speaking from the heart, very important 
testimony.
    Our last witness is Russell Sossamon. Thank you so much for 
being here. We look forward to your testimony.

  STATEMENT OF RUSSELL SOSSAMON, EXECUTIVE DIRECTOR, CHOCTAW 
                    NATION HOUSING AUTHORITY

    Mr. Sossamon. Thank you, Madam Chairman and Vice Chairman 
Barrasso, Senator Johnson, Senator Udall, Senator Franken and 
Senator Heitkamp. Thank you for having this very important 
hearing today.
    My name is Russell Sossamon. I am an enrolled member of the 
Choctaw Nation of Oklahoma. I have served there as the 
Executive Director for the past 17 years.
    To sum up my written testimony, I would urge Congress to 
reauthorize NAHASDA before September 30th, and also to preserve 
intact the statutory requirements for negotiated rulemaking in 
implementing NAHASDA. All of the details to implement the 
NAHASDA block grant under the NAHASDA law should be left to the 
tribes to decide through the tribally-driven negotiated 
rulemaking process. This process implements the government to 
government relationship between the tribes and the Federal 
Government.
    The most important issue we have, previously tackled 
through negotiated rulemaking, has been the allocation formula 
for the block grant. The formula is a result of countless 
discussions among tribal leaders and Federal officials which 
reached a careful balance of tribal interest. I served on each 
of these rulemaking committees as we continued to shape the 
program.
    The negotiated formula effectively serves diverse tribal 
communities and uses U.S. Census data to do so. Any changes to 
that formula must go through the same negotiated rulemaking 
process.
    NAHASDA reauthorization should be a top priority for 
Congress. Here is why. NAHASDA provides vital assistance to 
many people under challenging conditions. My nation, the 
Chocktaw Nation, is the third largest Indian tribe in the 
United States. Inside our service area, our population is 
48,000, 41,000 of which are members of our tribe.
    Our land area encompasses 10 and a half counties in the 
southeastern part of Oklahoma, a land mass that is the size of 
the State of Massachusetts. We provide services to Native 
Americans who are not Choctaw but also who reside within this 
service area. Last year, through our health care, for instance, 
we provided services to members from over 148 different tribes.
    Our diverse and low-income service population has acute 
housing needs. We have a housing shortage of over 9,000 units. 
These units are in substandard condition and are not decent or 
safe or sanitary to live in. Many of the conditions that you 
have heard here today exist within our area.
    In my written testimony, I provided data regarding the 
Choctaw's lack of sufficient housing and low-income housing, as 
well as the numbers of overcrowding and insufficient 
substandard housing.
    We provide a spectrum of services to address everything 
from homelessness to rental assistance to home ownership. As 
NAHASDA intended, we stretch our limited funding by thinking 
outside the box. For example, our Chocktaw Home Finance 
Corporation, which is a 501(c)(3) nonprofit, is the lending 
institution created by the Chocktaw Nation that serves our 
Nation's home finance program. It supports low-income home 
ownership by direct lending of NAHASDA funds and by leveraging 
funds from private lenders as well as utilizing the loan 
guarantees of the 184 program.
    Our home finance program averages 100 direct loans a year 
that now total over $38 million. Working with over a dozen 
other private lenders, like Wells Fargo, for instance, we 
originate an additional 84 loans per year. Over the last 15 
years, we have leveraged over $58 million. We manage a loan 
portfolio of over $20 million as a revolving fund, so that the 
money can be used time and time again.
    Our loans help purchase, refinance or rehabilitate homes, 
or provide energy efficiency upgrades, thereby freeing up 
disposable income for our low-income families. We also provide 
counseling services to about 400 first-time home buyers, as 
well as home owners, each year. The benefits of the home 
finance corporation extend to tribal members living in 
Oklahoma, Texas, California, Oregon, Washington, Arkansas, 
Colorado, Wyoming, Utah, to name a few of the States.
    The system helps Choctaw members add, and this assistance 
also adds to the property tax base in those communities. Just 
within our service area alone, last year the tribal members we 
serve paid in over $100,000 in local taxes. On top of that, an 
average of 10 jobs were supported through each loan closing in 
the employment of appraisers, surveyors, title companies and 
legal services. This indirectly impacted 1,140 jobs in the 
local economies. Our loans made to Choctaw tribal members 
living in other States throughout the Country have an even 
greater multiplier effect, because we partner with those 
private lenders in those States.
    In conclusion, there can be no doubt that NAHASDA and other 
federally-funded tribal housing programs have dramatically 
improved housing conditions in Indian Country. But of course, 
there is always room for improvement. So we join with NAIHC in 
suggesting that Congress adjust the binding commitments 
requirement so that a lien must be applied only for work valued 
over an amount of $7,500.
    Thank you again, Madam Chair, and the other members of this 
distinguished Committee. I would be pleased to answer any 
questions.
    [The prepared statement of Mr. Sossamon follows:]

  Prepared Statement of Russell Sossamon, Executive Director, Choctaw 
                        Nation Housing Authority
I. Introduction
    Good morning Chairwoman Cantwell, Vice Chairman Barrasso, and 
distinguished members of the United States Senate Committee on Indian 
Affairs (SCIA). My name is Russell Sossamon. I am an enrolled member of 
the Choctaw Nation of Oklahoma and for the past seventeen (17) years 
have served as the Executive Director of the Choctaw Nation Housing 
Authority, located in Hugo, Oklahoma. I want to thank the Committee for 
holding this important oversight hearing this afternoon on Identifying 
Barriers to Indian Housing Development and Finding Solutions, which 
could not be more appropriate or timely as discussions begin here on 
Capitol Hill surrounding the reauthorization this year of the Native 
American Housing Assistance and Self-Determination Act, known as 
``NAHASDA.'' It is an honor to be invited here to present testimony on 
behalf of the Choctaw Nation of Oklahoma.
    I will first lay out some background on the Choctaw Nation of 
Oklahoma and the challenges it faces in providing services to its 
members, as well as to members of dozens of other tribes who live 
within the Nation's service area. I will then examine some of the 
reasons why the provision of safe, quality, affordable housing in 
Indian Country generally, and within the Choctaw Nation in particular, 
is such a challenge. This will be followed by background information on 
the federal legislative and administrative efforts to address that 
challenge, which ultimately culminated in the passage of NAHASDA. I 
will then provide some examples of the innovative and effective housing 
programs administered through the Choctaw Nation Housing Authority, to 
show why this Congress should continue to support tribal housing 
programs and work to quickly approve the reauthorization of NAHASDA 
during this current fiscal year. Importantly, that reauthorization 
should include the affirmation of the negotiated-rulemaking process to 
maintain the government-to-government relationship between tribes and 
the Federal Government. Like all federal legislation that aims to 
accommodate the needs of many tribes across the country, NAHASDA has 
some minor shortcomings, so in conclusion I will point to an issue that 
Congress may consider examining for potential revision in the upcoming 
reauthorization of NAHASDA.
II. The Choctaw Nation--Large-Scale Challenges and Opportunities
    The housing issues in Indian Country cannot be separated from the 
big-picture social and economic challenges it also faces, and the 
Choctaw Nation knows those challenges all too well. The Choctaw Nation 
is the third largest Indian tribe in America, with over 200,000 
enrolled tribal members spread all across the country. In a word, the 
Choctaw Nation is immense. With that greater size and breadth comes 
even greater responsibilities that are placed on the shoulders of the 
Nation's government to look after the welfare of its members. To add to 
that responsibility, the Nation's service area encompasses 10+ counties 
in southeastern Oklahoma, a land area larger than the entire state of 
Massachusetts, and within that service area are American Indian and 
Alaska Native constituents who may be far from their original tribal 
communities but to whom the Choctaw Nation nonetheless provides 
services. Just one example is the tremendous demand placed on the 
Choctaw Nation Health Services Authority (CNHSA)--in Fiscal Year 2012 
alone, CNHSA provided healthcare services to patients who hailed from 
148 different American Indian and Alaska Native tribal groups 
(including, incidentally, members from the Oglala Sioux Lakota tribe of 
my fellow witness here today, Mr. Paul Iron Cloud).
    With an increasing tribal population and stifling economic 
conditions that have hit tribal communities such as the Choctaw Nation 
particularly hard over the past five years during the Great Recession, 
the social and economic needs of the Nation and its members continue to 
grow. This increased need is particularly acute in the area of housing.
III. The Housing Challenges in Indian Country and for the Choctaw 
        Nation
    The challenges to providing quality, affordable housing in Indian 
Country generally and within the Choctaw Nation specifically stem 
mostly from the broader overriding economic realities that occur in 
tribal communities. While the country in general has experienced an 
economic downturn over the past five years, this trend is greatly 
magnified in tribal communities. Often there is a lack of basic 
infrastructure and employment opportunities. These employment and 
infrastructure challenges exacerbate the housing situation in Indian 
Country. As the other witnesses here today will testify has 
historically been the case at the national level, Native Americans face 
some of the worst housing and living conditions in the country, and the 
availability of affordable, adequate, safe housing in Indian Country 
falls far below that of the general U.S. population.
    The housing needs of members of the Choctaw Nation, especially 
given the large size and breadth of its population, reflects the great 
need across Indian Country. However, because there are also many tribal 
members from other tribes across the country living within the Nation's 
service area, there are also unique challenges for the Choctaw Nation 
Housing Authority, as shown by the following figures for Fiscal Year 
2012:

  <bullet> Nearly seventeen percent (17 percent) of the American 
        Indian/Alaska Native population living within the Choctaw 
        Nation's service are tribal members from other tribes.

  <bullet> Approximately 9,880 households within the Choctaw Nation's 
        service area are considered low-income, meaning they have 
        annual incomes of less than 80 percent of the national median 
        annual income. Of those households, an astounding 29.7 percent 
        earn only between 30 percent and 50 percent of the national 
        median annual income, and even worse, 29.8 percent earn less 
        than 30 percent of the national median annual income.

  <bullet> Approximately 1,400 American Indian/Alaska Native households 
        within the Choctaw Nation's service area are overcrowded or 
        lack a kitchen or plumbing.

  <bullet> Of the American Indian/Alaska Native households within the 
        Choctaw Nation's service area, 1,939 households have a house 
        cost burden greater than 50 percent of their annual income.

  <bullet> In starkest terms, during the last fiscal year the Choctaw 
        Nation Housing Authority had a shortfall of 9,080 low-income 
        units.

    In sum, there is a severe housing shortage in our service area's 
tribal communities, resulting in overcrowded conditions. Many of the 
homes that do exist lack basic amenities that most Americans take for 
granted, such as full kitchens and plumbing, and even then many of the 
existing homes are in need of substantial repairs.
    As shown by the low-income numbers above that persist within our 
tribal communities, the Choctaw Nation Housing Authority (and more 
generally, the Nation itself) understands that, in order to address 
acute housing needs, it is necessary to take a holistic approach that 
addresses the poverty cycle more generally to make our tribal members 
and other constituents that we serve self-sufficient--this is how we 
move from homelessness to homeownership. And that is why the Choctaw 
Nation Housing Authority views its mission from a higher level with two 
prongs, one to address the lack of affordable housing and the other to 
address the poverty cycle that produces and reinforces such a lack of 
housing. The Nation and its Housing Authority truly believe that, to 
paraphrase a metaphor, although it may be necessary in the short run to 
give a man a fish to eat today, it is better to teach him how to fish 
so that in the long run he can eat for a lifetime. In order to pay a 
mortgage and become a homeowner, a person first needs a job to earn 
income, and that requires education, training, and career development. 
Like the partnerships laid out below that we use to address home 
financing with a variety of loan-assistance products, we likewise 
partner with other educational and social programs provided by the 
Nation as well as by the Federal Government and other local and tribal 
governments to build the whole person in a variety of ways. The support 
we provide through NAHASDA funding and related programs is one of the 
critical pieces to building that whole person.
IV. Background on Indian Housing Legislation and Administration, 
        Culminating with the Native American Housing Assistance and 
        Self-
        Determination Act (NAHASDA)
    Prior to NAHASDA, housing assistance for Native American tribes and 
Alaska Natives was provided by various programs under the Housing Act 
of 1937 and other legislation. While these programs provided a broad 
range of assistance, they were administratively cumbersome and 
ineffective. They required separate applications and program 
administration, had different eligibility requirements, and were 
characterized by micro-management and detailed one-size-fits-all 
mandates. The programs were merely an extension of generic and often 
urban-oriented housing programs, failing to recognize the unique 
social, cultural, and economic needs of Native American communities.
    In 1960, in the aftermath of the destruction of Indian homes in 
California by fire, the Bureau of Indian Affairs requested that the 
Department of Housing and Urban Development (HUD) address Indian 
housing needs. In 1961, two major events changed the Indian housing 
landscape. First, the Public Housing Administration (PHA, HUD's 
predecessor) recognized tribal governments as local governing bodies 
that could establish Indian housing authorities (IHA) under tribal law 
by approving a tribal ordinance. Second, PHA also determined that 
states could establish IHAs in cases where a tribal government was not 
federally recognized but exercised all necessary powers. Soon after, 
the self-help or mutual help concept took hold and was based on the 
idea that a homebuyer would contribute land, material, or labor 
(``sweat equity'') towards the purchase of a home. In December 1962, 
PHA announced the first mutual help housing program, and in 1964, the 
San Carlos Apache IHA launched the first mutual help project. Indian 
homes were developed under this program know as ``Old Mutual Help'' 
until 1976.
    In the early 1970s, there were high expectations for the Federal 
Government to work with tribes and IHAs to satisfy national Indian 
housing goals and to address the reality of inadequate management 
systems. In 1971, the Government Accounting Office (GAO) issued a 
Congressional report on Indian housing that recommended a national 
Indian housing policy to stimulate agency coordination and accelerate 
the completion of projects. In 1984 HUD formally created the Office of 
Indian Housing (OIH) with its own staff to specifically oversee the 
development and management of Indian housing programs.
    In 1990, Congress established the National Commission on American 
Indian, Alaska Native, and Native Hawaiian Housing, which two years 
later submitted to Congress a national blueprint plan for Indian 
housing. On October 1, 1993, the HUD Office of Indian Housing (OIH) at 
HUD Headquarters in Washington, D.C. and the Regional Office of Indian 
Programs (OIPs) became the Office of Native American Programs (ONAP).
    In 1996, Congress passed the Native American Housing Assistance and 
Self-Determination Act (NAHASDA) to provide federal statutory authority 
to address the above-mentioned housing disparities in Indian Country. 
NAHASDA is the cornerstone for providing housing assistance to low-
income Native American families on Indian reservations, in Alaska 
Native villages, and on native Hawaiian home lands. Since the passage 
of NAHASDA in 1996 and its funding and implementation in 1998, the 
Indian Housing Block Grant (IHBG), the primary funding component of 
NAHASDA, has been the single largest source of funding for housing for 
Native American communities and in Alaska Native villages. NAHASDA also 
includes the Title VI loan guarantee program, which enables tribal 
members to more easily access home loans. Administered by HUD, NAHASDA 
specifies a wide range of activities are that are eligible for funding. 
These activities include but are not limited to down-payment 
assistance, property acquisition, new construction, safety programs, 
planning and administration, and housing rehabilitation. Not only do 
IHBG funds support new housing development, acquisition, 
rehabilitation, and other housing services that are critical for tribal 
communities; they cover essential planning and operating expenses for 
tribal housing programs. Between 2006 and 2009, a significant portion 
of IHBG funds, approximately 24 percent, were used for planning, 
administration, housing management, and services. Without critical 
federal funding, many tribal housing authorities would be unable to 
operate.
    While some members of Congress are now focusing on the unexpended 
funds in NAHASDA block grant accounts, and mistakenly conclude that the 
program is overfunded, they are wrong on the reasons for these funds 
being unspent and the conclusion they draw. In fact, despite the 
positive developments in federal law and the impact of NAHASDA, the 
funding it provides is plainly and simply insufficient to meet the 
existing and, in fact, growing housing need in our tribal communities. 
While NAHASDA funds are immensely appreciated by tribes and are 
tremendously helpful in beginning to meet tribal housing needs, they 
have never, in the history of the program, been sufficient to meet all 
of the basic housing needs of Indian tribes or to accomplish all of the 
purposes for which NAHASDA was designed. Like many government programs, 
it is consistently and continuously underfunded. Therefore, tribes and 
their housing departments such as the Choctaw Nation Housing Authority 
have been forced to think outside of the box and come up with unique 
and innovative tools to meet the housing needs in their communities.
V. Innovations and Examples from the Choctaw Nation Housing Authority
    Out of sheer necessity and in the interest of promoting tribal 
self-determination and self-governance, tribes across the nation have 
begun developing innovative programs that complement NAHASDA programs 
in order to meet the tremendous housing backlog in Indian Country. The 
Choctaw Nation Housing Authority has been at the forefront of these 
innovations in Indian Country, in order to address the housing needs 
not just of our members but of Native American tribal members from 
across the country.
A. United States Housing and Urban Development Section 184 Indian Home 
        Loan Guarantee Program and NAHASDA Title VI Housing Activities 
        Loan Guarantee Program
    The Section 184 Loan Guarantee Program was created by the Housing 
and Community Development Act of 1992 to address the lack of mortgage 
lending in Indian Country. The HUD Section 184 program is a mortgage 
loan product designed to resemble a conventional, or private, housing 
loan program. There are no income limits for the Section 184 program. 
Local lenders become registered with the program and as such the 
Federal Government guarantees up to 100 percent of the home loans 
provided by such lenders to tribal members. Initially, the program 
gained acceptance in areas such as Oklahoma and Alaska, where much of 
the property in Indian areas has passed out of trust status and into 
``fee'' status, meaning that the Federal Government no longer holds 
title to the individual parcel for the benefit of the tribe or the 
individual tribal member. Over time, the program has gained some 
traction on trust lands. Because the Section 184 Indian Home Loan 
program is guaranteed by the Federal Government, the program has 
provided much needed access to capital to many individual Natives that 
might otherwise find home financing difficult. The Section 184 program 
is the most successful Indian Country mortgage program. However, it 
should be noted that fewer than 20 percent of the Section 184 loans 
made to tribal members have been made on tribal trust or individual 
allotment land. More than half of the Section 184 loans have been made 
in Alaska and Oklahoma, and because of the unique non-reservation 
system of land tenure for most Indian and Alaska Native groups in those 
states, nearly all of those loans were made for homes on fee simple 
land rather than trust land.
    In March of this year, HUD temporarily suspended the processing of 
new Section 184 loan applications because of an apparent exhaustion at 
the time of program funding for current Fiscal Year 2013. With the 
passage of the latest Continuing Resolution by Congress to fund the 
Federal Government through September of this year, funding for the 
Section 184 program, as well as the cap on the amount of loans that can 
be guaranteed under the program, were increased. As a result, HUD has 
stated that the suspension of the Section 184 program has been lifted 
and the program should be back in working order sometime this month.
    In addition to the Section 184 program, under Title VI of NAHASDA, 
HUD is authorized to guarantee notes or other obligations issued by 
Indian tribes, or tribal housing entities, if approved by the tribe, 
for the purpose of financing affordable housing activities as described 
in Section 202 of NAHASDA. Eligible borrowers must be a tribe or a 
tribal housing entity that is an IHBG program recipient. IHBG funds may 
be used as security for the guarantee or other obligation. The 
objectives of the program are to enhance the development of affordable 
housing activities, increase access to capital to further economic 
growth, and encourage the participation, in the financing of tribal 
housing programs, of financial institutions that do not normally serve 
tribal areas.
    I would ask that Congress in its FY 2014 budget process and beyond 
continue to support the Section 184 and Title VI loan guarantee 
programs with the necessary resources. To show you why it should, I 
would like to give you some background and examples of the effective 
good that the Choctaw Nation Housing Authority has been able to 
implement through these types of programs.
B. Choctaw Home Finance Services: On the Path from Self-Determination 
        to Self-Sustainability through Nationwide Direct and Leveraged 
        Home Lending in 
        Indian Country
    Tribes are increasingly exploring innovative ways to utilize 
NAHASDA grant funds, combined with tribal funds and other resources, to 
maximize housing project outputs. The passage of NAHASDA in 1996 and 
its funding in 1998, as well as other complementary Indian housing 
programs, have spurred the Choctaw Nation Housing Authority to 
creatively partner with lenders or utilize existing funds to enhance 
the effectiveness, efficiency, and success of housing projects. There 
is no greater example of such creativity in Indian Country than the 
Choctaw Nation Housing Authority's flagship program for home finance 
services offered through the Choctaw Home Finance Corporation.
    The Choctaw Home Finance Corporation (CHFC) was incorporated in 
2002 as a 501(c)(3) not-for- profit corporation to be the lending 
institution for the Choctaw Nation's Home Finance Program activities. 
The CHFC is also a certified Community Development Financial 
Institution (CDFI) through the U.S. Department of Treasury, meaning the 
Federal Government recognizes it as a financial institution working in 
underserved and economically-distressed markets that are often times 
not served by other traditional financial institutions. The CDFI 
certification enables the CHFC to access financial and technical award 
assistance through such things as the Native American CDFI Assistance 
Program, among others.
    The CHFC is dedicated to successful private homeownership by 
offering affordable mortgage loans and counseling services to Native 
American families nationwide through its Home Finance Program, with a 
particular emphasis on serving low-income families who likely would not 
otherwise be able to own a home of their own. The Home Finance Program 
provides assistance through both direct lending as well as through the 
leveraging of funds with lending partners to increase the number of 
potential home loans throughout the country. (Leveraging funds is 
simply investing with borrowed money in a way that multiplies potential 
gains). The Home Finance Program has assisted not just members of the 
Choctaw Nation but Native American families throughout Indian Country 
with over $38,000,000 in direct loans for homeownership and down 
payment/closing cost assistance. The Home Finance Program also has 
leveraged over $58,000,000 through participating lending partners who 
provide mortgages as part of government guarantee programs such as the 
Native American Section 184, Federal Housing Administration (FHA), 
Veterans Administration (VA), and U.S. Department of Agriculture Rural 
Development home loan programs. The private lending partners that CHFC 
has worked with include Wells Fargo, First United Bank, First Mortgage 
Company, First American Mortgage, Colonial Mortgage, Bank 2, Principal 
Mortgage Company, Arvest Bank, Gateway Mortgage, First Bank, BancFirst, 
Bank of Oklahoma, and Equity Bank.
    The CHFC has a number of loan products available to meet the 
variety of financing needs of the families we serve. These products 
include loans for purchasing, refinancing, construction, improvements, 
and energy efficiency upgrades. One of these loan products, a direct 
loan to purchase a new home or refinance their current home at a more 
affordable rate and/or term, helps families receive an affordable loan 
with manageable fees. It also includes extremely professional guidance 
by a staff whose mission is to enhance the lives of all members through 
opportunities designed to develop healthy, successful and productive 
lifestyles.
    Another loan product is a progressively subsidized homebuyer 
construction and finance service specifically for our low-income Native 
American families. The interest rate and terms are specific to low-
income family needs, and the construction service is extremely valuable 
to those who need the added construction support from trained 
construction professionals.
    The CHFC also provides small, affordable streamline loans for home 
improvement, rehabilitation and/or energy efficiency upgrades. These 
loans help with necessary repairs to improve living conditions and 
property values, and also help with energy efficiency that results in 
lower utility payments, thereby freeing up more disposable income.
    The CHFC closes on average 100 loans a year for Native American 
mortgages and down payment or closing cost assistance. Additionally we 
leverage an average of 84 loans per year with our private lending 
partners. CHFC manages a loan portfolio of over $20,000,000 with an 
average quarterly delinquency rate of 10.81 percent. \1\ This compares 
to the national average quarterly combined delinquency rate of 11.43 
percent, a full 62 basis points higher than the CHFC rate. \2\
---------------------------------------------------------------------------
    \1\ The delinquency figures provided here include the combined 
percentage of loans at least one payment past and seriously past due of 
90 days or more.
    \2\ See MBA Mortgage Delinquency Survey at www.mbaa.org.
---------------------------------------------------------------------------
    The Home Finance Program is designed to function as a revolving 
loan fund. Funds are loaned out to the Native American participant and 
paid back in the form of principal and interest payments. The funds are 
then loaned back out to other Native American participants. There is a 
multiplier effect at work within the Program--the more loans made, the 
more principal and interest is repaid and those funds are then used to 
provide even more loans. This truly creates a self-sustaining service 
that sets the Choctaw Nation Housing Authority and its program 
participants on the path to self-sufficiency.
    As a HUD-approved counseling agency, the CHFC also offers homeowner 
counseling services. Prior to extending a loan, each borrower is 
required to complete a homebuyer counseling session that provides 
education and information about the responsibilities and commitments 
required to be a successful homeowner. These sessions cover 
understanding, establishing, and maintaining good credit; personal 
financial planning and budgeting; and counseling to assist tribal 
members in becoming mortgage-ready. It prepares them for the reality of 
homeownership as to the necessities of paying for a mortgage, 
insurance, taxes and maintenance expenses. CHFC also provides post-loan 
counseling, include ongoing individual counseling as needed to develop 
the skills necessary to become a successful homeowner. The counseling 
and education that the Home Finance Program services provide help its 
Native American beneficiaries become more knowledgeable, less likely to 
become victims of predatory lending practices, and more likely to 
successfully manage their personal finances to become responsible 
homeowners. We serve an average of 400 individuals per year through our 
counseling services.
    The benefits of the CHFC Home Finance Program extend well beyond 
just the Native American program participants, into their surrounding 
communities. Furthermore, the CHFC provides opportunities for Choctaw 
tribal members and others to attain home ownership nationwide by 
partnering with mortgage companies that offer Section 184, FHA, VA, 
USDA Rural Development, and even conventional loans, well beyond our 
service area in southeastern Oklahoma. The tribal members to whom we 
extend financing services--either directly or through our private 
lending partners--are predominantly located in the states of Oklahoma, 
Texas, California, Oregon, Washington, Arkansas, and Colorado, but also 
in many others, and these members add to the local taxes bases by 
paying annual property taxes. In the Choctaw Nation's ten and a half 
(10\1/2\) county service area in southeastern Oklahoma alone, over 
$100,000 was added to local real property tax bases in 2012 by the 
tribal members we serve. This too has had a multiplier effect--an 
average of 10 jobs were created through each loan closing in the 
employment of appraisers, surveyors, title companies, and attorney 
services, totaling 1,140 new jobs in 2012. An even greater multiplier 
effect can be seen throughout the country, as the partnership of the 
CHFC with lenders in states that do not have tribes with their own 
Section 184 or similar Indian home loan guarantee programs means that 
the CHFC's leveraging of monies from such programs can extend those 
programs' effects to members in those states and likewise add to the 
their local tax bases, increase employment opportunities, and have 
other positive effects. By doing so, the Choctaw Nation's positive 
effects are felt well beyond its service area in southeastern Oklahoma. 
For example, there are approximately 20,000 Choctaw tribal members 
living in the State of Texas, making it the largest tribal population 
in that state, and Home Finance Program assistance services have been 
provided to some of those members. In addition to such specific home 
finance services, since 1999 the Choctaw Nation has spent nearly $11.6 
million towards the education and career development (including 
scholarships) of its members, not within Oklahoma, but within the State 
of Texas alone.
    These innovations and successes by the Choctaw Nation Housing 
Authority point to the effective good that can be done through federal 
Indian housing programs. They also point to reasons why Congress should 
timely reauthorize NAHASDA this fiscal year.
VI. Congress Should Act Swiftly to Approve the Reauthorization of the 
        Native American Housing Assistance and Self-Determination Act, 
        While Fully Supporting the Negotiated Rulemaking Process for 
        Its 
        Implementation
    Congress enacted NAHASDA in 1996, establishing the Indian Housing 
Block Grant program for the benefit of American Indian and Alaska 
Native groups. The main goals of the bill were explained by one of its 
chief sponsors, Rep. Rick Lazio:

  <bullet> Affirm tribal self-determination by giving tribes the 
        ability and responsibility to strategically plan their own 
        communities' development.

  <bullet> Provide the maximum amount of flexibility in the use of 
        housing dollars, within strict accountability standards.

  <bullet> Allow for innovation and local problem-solving capabilities 
        that are crucial to the success of any community-based 
        strategy.

  <bullet> Avoid over-burdening tribes and housing authorities with 
        excessive regulation.

    NAHASDA was last reauthorized in 2008 when Congress again 
reaffirmed the foregoing important purposes to be served by the 
legislation. That reauthorization of NAHASDA will expire on September 
30, 2013.
    Congress must quickly and timely reauthorize NAHASDA prior to the 
end of this fiscal year. Without NAHASDA, is not likely that any of the 
success stories from the Choctaw Nation Housing Authority discussed 
above, or from many other tribal housing authorities across the 
country, would have been achieved.
A. Negotiated Rulemaking Process: Keeping the Government-To-Government 
        Relationship
    Within the reauthorization of NAHASDA, it is not just incumbent 
upon, but morally, historically, and politically imperative that 
Congress refrain from statutorily changing programmatic features of the 
Indian Housing Block Grant program. Rather, those changes, if any, 
should be left to the tribes to decide within the context of the 
negotiated rulemaking process.
    This process has not only been used to effectively implement 
NAHASDA since its inception, but it is also the most efficient manner 
to achieve the original purposes of NAHASDA set out above.
    In accordance with section 106 of NAHASDA, HUD originally developed 
the regulations for implementing the Indian Housing Block Grant with 
active tribal participation and using the procedures of the Negotiated 
Rulemaking Act of 1996, 5 U.S.C.    561-570. The NAHASDA 
reauthorization legislation of 2008 amended section 106 of NAHASDA to 
require HUD to initiate negotiated rulemaking. In accordance with that 
statutory directive, HUD provided notice in the Federal Register 
establishing the NAHASDA Reauthorization Act Negotiated Rulemaking 
Committee and asked for tribal nominations to serve on the Committee. 
The final Committee consisted of 25 tribal members and 2 HUD 
representatives, including tribal representatives from every region of 
the country, state-recognized tribal representatives whose tribes are 
eligible for NAHASDA funding, and the Assistant Secretary for Public 
and Indian Housing and the Deputy Assistant Secretary for Native 
American Programs. Six negotiated rulemaking sessions were held to 
achieve a final rule for the implementation of the 2008 NAHASDA 
reauthorization amendments.
    Probably the most important issue tackled through negotiated 
rulemaking has been the development of the formula by which tribes are 
allocated funds under the Indian Housing Block Grant. That formula and 
the negotiated rulemaking process used to achieve it are the result of 
countless meetings and exchanges among tribal leaders and federal 
officials. A carefully-constructed balance of competing interests and 
ideals has been reached. The formula serves the diverse tribal 
communities affected and tribal leaders worked hard and long with 
federal officials to achieve that balance. Key to that formula's 
effectiveness is the fact that it uses U.S. Census data to take into 
account the need of every tribal recipient of NAHASDA block grant 
funding. Any necessary changes to that allocation formula or to any 
other Indian Housing Block Grant regulation should be subjected to the 
same negotiated rulemaking process.
    The reason the negotiated rulemaking process generally, and the 
funding formula developed through that process in particular, must be 
kept in place is clear: the Federal Government has long since (and 
correctly) acknowledged that tribal representatives are the best 
decision-makers for policy choices that affect tribal communities, and 
even though the Federal Government has a trust responsibility towards 
tribes, that responsibility is best carried out by encouraging and 
supporting the government-to-government relationship between tribes and 
the Federal Government. That is exactly what the negotiated rulemaking 
process does--it allows representatives from tribes and tribal housing 
authorities to engage one another over the programmatic rules that 
govern their day-to-day operations, with federal representatives at the 
table to provide input, but most importantly, to listen and incorporate 
the tribal input into the final rule. This is exactly the type of 
scenario contemplated by Rep. Lazio and other original sponsors of 
NAHASDA legislation, because the negotiated rulemaking process without 
a doubt enables tribes to plan their community development, provides 
flexibility in the expenditure of resources while maintaining 
accountability for the good of all of Indian Country, encourages and 
spreads innovation among tribal representatives, and avoids unnecessary 
and irrelevant regulation.
    With the foregoing in mind, the timely reauthorization of NAHASDA, 
with the allocation formula and negotiated rulemaking in place to 
address any necessary substantive changes, should be one of Congress's 
top priorities before the end of this fiscal year. Any lapse in the 
program would have far-reaching results in Indian Country.
VII. A Possible Change in the Reauthorization of NAHASDA
    NAHASDA has undoubtedly improved the housing situation in Indian 
Country. However, like any national legislation aimed at addressing 
chronic and overarching problems in Indian Country, NAHASDA does have 
some shortcomings. Addressing at least one of these issues that has 
been a particular problem for the Choctaw Nation Housing Authority 
during reauthorization may help us and other tribal housing authorities 
more effectively address the needs of tribal members.
A. Administrative Burden of the Useful Life Period
    Section 205(a)(2) of NAHASDA requires that housing units remain 
affordable for either the remaining useful life of the property, as 
determined by the Secretary, or for another period that the Secretary 
determines is the longest feasible period of time consistent with sound 
economics and the purpose of the Act. The Act also requires that this 
affordability be secured through binding commitments satisfactory to 
the Secretary. Unfortunately these provisions regarding binding 
commitments have been interpreted so as to result in the unintended 
consequence of creating a lien on an entire housing unit and thereby 
bind up a much-needed housing asset, for even the smallest binding 
commitments that were made for very minor maintenance or repair 
expenditures. Furthermore, this creates an unnecessary and heavy 
administrative burden for small maintenance and repair expenditures 
that are not even capitalized under generally accepted accounting 
principles. This is counterproductive and goes against the effective 
implementation of NAHASDA. We would suggest that, in line with the 
proposed amendments put forward by the National American Indian Housing 
Council (NAIHC), the reauthorization legislation amend Section 205(c) 
of NAHASDA to make the binding commitment requirement applicable only 
to improvements of privately owned homes if they exceed $7,500.
VIII. Conclusion
    Thank you Chairwoman Cantwell, Vice Chairman Barrasso, and members 
of the Senate Committee on Indian Affairs for allowing me to testify 
here today regarding the challenges and potential solutions to meeting 
the housing needs of Native people throughout Indian Country, by 
sharing with you some of my experiences at the Choctaw Nation Housing 
Authority. Your continued support of our efforts, including a timely 
reauthorization of NAHASDA before the end of this fiscal year, is truly 
appreciated, and I and my staff at the Choctaw Nation Housing Authority 
stand ready to assist you in any way that we can.
    This concludes my testimony. I would be glad to answer any 
questions you may have.

    The Chairwoman. Thank you very much.
    We are going to start a round of five minutes for each 
member, in questions. I am going to start with Senator 
Barrasso, and then we will go from there, based on members' 
arrival into the hearing room as the hearing started. Senator 
Barrasso?
    Senator Barrasso. Thank you, Madam Chairwoman.
    I would like to start with Mr. Boyd, if I could, reading 
through Ms. Bryan's written testimony, she said there are 
concerns regarding some unexpended NAHASDA funds totaling, I 
think, $909 million; that represents a lot of potential homes 
for Indian people. She also notes there are a number of 
bureaucratic and logistical barriers to spending those monies.
    I am wondering what your agency can actually do to help 
expedite the use of those funds in an efficient manner so the 
tribes that we have heard from today and other tribes around 
the country can actually build homes.
    Mr. Boyd. Certainly, Senator. First of all, the funds that 
tribes receive are no-year funds. So these funds can move from 
year to year. In some cases, one of the reasons that happens is 
that all of the developments that are on reservations are 
construction developments. So it takes three to five years to 
accomplish this, and in some cases even longer, especially for 
some of the smaller tribes who receive small amounts of funds. 
They actually sort of bank, if you will, those funds and carry 
that over for a couple of years before they can even build any 
homes within their community.
    Those tribes that do have some problems with regard to 
expenditures, we work with them directly. We employ our 
regional housing offices, we do have six regional housing 
offices around the Country. We have set up teams that will work 
with those tribes on almost a daily basis to help create 
expenditure strategies, realistic expenditure strategies and 
really assess maybe some of the issues that they may have 
administratively, to see if we can't make recommendations to 
them to streamline the process within their communities.
    So we do that through technical assistance and if required, 
some training, that is also the administrative approach to help 
build the capacity to expend those funds on a more timely 
basis.
    Senator Barrasso. That was one of the concerns, reading 
your testimony, is that there are some times in spite of this 
day to day activity there aren't real timelines for how to act 
on certain tribal requests, such as a waiver of requirements. 
So I think we further note that if HUD fails to act, then 
tribes actually can't expend their housing funds.
    So I am wondering if you think there should be clear 
timelines in the NAHASDA for HUD to act upon specific requests 
from the tribes?
    Mr. Boyd. Yes, sir. There are clear time lines. And it is, 
I think, what the witness was mentioning was time lines with 
regard to waivers. So we do have set time lines in which to 
work with tribes on those waivers. Some times it takes a little 
bit longer in some cases because maybe the application of the 
waiver does not have all the information that may be required. 
So we reach back and we work, so it is a back and forth kind of 
situation. We try to expedite that as much as possible. We 
understand the value of the time element. But we also want to 
be accurate and we also want to resolve the issues on a timely 
basis.
    Senator Barrasso. Ms. Bryan, is there anything you might 
want to add to this to help the panel? Senator Tester said 
earlier we want to be more efficient, more effective in how 
tribes can use this. Anything you would suggest?
    Ms. Bryan. Yes, thank you, Vice Chairman Barrasso.
    The waiver delay that I speak of is, I believe in the NAIHC 
draft also, we are questing for the local cooperative 
agreements. That is pat of NAHASDA, it is required for 
development. When we do submit those to HUD, there is no time 
line for their response.
    Senator Barrasso. Okay, thank you. And then for Mr. Iron 
Cloud and Mr. Sossamon, just thinking of the written testimony 
from Cheryl Causley, where she talks about trying to, in terms 
of being more efficient and more effective, perhaps achieve 
better economies of scale and the proposals intended to improve 
streamlining some of the administrative requirements from the 
multiple Federal funding streams. What do you think of the 
proposal she has talked about in terms of combining some of 
these issues and try to make it a little more smoothly 
operating for both of you?
    Mr. Iron Cloud. I guess I look at the NAIHC, I used to be 
on the board. I kind of got out of it. Right now I guess I am 
an alternate for our region.
    But I look at NAIHC to probably reach out more to Indian 
tribes, to help them in their everyday doings with HUD. 
Actually, they are our spokespeople for us in Congress. And I 
really think that NAIHC could do a lot more than they are doing 
now. That is coming from my heart, because I live out there. It 
is always hard for us to do anything.
    I have good friends at HUD in Denver, and I communicate 
good with people here in Congress, with Senator Tim Johnson. I 
talk to Senator Thune, I talk to Christy Knowle. But something 
that I want to say is that our money is depleting, it is going 
some place else. Well, we are going to have a hard time, I 
feel, these next two years, of trying to get a budget that is 
going to meet some of the need that is out there.
    The Chairwoman. Thank you.
    Senator Johnson?
    Senator Johnson. Mr. Boyd, last year Congress enacted the 
HEARTH Act to help streamline the land title clearance process. 
Do you believe that this streamlining will lead to even greater 
demand for a Section 184 home loan guarantee program, and how 
is HUD preparing for increased demand in the already growing 
Section 184 program due to the HEARTH Act or other factors?
    Mr. Boyd. Yes, sir, first of all I would like to thank 
those of you that worked on that Act to make it reality. It is 
going to help us out tremendously and it is going to help us 
out tremendously in a couple of situations. One, it certainly 
is going to give the tribes the opportunity on a more timely 
basis to make land available for development. Secondly, though, 
which is a combination, and we have been working with the 
Bureau of Indian Affairs on the issue of titles, and 
historically to gain a title on a reservation, on trust land, 
has taken a tremendous amount of time.
    So what we have done in working with the BIA is to try to 
minimize that time so that the lenders and the borrowers can 
obtain title on a much more timely basis, so that the HEARTH 
Act is a part of that whole process. So if you combine the 
HEARTH Act along with the improvement on accessing titles, 
those two really go hand in hand. That would help us out 
tremendously.
    We know that there is a very, very viable housing market 
for home ownership on trust land, on reservations. We want to 
work with tribes and other Federal agencies to do more home 
ownership on reservations, because we feel that the more people 
live on reservations, the more money they are going to spend 
within the community and those communities would be Native 
American-owned businesses, so the dollar would turn over a 
couple of times before leaving.
    Senator Johnson. Paul, it is good to see you again, and I 
want to thank you for making this trip out here from our home 
State of South Dakota.
    I understand that you are undertaking the Dakota Housing 
Needs Assessment Pilot Project. How will you use the data 
generated from this project to improve housing on the Pine 
Ridge Indian Reservation?
    Mr. Iron Cloud. Thank you, Senator. The thing is, we talked 
about dollars that are coming to our reservation, NAHASDA 
dollars. We always get the same amount of dollars based on 
their count or however they do that. We have 4,000 people and I 
don't know how many of them are elders. I think our biggest 
majority is 21 years, or 18. Well, this assessment is done by 
our people, I think we have 12 people working throughout the 
reservation, going to these homes, finding out how many people 
are living in these houses. How is their house, is it critical 
or is it in good shape. And we look at the land. We are doing 
all kinds of things with this oversight.
    I know, I know people are going to realize that they need 
to do more to get the actual count on our reservations to get 
more money. But like I said, we get the same amount of money, 
this year I think ours is, well, I think we get $602 million or 
$603 million based on the budget this year. So that takes about 
a million dollars away from Pine Ridge.
    So we aren't going to be in the best shape but with this 
oversight we do have. I'd say we have hope.
    The other thing is, I want to bring up, we are bringing a 
house actually to D.C. next week. We are actually bringing it 
for Senators and Congressmen, staff, to actually see, this 
house was built in 1961, one of the first projects at Pine 
Ridge. I just want to ask you to come and see it.
    Senator Johnson. I will.
    Mr. Iron Cloud. A big thing is, if you could say a few 
words, we have some guest speakers, or I am really looking at 
the Senate or our House people. One thing I want to mention, 
too, I want to thank the House Appropriations. They came to 
Pine Ridge. They were there for two days and actually seen what 
was going on at Pine Ridge. I really commend them for doing 
that.
    The other thing was, we had Sandra Enriquez, she came one 
day. And she did a tour. She looked and she said, Paul, what 
you have been saying is very true. And she had tears in her 
eyes, I had tears in my eyes. Because there is so much need out 
there, and our people are not feeling safe. That is what I 
really want to express, because we only have 34 officers.
    Senator Johnson. Thank you, Paul.
    The Chairwoman. Senator Heitkamp?
    Senator Heitkamp. Thank you so much, Madam Chairwoman.
    Just a couple of points and maybe we can kind of elaborate 
on this or sit down and kind of do some thinking on this. I 
just did a major housing tour in my State, not just of Indian 
Country, but all across my State. Our most acute and most 
desperate need for housing is in Indian Country.
    What is true in Indian Country is also true in other parts 
of my State, which is that if we are going to look at single 
family, which we believe ultimately is a goal, that we have 
families living together, we think that is the healthiest 
outcome, that is the best in terms of building community, but 
yet Fort Berthold, which recently did an infrastructure 
development project, developed lots, the cost of those lots is 
$85,000 without even putting a shovel in the ground. Think 
about that. And then think about the average incomes, even 
middle class incomes in Indian Country, and what it would take 
to build a project or build a home that was in fact adequate to 
meet the needs of the family but also affordable. It is 
impossible. It is not possible.
    So one of the issues beyond the financing issue that we 
have already talked about here, beyond the kind of, whether it 
is trust land or not, and I want to make a comment about that 
as well, is these high infrastructure costs. We have already 
addressed it, but if we keep doing what we have always done, 
which is, let's support these programs, maybe beg for a little 
bit more funding, which doesn't seem forthcoming, we will get 
the same result. And it won't be a hold even status quo result, 
it will be backsliding, it will be continuing to fail.
    So one of the issues that I would like a comment on right 
now, or maybe later, is on any unique projects that you have 
seen that can in fact reduce infrastructure costs on single 
family housing lots.
    Well, the silence is deafening. And honest, because I have 
thought about this and thought about this, and I have not been 
able to come up with an adequate explanation of how we do this.
    Ms. Causley. Actually, the only way that I have found on my 
reservation to be able to help our clients with that particular 
problem is the housing authority, when it gets enough funding, 
will develop, the last one was an 80-unit complex where I think 
we had 55 units that we put on there. We ran the water and the 
sewer for them and tried to get the lots ready.
    So we couldn't allow trailers, because we are trying to 
bring in mortgage products. And we don't want a $100 trailer 
next to a $70,000 or $80,000 home. But that did lower their 
price, but the hosing authority had to pick up the price to 
develop them at once. But it was cheaper to develop them all at 
once than one at a time.
    Mr. Sossamon. Senator Heitkamp, one of the things that we 
have seen in southeastern Oklahoma is the local rural water 
districts have put together a band issuance and leveraged that 
with other Federal funding to extend 25 miles of rural water 
and sewer facilities. But of course, that local government has 
that authority to issue that bond. As they hook these customers 
on, then over time they will service the note on that bond.
    So I think perhaps when we see models like this that work 
outside of Indian Country that we take those models and apply 
them in Indian Country. That to me would mean we would need to 
create our own authorities within our tribal governments to be 
able to accomplish this. But to me, I think that is the key to 
advancing the issue that you brought forward.
    Senator Heitkamp. Just one more question in terms of safety 
and reliability of the housing long term. When you step back 
and you look at what children need, this is obviously a huge 
component of community. And if we don't look beyond, and you 
have a great committee here, because there are three additional 
members that I can count who also serve on the Banking and 
Housing Committee, including the Chairman.
    So what do we do, working within existing programs, and 
what do we do looking at financing? Chairwoman, if you will 
indulge me for just one comment. When I was in Bismarck, we 
were talking about housing. One of the things the Bismarck 
chamber of commerce is doing is putting together a land trust 
with the idea that then those embedded costs would go to the 
non-profit which then they would be almost a little like a 
trailer rent, but not really creating that kind of housing. It 
would be more permanent housing and they will have to work 
through the kind of financing.
    I was struck by that, because I turned to the housing 
finance administrator who was there when I was involved with 
housing and finance in North Dakota, and I said, how will that 
work with trust land in terms of financing? He said, oh, we 
shouldn't have any problem. Yes. That was my reaction. We 
shouldn't have any problem? Oh, really? Because this is what I 
have been told for years was the impediment to providing 
traditional financing, first time homeowner financing, low-cost 
interest financing onto the reservations.
    So I think there may be an opportunity to collaborate with 
members of the Banking Committee, taking a look at traditional 
financing mechanisms, so that we can do a better job in 
bringing private financing onto Indian Country in our States 
and in our communities. So I am really interested in all the 
silos, including infrastructure and financing and 
affordability. This could not be a more important issue that 
the Chairwoman has listed as our first Committee hearing, in my 
opinion.
    The Chairwoman. Mr. Iron Cloud?
    Mr. Iron Cloud. We are working with the Federal Home Loan 
Bank and we are getting grants from them for renovating some of 
our homes. We just renovated 15 homes. That is complete 
renovation and that is around $30,000. And we got another one 
to do our elderly homes at Pine Ridge. So we are going to do 
half of them and try another one and do the other half.
    So there are ways out there, but it is tough to get any 
money right now.
    The Chairwoman. Ms. Causley, did you have a comment on 
that?
    Ms. Causley. Yes, I did. Thank you.
    If there is a way that the members of this Committee and 
the other one, what we really have problems with and we could 
definitely use help with is there are programs sometimes 
offered through the States, and depending on what State you 
live in, they will either help you out a lot or they won't 
touch you. Because traditionally, tribes don't get along real 
well with their State entities. If there is any way that you 
could look at a set aside for Native Americans, if we are 
eligible for the program to begin with, it would help all the 
way across Indian Country.
    The Chairwoman. Thank you, Senator.
    I am going to take a few moments here to ask some questions 
and follow up on the question that Vice Chair Barrasso started 
with on the unspent housing block grant funds. We have had some 
recommendations to the Committee to look at what other agencies 
have done, something like if HUD was unable to meet the 
deadline for that request, that after that deadline it would be 
deemed approved. Is that something that you think would be 
helpful in this situation?
    Mr. Boyd. Yes, Senator. I think deadlines would be very 
helpful. As a matter of fact, in 2012, the Appropriation 
Committee set a time line on 2012 funds. I think they set out a 
time line of ten years, so it is five years to obligate and ten 
years to expend. That could be very effective.
    I also know under ARRA, there was a strict time line in 
spending ARRA funds. The tribe, I think we received something 
like $510 million under ARRA. Half of that went out on a 
competitive basis. And those tribes that received those funds, 
many of them, I think it was maybe a three-year time frame 
there.
    But many of them finished up their projects in two years. 
And I think the time aspect of it played a very important role. 
The total expenditure rate on that was like 99.9 percent, and I 
am almost positive the time had a big effect on that.
    The Chairwoman. Anybody else want to add a comment on that?
    Ms. Causley. It can actually go both ways. I believe that 
within the NAHASDA draft language that we have language in 
there deemed approved through HUD, should they not meet any of 
their deadlines in a timely manner.
    The Chairwoman. Okay. What about the low income housing tax 
credit? Obviously this has been a successful program across the 
board. And obviously it is something that has been used in a 
few instances in coordination with other housing programs. Are 
we running into problems with the low income housing tax credit 
being used more aggressively in Indian Country? Because it has 
been a very, very successful program from many different 
aspects on non-tribal land. Not only the benefit of getting the 
new units but also stimulating the economy. The fact that the 
Federal Government is putting out a little bit of capital but 
leveraging much more private sector capital, for very, very 
needed housing units.
    I am just curious as to why this isn't being used more in 
Indian Country.
    Ms. Bryan. Chairwoman Cantwell, we looked into that at the 
Puyallup Tribal Housing Authority. We found that it was 
prohibitive in several ways for us. Tax credits really need a 
lot of units. So we need to have land, we need to have 
ownership of that land. And for us, it didn't pencil out. But I 
think developing capacity among the tribes, once we developed 
capacity and learned about Title 6 and what it took for us as a 
tribe to get a Title 6 loan, meaning clean audits and just 
having our books clean and knowing what the banks would want us 
to do to finance this, then we begin that process. So it was a 
matter of educating ourselves about the Title 6 program and 
partnering with HUD. We were able to utilize that program.
    Tax credits are complicated. And for us, we looked at it 
for our 10-unit development, but it just didn't pencil out. We 
are not able to charge rents to sustain what we guarantee we 
have to charge in rents. So back to the 30 percent rule, 30 
percent of zero is zero. If we can't charge anything, and we 
are serving the lowest of the low income, you put them in a tax 
credit unit, we are required to pay a certain amount. We are 
obligated to pay that.
    So there are some barriers. I am certainly interested in 
it. I think it is a great program.
    The Chairwoman. Mr. Boyd?
    Mr. Boyd. I agree. I think one of the challenges early on 
has been capacity, building that capacity within the designated 
housing entities. But that, over the past 10 years, as long as 
I have been in this position, it has really exploded, I think, 
in Indian Country.
    The Chairwoman. What has exploded?
    Mr. Boyd. The ability and the number of tax credits that 
tribes have applied for and have received. I recall, I was in a 
meeting one day and we were talking to some of the folks from 
the Blackfeet Reservation. They have excelled so well in doing 
tax credits it just became a part of their business. And they 
were taking that knowledge and experience and sharing it with 
other tribes. I know up in Alaska, the Cook Inlet Housing 
Authority had the capacity and the ability to do it, so they 
went over to Bethel, to another regional housing authority, and 
partnered with them to obtain tax credits in the State of 
Alaska.
    Of course, one of the challenges is the competition that 
the tribes have to work within, within that State. I think 
there was a comment, maybe, is it possible to get a set aside 
of some sort.
    The Chairwoman. Because there is a problem with the States?
    Mr. Boyd. In some, yes, it is an interesting relationship.
    The Chairwoman. There is a problem with States saying they 
don't want to do low income housing if it is on a reservation?
    Mr. Boyd. At least from what I understood, there are some 
States that work really well with tribes on financing. And 
there are some States that aren't as aggressive perhaps. And 
tribes have learned how to work with that in that capacity 
building. I think that knowledge is extremely important.
    The Chairwoman. I am just responding to my fellow 
colleagues on this Committee who were talking about the 
incredible need that still exists. Maybe one thing, Ms. Bryan, 
you are saying that not everybody has the volume or units that 
would benefit or pencil out from a low-income housing tax 
credit. But at the same time, there seems to be a very large 
scale need on some of these larger reservations. This would be 
something that could be beneficial and tied into these other 
programs.
    We need to identify what the real issue is here.
    Ms. Bryan. I would like to agree with Rodger. In our State, 
tribes have a very hard time competing for those funds. They 
are very competitive, and housing authorities who are much more 
advanced in grant writing and working with the State for 20 
years before the tribes showed up trying to get a grant have 
their position to get the tax credits, and they are lined up 
for it with their projects.
    The Chairwoman. Do you mean there is just a knowledge base 
within various communities about how to use the program where 
there isn't within Indian Country?
    Ms. Bryan. That, combined with the competitiveness. Tribes 
don't get any special competitive edge. We are treated as a 
local government within the State when we apply for those tax 
credits.
    The Chairwoman. But that is the way it is for all local 
entities. It has been a very successful program across the 
board. We will have to drill down more on this.
    Mr. Sossamon, you were talking about the 184 program and 
your use of it and its success, particularly in your State, but 
you also mentioned Alaska. Do you have recommendations on how 
we would better utilize that on trust lands?
    Mr. Sossamon. I think one of the big barriers to utilizing 
it on trust land has been addressed through the HEARTH Act. Now 
that creates an opportunity for tribes to develop their own 
laws and regulations that this rule of law is needed by private 
investors to mitigate the risk that they would face in dealing 
on trust land. So as far as giving the tribes the control to 
issue the leases, the long-term leases that they have, that 
plus other laws to regulate the industry and give these private 
investors that assurance they need to invest their money.
    So I think we really have an opportunity to even expand on 
the success that program has already enjoyed and more so on the 
trust land.
    The Chairwoman. How many units has the Choctaw Financial 
Corporation done, your finance program? How many homes have you 
helped finance?
    Mr. Sossamon. We finance approximately, we do about 100 
loans a year. Of that, about 25 a year are direct first 
mortgages. So over the years we have done probably 400 or 500 
units. I know we have a portfolio that consists of over 600 
units just within our area. And we have leveraged about twice 
that many outside of our area. That is over the last 15-year 
period.
    The Chairwoman. Is there anything else that we should be 
thinking about, this issue of streamlining and pooling 
resources to leverage the housing grant funds?
    Mr. Sossamon. I think back to Vice Chairman Barrasso's 
question earlier, if we could streamline the reporting 
requirements and the other Federal requirements that we see, 
also Senator Heitkamp mentioned that we want to partner more 
with all of our local and State entities. In this environment 
that we work in, we can't work alone any more. We have to 
partner. And we have to leverage among the tribes, the other 
agencies. Because part of the key in solving the affordable 
housing issue is going to be a long-term solution, which means 
investments in education and career development, to raise the 
incomes of our folks. That is how they are going to afford 
homes over the long term.
    So we have to look at even those other agencies within our 
own tribe as a partnership and it is something that we trying 
to break this poverty cycle over the generations.
    The Chairwoman. Mr. Iron Cloud, you mentioned you are doing 
your own tribal assessment on need. Why is that?
    Mr. Iron Cloud. Why am I doing that?
    The Chairwoman. I get why you re doing, I am asking, why 
did you have to do it? Isn't there data that is out there that 
is reliable?
    Mr. Iron Cloud. The data that we have isn't up to power. 
Now we are doing something that is actually going to show what 
is all there. I just wanted to comment on the tax credit a 
little bit if I can. We may do a first tax credit program at 
Pine Ridge. The reason why we never did it, first of all, our 
unemployment is 80 percent. How are they going to pay for that? 
And if they default, then the housing has to pay that, and that 
would bankrupt our housing authority.
    Right now we are taking a chance, building 32 units of 
better homes, for the homeless and in about three other areas 
that we are trying to do. But I am a little leery about paying 
this loan back over 15 years. And there is a lot of things that 
you have to look at. I have talked to a lot of guys and they 
kind of recommended we didn't do it, because we need homes, we 
need to do something.
    The Chairwoman. Mr. Boyd, am I missing something here, why 
we don't have an accurate assessment across Indian Country of 
what the need really is? Is there somebody that is collecting 
that data on the exact need?
    Mr. Boyd. Currently, the Policy Development and Research 
Office within HUD and our program are collaborating and doing a 
housing needs assessment. That whole process is taking place 
right now, because the last housing needs assessment that was 
completed was in 1996. One of the problems that they had with 
that assessment is the return rate on surveys that they did was 
quite low. So this go-round, one of the elements which they are 
employing is to work very closely with those tribes that will 
be surveyed to make sure that we get a much better return rate 
on the surveys.
    I understand that maybe, and I guess what they are shooting 
for is 2014 to have that completed. So there is a process, we 
will be receiving some information between now and when it 
finishes. But we are hoping that is really going to update that 
need throughout Indian Country.
    The Chairwoman. And what do people think about looking 
backwards now at the 1996 assessment? Was that a successful 
assessment?
    Mr. Boyd. I don't think people really felt like it was a 
success, mainly because of the return rate on the surveys that 
they were doing.
    The Chairwoman. I think this is something we are going o 
have to deal with, along with the various issues that you 
brought up today. But if we are going to match success of 
Federal programs to address the need, we are going to have to 
have an accurate assessment of the need. I think my colleagues, 
Mr. Iron Cloud, they spoke from the heart about this issue. As 
Senator Murkowski mentioned, as Senator Franken mentioned, as 
Senator Heitkamp mentioned, they are trying to deal with it on 
the ground.
    And their frustration, and I mentioned to my own staff, you 
can look at these various programs from a programmatic level 
and then you can visit Indian Country. And they don't match up. 
On the one hand, you see programs that look like they can be 
taken advantage of, and then you go to Indian Country and you 
see poverty and people living in the conditions that are being 
described here.
    Somewhere we have to do a better job of connecting this, 
the needs and the programs. We have to do the streamlining, we 
have to make them efficient. But we also have to take advantage 
of these programs that are out there, like the low-income 
housing tax credit that is being successfully used by big 
cities, small cities, very diverse communities all across the 
Nation, and figure out ways to better leverage the private 
sector investment as well. And if that is a barrier, private 
sector investment on this as it relates to Indian Country, then 
we should have a hearing on that and discuss how we overcome 
that roadblock. Because we want Indian Country to be a 
government relationship with the private sector, as well as 
other government to government relationships, too.
    So with that, unless anybody has anything else for the good 
of the order, this hearing stands adjourned. Thank you again so 
much for being here and for your testimony. The record will 
stay open for two additional weeks in case members have 
anything else they want to ask. And we would appreciate your 
prompt response to those questions.
    We are adjourned.
    [Whereupon, at 3:45 p.m., the Committee was adjourned.]
                            A P P E N D I X

  Prepared Statement of the Association of Alaska Housing Authorities
    The Association of Alaska Housing Authorities (AAHA) is comprised 
of Alaska's fourteen Regional Native Housing Authorities and the Alaska 
Housing Finance Corporation. Alaska is home to more than 240 tribes, 
and AAHA's membership collectively provides housing assistance to many 
dozens of those tribes in hundreds of communities throughout Alaska. On 
behalf of the tens of thousands of Alaska Native and American Indian 
individuals we serve, AAHA greatly appreciates the opportunity to 
provide this testimony to the United States Senate's Committee on 
Indian Affairs.
    The Committee seeks information regarding barriers to Indian 
housing development and solutions to address those barriers. While the 
need for safe, affordable housing in Native communities remains severe, 
changes in federal policy that began in the 1990s have had a positive 
impact on the ability of Indian housing organizations to address 
deplorable housing conditions in Indian areas. To further address 
ongoing barriers to the delivery of Indian Housing, modest legislative 
reform that advances the spirit and purposes of the Native American 
Housing Assistance and Self-Determination Act (NAHASDA) is necessary. 
This testimony includes specific examples of such reforms.
Background
    Prior to NAHASDA, housing assistance for Native American tribes and 
Alaska Natives was provided by various programs under the Housing Act 
of 1937 and other legislation. These programs were administratively 
cumbersome and ineffective. They required separate applications and 
program administration, had different eligibility requirements, and 
placed distinct compliance obligations on tribal recipients. The 
programs failed to recognize the unique social, cultural, and economic 
needs of Native American communities. For example, Roger Biles 
described in the American Indian Culture and Research Journal how 
``[t]he clustered housing prescribed for rental units clashed with the 
traditional living patterns of many Indians and, according to some IHA 
officials, resulted in the creation or exacerbation of problems 
previously rare in Native American populations such as gangs, violence, 
and drug and alcohol abuse.''
    In 1994, HUD articulated its intent to strengthen the unique 
government-to-government relationship between the U.S. and federally 
recognized Native American tribes and Alaska Native villages. This 
created momentum toward the development of NAHASDA, which in 1996 
established programs specifically for the benefit of American Indian 
and Alaska Native groups. NAHASDA was introduced in the U.S. House of 
Representatives by Representative Rick Lazio. In his remarks, 
Representative Lazio explained:

         Tribal governments and housing authorities should also have 
        the ability and responsibility to strategically plan their own 
        communities' development, focusing on the long-term health of 
        the community and the results of their work, not over burdened 
        by excessive regulation. Providing the maximum amount of 
        flexibility in the use of housing dollars, within strict 
        accountability standards, is not only a further affirmation of 
        the self-determination of tribes, it allows for innovation and 
        local problem-solving capabilities that are crucial to the 
        success of any community-based strategy.

    NAHASDA was last reauthorized in 2008 for a period of five years, 
and its authorization expires on September 30, 2013.
Summary of NAHASDA
    NAHASDA recognizes the unique relationship between the Federal 
Government and sovereign American Indian nations, authorizing tribes to 
address their distinct housing needs through various activities such as 
construction, rehabilitation, modernization, rental assistance, lending 
programs, crime prevention, and a host of other strategies. Unlike 
previous housing programs, NAHASDA recognizes the Federal Government's 
trust obligation to promote the wellbeing of Native peoples and 
empowers tribes to exercise self-determination in the development and 
implementation of strategies to address their particular housing needs.
Implementation and Impact
    NAHASDA is unique in that its recipients have the flexibility to 
use funding in a variety of ways, depending on which strategies will 
most effectively address the unique housing needs of the Native 
American people they serve. Many recipients use NAHASDA funds to 
rehabilitate existing housing and construct new units. In FY 2012 
alone, the 369 tribal recipients of NAHASDA funding used that funding 
to build or acquire more than 1,450 affordable homes and rehabilitate 
4,700 more. Since the inception of NAHASDA, recipients have built, 
acquired, or rehabilitated more than 110,000 homes. George Cortelyou 
wrote in the Seton Hall Legislative Journal that NAHASDA tripled the 
number of housing units developed or planned by Native Americans per 
year compared to the yearly average over the lifetime of the 1937 
Housing Act.
    NAHASDA also authorizes recipients to use funding for a variety of 
activities that do not involve bricks and mortar if those activities 
will most effectively address the unique housing needs of the American 
Indian and Alaska Native people they serve. A 2010 study by the 
Government Accountability Office (GAO) reported that ``in fiscal years 
2008 and 2009, approximately 50 percent of grantees used IHBG funds to 
provide tenant based rental assistance; more than 50 percent used IHBG 
funds to provide housing or financial literacy counseling; and 
approximately 30 percent used IHBG funds to provide down payment 
assistance.'' The GAO survey found that NAHASDA and its implementation 
were highly regarded among Native Americans; nearly 90 percent of 
respondents held positive views toward the effectiveness of NAHASDA.
    In Alaska, NAHASDA enables the construction of 200 new homes each 
year. It funds the rehabilitation of 550 more annually. Recipients 
engage apprentices in construction trades, helping Alaska Native and 
American Indian individuals to learn job skills that they will carry 
with them for life. Through leveraging and the engagement of private 
sector contractors and vendors, NAHASDA also employs 2,250 Alaskans 
each year.
    NAHASDA has been administered not only effectively, but also 
efficiently. Some in Congress have asked whether the current balance of 
obligated, undisbursed Indian Housing Block Grant (IHBG) funds 
indicates that NAHASDA recipients are challenged to expend the funding 
granted to them. The answer to this question is a resounding ``no.''
    The frequently noted figures include and are heavily weighted by FY 
2012 funding. Like any other capital program, housing development is a 
multi-year process, and recipients should have a reasonable period in 
which to plan for and build new housing developments. It is AAHA's 
understanding that when FY 2012 funding is removed from consideration, 
at least 94 percent of all IHBG funds have been obligated and 
disbursed.
    In other words, a very small portion of IHBG funds granted in 2011 
and years prior remains obligated but undisbursed. Further, it is 
commonly known that of that amount, a substantial portion is 
attributable to only one of the program's 369 tribal recipients. That 
particular tribe is recovering from a HUD-imposed three-year 
prohibition on expenditures for housing development, and it has 
developed a thoughtful strategy to spend down its obligated, 
undisbursed funding. It is AAHA's understanding that when this one 
particular tribe's balance is removed from consideration, the 
proportion of pre-2012 IHBG funding that remains obligated but 
undisbursed drops to only 3 percent. The remaining amount is less than 
$200 million--not even one-third of the annual Indian Housing Block 
Grant appropriation.
    When explained clearly and in context, the balance of obligated, 
undisbursed Indian Housing Block Grant funding is not an issue that 
causes legitimate concern. To the contrary, it becomes even clearer 
that NAHASDA is particularly efficient in delivering housing 
construction and development in Native American communities.
Barriers and Solutions
    To those who have witnessed the deplorable housing conditions in 
American Indian and Alaska Native communities, the need for further 
investment is apparent. In the southwest, many tribes and pueblos 
experience a degree of overcrowding that forces two, three, or even 
four families into a single dilapidated home. In the northern plains, 
many homes are deteriorated, exposed to the elements and occupied by 
some of the most impoverished families in our nation. In rural Alaska, 
many Alaska Native families have no indoor plumbing. Human waste is 
carried in buckets from the home to a small, stinking lagoon at the 
edge of the village.
    Improving these conditions means developing new housing and 
improving existing homes through rehabilitation, modernization, and 
weatherization. The most effective means of accomplishing these goals 
is the provision of additional funding for the Indian Housing Block 
Grant program. Unfortunately, appropriations for the program have not 
come close to keeping pace with inflation, leaving tribes to compete 
fiercely over the few resources that are made available.
    Periodically, the tribes and HUD engage in a negotiated rulemaking 
process to review and update the Indian Housing Block Grant allocation 
formula. Preparations for such a process are presently underway. The 
tribes, HUD, and technical experts will employ a consensus-based 
process to evaluate complicated issues such as the factors that are 
used to determine a tribe's level of housing need. The process is open, 
transparent, and equitable; however, it can also be frustrating. There 
is not nearly enough funding to come close to meeting the need for 
housing in all Native American communities. Every tribe understands 
intimately the conditions its people face, and every tribe must 
confront the stark reality that no matter how funding is allocated, 
there is not enough of it to go around. Each tribe and each community 
deserves to receive additional resources to address their housing 
conditions.
    In the absence of additional funding, modest legislative reform can 
enhance program efficacy by enabling tribal housing programs to spend 
less time navigating administrative bureaucracy and more time building 
homes.
    The draft NAHASDA Reauthorization bill being offered by the 
National American Indian Housing Council (NAIHC) contain numerous 
provisions that would break down anachronistic legislative and 
regulatory barriers to the delivery of housing in Native American 
communities. The product of more than a year of outreach by NAIHC to 
tribes and tribal housing entities across the nation, the draft 
reauthorization bill produced by NAIHC outlines numerous opportunities 
for Congress to empower tribes to more efficiently deliver housing. It 
should be noted that NAIHC's draft bill is a consensus-based product 
that has achieved broad support among the hundreds of NAIHC member 
organizations.
    Though AAHA supports NAIHC's draft reauthorization bill in full, it 
offers the following as specific examples of important reforms that 
will improve the delivery of housing in Alaska Native and American 
Indian communities:

        1.  Modernize the 30 percent Rule. The 30 percent rule provides 
        that a recipient of NAHASDA funding may not charge residents a 
        rent amount in excess of 30 percent of their adjusted income. 
        This rule both threatens the fiscal sustainability of some 
        developments and presents an ongoing administrative challenge, 
        since residents must be routinely recertified to determine 
        appropriate rent levels. The 30 percent rule must be replaced 
        with a more flexible rent ceiling with less onerous compliance 
        requirements.

        2.  Simplify Environmental Review Requirements. Projects 
        involving mixed funding or overlapping federal agency 
        jurisdiction may have duplicative environmental review 
        requirements. For example, when a housing project is funded in 
        part by NAHASDA and in part by USDA Rural Development, it may 
        be necessary to conduct two separate environmental reviews. 
        NAHASDA should be amended to provide that an environmental 
        review carried out under NAHASDA meets and discharges all other 
        applicable federal ER requirements.

        3.  Eliminate Conflicting Federal Labor Standards. Combining 
        federal funding sources can result in mandatory compliance with 
        multiple federal labor standards. For example, the HOME program 
        requires Davis Bacon wages, whereas NAHASDA permits the use of 
        Tribally Determined Wages. The inclusion of funds from other 
        federal sources should not trump a NAHASDA recipient's ability 
        to apply tribally determined wages, which already require the 
        payment of prevailing wage rates.

        4.  Eliminate Mandatory Compliance with Section 3 of the HUD 
        Act and Section 504 of the Rehabilitation Act. Section 3 and 
        Section 504 represent administratively cumbersome federal 
        requirements. Because of limited economic opportunities in many 
        Native communities, recipients have a natural incentive to hire 
        low-income tribal members. Similarly, tribes are accountable to 
        the tribal members they serve, including those with 
        disabilities. Section 3 and Section 504 rarely compel tribes to 
        act differently that they would in the absence of such 
        requirements, yet they impose upon tribes strict compliance and 
        reporting requirements.

Summary
    NAHASDA represented a positive and welcome change in federal Indian 
housing policy. It embraced the principles of tribal self-
determination, including local decisionmaking and reduced 
administrative bureaucracy. The results have been impressive, with more 
than 110,000 new homes built, acquired, or renovated for American 
Indian and Alaska Native families. However, because of the sheer scale 
of the need and a lack of sufficient funding, housing conditions in 
Native communities remain some of the worst in the nation. To further 
address ongoing barriers to the delivery of Indian Housing, additional 
funding for NAHASDA's Indian Housing Block Grant is required. In the 
absence of additional funding, modest legislative reform such as that 
within the draft reauthorization bill presented by the National 
American Indian Housing Council will provide opportunities to reduce 
barriers to the delivery of safe, affordable housing in Native 
communities across the nation.
    The Association of Alaska Housing Authorities greatly appreciates 
this opportunity to provide testimony to the Senate Committee on Indian 
Affairs regarding barriers to the development of Indian housing and 
opportunities to address those barriers.
                                 ______
                                 
    Prepared Statement of Moises Loza, Executive Director, Housing 
                           Assistance Council
    The Housing Assistance Council (HAC) appreciates this opportunity 
to submit testimony regarding the oversight hearing on identifying 
barriers to Native American housing development and finding solutions. 
Before providing testimony, HAC would like to thank the Senate Indian 
Affairs Committee for their efforts and dedication to improve housing 
conditions for American Indian, Alaska Native, and Native Hawaiians 
across the country. HAC's work with tribal housing organizations has 
helped us identify barriers that federal programs can inadvertently 
cause to Indian housing development and we appreciate your concern in 
this matter.
    Since its creation in 1971, HAC has provided financing, 
information, and technical services to nonprofit, for-profit, public, 
and other providers of rural housing. Because HAC works closely with 
local organizations around the country, including tribal communities, 
we know firsthand the housing challenges that rural Americans face. In 
addition, we have seen poverty and inadequate housing conditions most 
notably in certain areas and among certain populations, such as Indian 
Country.
NAHASDA Re-Authorization and Funding
    The ability to self-govern was a hard fought battle for most 
tribes. The Native American Housing Assistance and Self-Determination 
Act (NAHASDA) was passed in 1996 to further increase sovereign tribes' 
ability to self-govern. Prior to NAHASDA, housing assistance to Native 
American tribes and Alaska Natives was provided through various 
programs under the Housing Act of 1937 and other legislation. These 
programs were often cumbersome and were characterized by significant 
input by the Federal Government. NAHASDA simplified federal housing 
assistance to tribal lands through Indian Housing Development Block 
(IHDB) Grants and Native Hawaiian Housing Block Grants. Through 
NAHASDA, regulatory structures were reduced and tribes were allowed to 
determine how to best use grants with less federal interference.
    HAC supports the reauthorization of NAHASDA. NAHASDA is successful 
because it allows tribal communities to have the ability to decide the 
best way to spend housing block grants. However, for NAHASDA to work, 
the funding it provides must match the need seen on tribal lands. Over 
the years, Indian Housing Block Grant appropriations under NAHASDA have 
not matched inflation. In real dollars this represents a significant 
decrease in funding--funding has remained stagnant while the need has 
increased. For the program to be most effective, funding needs to at 
least keep up with inflation. Many tribes rely on the annual IHBG 
appropriation to provide services each year, and this becomes 
increasingly challenging when the funds do not match the need.
    Stagnant funding levels for Indian Housing programs prohibited 
tribal designated housing entities (TDHE) and organizations from 
meeting the need that exists on their lands. As a result, numerous 
homes on Native American lands continue to be overcrowded. According to 
2010 U.S. Census data, of homes on Native American lands, 8.8 percent 
are crowded compared to 3.0 percent nationwide. It is important to 
remember as well that census surveys typically undercount and under 
survey populations on the reservations. \1\ This reluctance to 
participate in surveys stems from remnants of American Indian, Alaska 
Native, and Native Hawaiian mistrust of the Federal Government. For 
example, in Charles Mix County, South Dakota, home to the Yankton Sioux 
Reservation, census data indicate that 2,893 of the 9,129 county 
residents are American Indian, but according to tribal enrollment on 
the reservation, the number should be closer to 3,500. As a result, the 
need on tribal lands is often more than appears in official statistics.
---------------------------------------------------------------------------
    \1\ Brandert, Melanie. 2011. SD native leaders divided on census 
data. The New Republic. February 22. Available on the World Wide Web: 
www.mitchellrepublic.com/event/contentEmail/id/50371.
---------------------------------------------------------------------------
    Stagnant funding is a concern that will only grow with time as 
Native American lands have a significantly higher population of 
children than the nation overall. According to 2010 census data, 30 
percent of the population on Native American lands is under 17 years of 
age, compared to 24.6 percent nationwide. Housing is more than shelter; 
it is directly linked to security, health, and social and mental well-
being. Crowding on tribal lands exacerbates the substandard living 
conditions that often exist therein. Social issues including lower 
educational attainment, substance abuse, domestic violence, and child 
abuse and neglect can be influenced by crowded conditions. Crowding 
affects health as well. Diseases such as increased incidences of 
tuberculosis, pneumonia, gastrointestinal disorders, head lice, 
conjunctivitis, and hepatitis among others can stem from crowded living 
conditions. Not only do substandard and crowded conditions negatively 
affect children, but they will require even more housing as they get 
married and have their own families down the line. This will require 
more funding than what is currently available. HAC is aware that 
currently some tribal NAHASDA funds remain unspent. This is not due to 
a lack of need, however, but instead demonstrative of the importance 
and need for flexibility and training and technical assistance (TTA) 
for TDHEs. Increased flexibility will benefit tribes and allow them to 
shape TTA sessions around their needs.
    Due to undercounts, HAC worries that federal efforts to determine 
housing need across Indian Country may fall short. Through our work 
with tribal housing organizations and our analyses of Census and 
American Community Survey data specifically on tribal lands, we have 
seen glaring undercounts of tribal populations and housing needs. We 
suggest providing more flexibility to tribes to enumerate their 
populations to demonstrate their need. Tribal members may be less 
hesitant to respond to surveys from tribal leaders than those from the 
Federal Government.
    Tribal lands often have significantly higher unemployment rates 
than the nation as a whole and poverty is often wide-spread. In fact, 
according to American Community Survey data, poverty rates on tribal 
lands are nearly double the national rate. As such, rents are often 
burdensome for many residents who cannot pay minimal rates. HAC 
recommends more flexibility for TDHEs to use and spend funds in ways 
they determine to be most appropriate for their residents and housing 
operations.
Conclusion
    HAC would again like to thank the Committee on Indian Affairs for 
holding this Oversight hearing to identify barriers to Indian housing 
development and for the opportunity to provide this testimony for the 
record. HAC asks the subcommittee, and the Congress, to reauthorize 
NAHASDA, but include amendments that further push Native American 
housing self-determination. Tribes themselves are best at identifying 
and determining their needs and should be allowed to do so with as 
little micromanagement as possible. For the program to see success, it 
must be adequately funded. The housing need in Indian country is great. 
We appreciate your efforts in addressing this issue.
                                 ______
                                 
   Prepared Statement of the Hoopa Valley Tribe and Housing Authority
    The Hoopa Valley Tribe and the Hoopa Valley Housing Authority are 
grateful for the opportunity to submit testimony for the Committee's 
hearing on ``Identifying Barriers to Indian Housing Development and 
Finding Solutions.'' This topic is of utmost importance to us as 
housing needs are great on the Hoopa Valley Reservation.
    The Hoopa Valley Indian Reservation is the largest reservation in 
California, covering approximately 144 square miles in the remote and 
mountainous area of Humboldt County. We have approximately 3,006 tribal 
members, the majority of whom live on the Reservation. Our Tribal 
Government runs several programs, exercising our sovereignty and 
serving the needs of our members. The Hoopa Valley Housing Authority 
(HVHA) was created under tribal law in 1968 to address the housing 
needs of our people. The HVHA has been in existence since that time 
assisting eligible persons obtain safe, sanitary and adequate housing.
    The most significant act facilitating the promotion of housing 
development in Indian Country is the Native American Housing and Self-
Determination Act (NAHASDA). NAHASDA's goals include: (1) affirming 
tribal self-determination by giving tribes the ability and 
responsibility to strategically plan their own communities' 
development; (2) providing the maximum amount of flexibility in the use 
of housing dollars, within strict accountability standards; (3) 
allowing for innovation and local problem-solving capabilities that are 
crucial to the success of any community-based strategy; and (4) 
avoiding over-burdening Tribes and housing authorities with excessive 
regulation.
    NAHASDA is unique in that its recipients have the flexibility to 
use funding in a variety of ways, depending on which strategies will 
most effectively address the unique housing needs of the people they 
serve. The Act is based on the concept that tribes themselves are in 
the best position to develop solutions to the problems they face. 
NAHASDA's flexibility, local control concepts and strong root in self-
determination are very important to the Hoopa Valley Tribe, which was 
one of the first tier of self-governance tribes and the first in the 
nation to have its compact with the United States signed.
    NAHASDA was last reauthorized in 2008 and expires on September 30, 
2013. It has been a success for Indian Country housing; it is effective 
and efficient. But this hearing provides a perfect opportunity to 
identify areas where the Act can be improved so that we can do even 
more in our effort to meet the extreme needs for housing in Indian 
Country.
The Hoopa Valley Housing Authority
    The HVHA is the Tribe's tribally designated housing entity and is 
the recipient of the Tribe's Indian Housing Block Grant Funds under 
NAHASDA. The HVHA has been able to use the tools of NAHASDA toward 
meeting the housing needs on the Reservation. The HVHA's mission is to 
provide the tribal membership with the opportunity for safe, sanitary 
and affordable housing by way of new construction, acquisition, 
rehabilitation and maintenance of existing houses. Our work not only 
meets the fundamental housing need of families and individuals, but it 
also promotes jobs and economic self-sufficiency along with the 
enhancement of quality of life with a direct relationship to our unique 
culture and traditional values.
    The HVHA employs 15 people. It offers a range of housing programs 
and opportunities for eligible persons. These programs include the 
construction and management of units of affordable housing to serve 
low-income members, and rehabilitation and modernization of Current 
Assisted Stock and other homes. We also provide housing units to 222 
Tribal member families; 155 are homeownership units and 67 are low rent 
units.
    Nevertheless, even with our several programs and efforts, our needs 
are extreme. The housing market on the Reservation is nearly non-
existent. Because the reservation is in such a remote area, there is 
very little housing stock to acquire and the homes that are available 
are in substandard condition. The majority of all housing on the 
Reservation has been financed through the Department of Housing and 
Urban Development or the Bureau of Indian Affairs. The HVHA has over 
200 qualified applicants in need of a home and even more that are in 
need of rehabilitation or modernization on their existing units.
Barriers to Indian Housing Development
Inadequate Funding
    Inadequate Funding is the biggest barrier to providing safe and 
affordable housing in Indian Country. The Indian Housing Block Grant 
(IHBG) program, the mechanism for funding housing programs in Indian 
Country, must be funded at adequate levels. Currently and historically, 
the appropriations levels have been far below need and have not even 
kept par with inflation, resulting in decreases in real dollars in the 
last few years. Sequestration adds to our concerns about the impact of 
insufficient funding on our programs.
    The allocation HVHA receives is far too small to meet the needs of 
our Reservation. The allocation for new development is only about $600-
700k. This is simply not enough as it would only allow for the 
development of 2 to 3 houses. While this would be considered progress 
to get families in a home, alleviating our need does not truly occur 
as, by the time these few homes are ready for families at the top of 
the waiting list, that amount of families or more would join the bottom 
of the waiting list. Even with all our work, the need remains constant 
as new families come in requiring assistance and join the list.
    Further, the allocation that many tribes receive is not enough to 
complete a major project. The Hoopa Tribe is need of major projects to 
address the limited housing opportunities on the Reservation. The HVHA 
is currently working on a major new construction project along with 
three elder projects and modernization of Current Assisted Stock. Our 
allocation is just not large enough to complete a major project such as 
the one the HVHA is working on with one year's worth of allocation. The 
HVHA needs to save its allocations up year to year to have enough 
funding to embark on a project such as our Campbell Field Subdivision 
Project, which will add up to 10 rental duplexes and up to 13 single 
family homeownership units to our existing stock of affordable homes.
    We understand that some in Congress have raised the issue of 
``unexpended'' obligated IHBG funds. The majority of tribes, including 
Hoopa, do not have problems spending down NAHASDA monies in a timely 
manner. In fact, we understand that overall NAHASDA has a very 
efficient spend-down rate. However, we also understand that logistical 
and bureaucratic obstacles can slow the actual spending of the money. 
The HVHA complies with the LOCCS draw-downs, and runs on an accrual 
accounting basis. We do not draw funds until the back-up documentation 
is prepared to support the amount of the draw. Having said this, HVHA 
is prepared to draw down a substantial amount of funds based on 
processed payment and checks that have already been applied to the 
bank. Further and significantly, the HVHA has signed contracts in place 
for the Campbell Field Expansion project consisting of 3 single family 
rental units, the 3 private elder home rehabilitation projects and the 
modernization projects for our Current Assisted Stock.
    At Hoopa, however, the IHBG funds are planned for and the project 
depends on this funding. The issue has been that for small tribes the 
allocation is just not large enough for such major projects and funds 
need to be banked until a certain threshold amount is available to 
allow moving forward with the project.
Duplicative and Inconsistent Federal Requirements
    Duplicative and inconsistent federal requirements in the housing 
arena create substantial administrative burdens for tribes and tribally 
designated housing entities like the HVHA. They also cause delay in 
project initiation and completion. Since IHBG funding amounts are not 
adequate to cover costs of entire projects, many times tribes will seek 
out funding from other federal agencies to add to the IHBG amounts. 
This is a good practice as it leverages funding from NAHASDA, but it 
becomes problematic in implementation because the federal regulations 
governing the funding often overlap, forcing the recipient to comply 
with two sets of requirements. Compounding the problem is that 
sometimes these different requirements are inconsistent. For instance, 
the regulations for the NAHASDA IHBG funds and the regulations for the 
Rural Housing and Economic Development Grant are inconsistent in 
several areas, including in the use of Indian preference and in 
environmental reviews.
    Further, for the HVHA most of our housing is built on leased trust 
lands. With this, the HVHA is bound by the leasing requirements imposed 
by the Bureau of Indian Affairs which has its own environmental review 
requirements. With this, HVHA projects can be subject to at least 2 and 
sometimes more environmental reviews, each of which must adhere to the 
specific criteria set forth by the different agencies involved. These 
circumstances result in administrative and management burdens and 
additional costs, which can lead to significant delay in embarking on 
or carrying out a project.
    HVHA would support an amendment to NAHASDA that would allow for the 
environmental review requirements of NAHASDA for the project even when 
funding is provided by other federal agencies.
Conclusion
    The Hoopa Valley Tribe and the HVHA appreciate the opportunity to 
submit testimony for this important hearing. We look forward to working 
with the Committee on the reauthorization of NAHASDA.
                                 ______
                                 
 Prepared Statement of Ricardo Worl, President, Tlingit Haida Regional 
                       Housing Authority (THRHA)
    My name is Ricardo Worl, I am the President of Tlingit Haida 
Regional Housing Authority (THRHA), and also a member of the Tlingit 
tribe and the Shungukeidee (Thunderbird) clan from the village of 
Klukwan. I started working for THRHA as the Mortgage Loan Program 
Manager in 1999, a year after NAHASDA was enacted.
    THRHA receives about $7 million annually in NAHASDA funds on behalf 
of 12 tribes (villages) in the Southeast region of Alaska. The 12 
communities we serve are spread out over an area about the size of 
Pennsylvania, have populations of less than 3,000 and can only be 
accessed by water or aircraft.
NAHASDA Works In Our Region
    THRHA has put HUD money to work and into direct services for the 
roughly 9,000 tribal members in our region. THRHA actively provides the 
following NAHASDA housing programs:

        1) New Construction
        2) Mortgage Loan Financing
        3) Down Payment Assistance
        4) Rental Acquisition
        5) Senior Housing
        6) Student Housing Vouchers
        7) Energy Efficiency and Emergency Repairs
        8) Financial Literacy and Energy Conservation classes
        9) Transitional Housing
        10) Alternative Energy heating systems

    The 20 percent allocated for administration is not sufficient to 
cover the actual costs of running this many programs in this many 
communities. THRHA is able to subsidize administrative costs with other 
grants and revenue sources. For every $1 spent of NAHASDA funds, we are 
able to leverage with $3 to $4 dollars of other funds from the state or 
private sector.
Flat Funding is a Barrier and Poses Financial Challenge
    Federal NAHASDA appropriation amounts have essentially remained 
unchanged since 1998. When we take into consideration the fact that 
there were no adjustments for inflation, the net effect is an 11 
percent reduction in NAHASDA funds since inception.
    Adding to the challenge of flat funding is the fact that the 
NAHASDA funding formula does not provide subsidies for operating and 
maintaining newly constructed or acquired units. Regulations limit the 
units to low-income families and payments to 30 percent of household 
income thereby eliminating the ability to produce sufficient rent 
revenue to offset the cost of operations. The result is tribes are 
forced to use their annual NAHASDA allocations to pay for operating 
costs or rent subsidies instead of new development. Any further 
reductions to NAHASDA funding will pose even greater financial hardship 
on a housing program that is proven to be effective.
Our NAHASDA Programs Are Designed to Break the Cycle of Poverty and 
        Dependency
    THRHA's NAHASDA housing programs and tenant policies are designed 
promote financial independence and self-reliance. We have eliminated 
outdated HUD policies that enabled a culture of dependence. THRHA 
provides incentives for tenants who learn the value of using the home 
as an asset to get ahead and break the cycle of poverty that has 
plagued Indian country for generations.
    In addition to housing, NAHASDA funds provide jobs and economic 
opportunity to our small rural communities. The NAHASDA allocations for 
each community are commonly greater than the local government's total 
annual budget! THRHA leverages its funds with a strong partnership with 
the State of Alaska and through private sector financing with regional 
banks.
The Solution: More Funding, Not Less, Please
    We finally have a system that works for tribal housing. NAHASDA is 
not perfect but we have maximized its efficiency and impact in direct 
services to clients while at the same time empowering tribes in the 
decisionmaking process. Placing a cap or reducing NAHASDA funding is a 
step backwards and will likely cost us more in the long run.
                                 ______
                                 
     Prepared Statement of James W. Zion, Attorney and Jurisconsult
    During the course of yesterday's hearing there was a discussion of 
tax credits and section 184 housing, and as you asked Rodger Boyd about 
the data base his department keeps to show needs assessments, and he 
explained its shortcomings, you observed that too often the Committee 
hears one thing in Washington, and it hears something quite different 
when visiting Indian Country. That is a very true comment, and I want 
to build on it as I relate the views of a client to supplement the 
record of the hearing.
    My client is the ``Navajo Public-Private Partner,'' called that 
after the provision in section 101 of the Native American Housing 
Assistance and Self-Determination Act of 1996 that requires all 
grantees to ``make all reasonable efforts . . . to maximize 
participation by the private sector, including nonprofit organizations 
and for-profit entities, in implementing the approved housing plan.'' 
This organization is a coalition of ten Navajo grassroots organizations 
that came together for the common purpose of supporting Navajo Nation 
government in the case of Navajo Housing Authority v. Resources and 
Development Committee, No. WR-CV-218-2012 (Navajo Nation Window Rock 
District Court, 2013).
    The Resources and Development Committee of the Navajo Nation 
Council exercises oversight over the Navajo Housing Authority on behalf 
of Navajo Nation government and the Authority disputed committee action 
on the approval of commissioners on the ground that some of its 
commissioners had a ``liberty'' interest to office, although their 
terms expired. The District Court, exercising great caution, entered a 
preliminary injunction against the Committee and required it to enter 
into discussions with the Authority for six months. Members of the 
Navajo Nation Council rightfully introduced legislation to clarify the 
authority of the Committee over appointments to the Navajo Housing 
Authority's board of commissioners, make oversight jurisdiction over 
the authority clear and consider a measure to strip the Navajo Housing 
Authority of its designation as the Navajo Nation's tribally designated 
housing entity (under NAHASDA), so the Authority charged the 
Committee's members with contempt of court.
    The Navajo Public-Private Partner entered the case to relate the 
Navajo Housing Authority's failure to do equity and comply with the law 
as an equitable ground to deny relief and dismiss the action. There was 
a hearing, and on March 19, 2013 Judge Carol K. Perry dissolved the 
injunction on the ground that the plaintiffs did not have standing to 
complain of any aggrievement. The Navajo Public-Private Partner is 
primarily a grassroots coalition of organizations and it has supporters 
who could not be named out of fear of retaliation by the Navajo Housing 
Authority. They include at least two community development 
corporations, some private developers and one builder, so the 
``Partner'' is truly representative of ``the private sector'' of the 
Navajo Nation. We note that there is discussion about the re-
authorization of appropriations under section 108 of NAHASDA and we 
believe that the hearing, and other activities on housing in 
Washington, signal the beginning of that process.
    To build on your comment about the disconnect between what the 
Committee is told in Washington and what is actually happening in 
Indian Country on housing, we raise these points:

    1. There is no ``partnership'' or ``public participation'' as 
required by Section 101

    Dine' bi Siihasin, one of the members of the partnership, wrote to 
the Regional Director of HUD Indian Housing Programs in Denver (who has 
assisting the Navajo Housing Authority with budget issues) complaining 
of violation of the participation provision of section 101 and he 
agreed that the Navajo Housing Authority was not in compliance.
    It is unfortunate that the structure of NAHASDA is one where the 
only interface is between tribes or their designated housing entity and 
HUD, the public cannot rely on HUD to protect their interests (given 
``self-determination'' provisions as a barrier), and there is no 
statutory command for effective public participation, notice, 
involvement, transparency or accountability.
    Public pleas to be informed of Navajo Housing Authority activities 
are ignored, the Authority regularly ignores requests for information 
under the Navajo Nation Privacy Act, one cannot identify the members of 
the Authority's board of commissioners on its website, so the basic 
principles of good governance mentioned in the prior paragraph do not 
exist.
    We believe that the situation is the same throughout Indian 
Country, given the structure of the act and lack of enforcement of the 
participation command.

    2. The Indian Housing Plan and Annual Performance Report Process is 
Badly Flawed

    Section 102 of NAHASDA requires the submission of a one year 
housing plan for review and approval at least 75 days before the 
beginning of a housing program year. The plan has detailed information 
that proposes housing activities for a given program year and 
justification for the same. Section 103 has no provision for public 
comment or appeal when HUD reviews such plans.
    Section 404 of NAHASDA requires recipients to report on program 
progress in carrying out the Indian housing plan after the close of a 
fiscal year and that the report be made available to the public.
    The experience with the Navajo Housing Authority is that its Indian 
housing plans are developed in secret, there is no notice of review by 
the Board of Commissioners and there is no public input when the plan 
is presented for oversight committee review.
    The HUD Inspector General commanded the Authority to develop an 
adequate statement of needs, to genuinely describe the manner of 
geographical distribution of assistance under section 102(B)(2)(B) and 
the Navajo Housing Authority has not done so in any meaningful manner. 
It has spent millions of dollars for a purported needs assessment that 
does not describe the need of the five agencies and the chapters and 
the Navajo Housing Authority does not comply with capital improvement 
legislation that requires notice, involvement and needs identification 
by chapter governments. The Navajo Housing Authority set up an 
artificial and meaningless division of its operations in five in-house 
organizations and they are meaningless.
    Annual performance reports are published only on the Navajo Housing 
Authority web site and they are practically meaningless. Reviews of 
past such reports shows that they are defective but no one in HUD seems 
to be reading them and noting inadequacies.
    We feel that, given the structure of NAHASDA to practically exclude 
the public, Indian housing plans are meaningless and only a 
bureaucratic exercise and reporting to the public is wholly inadequate. 
There is no meaningful public involvement in either process.

    3. Indian housing planning and implementation is not ``locally-
driven''

    There are a few federal court decisions on Indian housing plans, 
and at least two point to the provision in 24 C.F.R.   1000.220 on the 
``minimum requirements for the IHP'' that ``An IHP should be locally 
driven.'' That is not the case.
    The Navajo Nation is divided into five large agencies and 110 
localities called ``chapters,'' and many Indian nations have their 
reservations or Indian areas divided into districts or identified local 
communities. The Senate Indian Affairs Committee needs to ask whether 
this regulatory command to assure that the annual Indian housing plan 
is indeed ``locally driven'' is followed.
    As mentioned, the Navajo Housing Authority does not follow the 
command of the capital improvement statute that it notify the chapters 
of proposed funding, plans, needs assessments, etc. and there is no 
meaningful chapter input. This is likely the situation throughout 
Indian Country.

    4. There is no accountability or competence

    The annual performance plan requirement is an attempt to have 
accountability. One need only read the past annual performance plans 
that are published on the Navajo Housing Authority web site and 
particularly note the report of ``no'' goal accomplishments to wonder 
what HUD does with such reports.
    Another recent development in the Navajo Nation is the Navajo 
Housing Authority aggressively litigating its exemption from suit, 
including recent attempts to extend limitations to any private sector 
suit against the Authority, to the point that the Navajo Nation Supreme 
Court is speculating about the extent to which it should craft 
exceptions for tenant and participant litigation.
    The point is that HUD does not require that tribally designated 
housing entities must comply with statutory requirements, there is no 
protection of the public and there is no effective accountability. We 
do approve the concept of self-determination, but if there are no 
meaningful statutory provisions for accountability, access to court or 
access to remedies when the law is broken, then there is no real 
accountability.
    The Navajo Housing Authority has bungled several projects, as is 
apparent from at least two of its recent HUD Inspector General for 
Audits reports, but one of the worst disasters was its defunding of a 
project to complete a shelter for woman and child victims of family 
violence in Shiprock. When the Navajo Housing Authority withdrew its 
support, without adequate grounds or due process of law, Navajo Nation 
government falsely used a determination by the NHA to block 
construction. As a result, an expensive shelter for women remains 
unfinished, at a large cost, and women and children are left without 
adequate refuge. This is of course an issue related to violence against 
Indian women and VAWA reauthorization. The Shiprock Home for Women and 
Children has had no remedy against the Navajo Housing Authority, or 
Navajo Nation government, because of sovereign immunity and no one has 
held the Authority accountable for its actions.

    5. The Indian Housing Program is not democratic or transparent

    One of the apparent deficiencies in the federal Indian housing 
statute on the books is that there are no commands or restrictions 
regarding grantee transparency, effective notice, inclusion, 
involvement, public information, accountability or effective remedies 
such as to make Indian housing programs truly ``democratic'' and 
responsive to the Indian public.
    These are only small points that cover five subjects and we look 
forward to the introduction of legislation to renew funding 
authorizations for this program. Funding for Indian housing must not be 
cut. It must be increased. The legislation must, as this hearing 
brought out, encourage and command partnerships, leveraging of funding 
and more innovative use of limited resources.
    The problem, however, is that such is not done. These points were 
covered in my clients' friend of court brief in the case described 
above and my clients do want to be heard on future Indian housing 
barrier and solution discussions.
    Senator Cantwell, it is obvious from your comments to Mr. Boyd that 
you know that something else is going on underneath the surface. The 
Indian housing program is vital and self-determination is a proper 
model. However there must be meaningful reforms to the program to make 
it more democratic and responsive.
                                 ______
                                 
           Prepared Statement of the Navajo Housing Authority
    The Navajo Housing Authority (NHA) is thankful for this opportunity 
to submit testimony to the United States Senate Committee on Indian 
Affairs for the oversight hearing on, ``Identifying Barriers to Indian 
Housing Development and Finding Solutions,'' held on April 10, 2013. We 
appreciate the Committee's efforts to highlight the importance of 
Indian housing, and to hold a hearing that examines the complexities 
and innovative solutions to providing housing in Indian Country. The 
NHA hopes that the Committee will find this testimony both informative 
in grasping the housing development challenges on the Navajo Nation, 
and to understand and appreciate the direction that NHA is headed in 
helping to build sustainable and vibrant communities.
    The NHA is the Tribally Designated Housing Entity (TDHE) for the 
Navajo Nation. NHA is the largest Indian housing authority, and is 
nearly the eighth largest public housing authority in the United 
States. NHA is comparable in size to the public housing agency for the 
City of Atlanta. The Navajo Nation is the largest Indian tribe in the 
United States, with a total enrollment of approximately 300,048 tribal 
members, and the reservation has a land-base of 26,897 square miles 
that extends into the states of Arizona, New Mexico, and Utah.
    Comprised of 375 employees and staff, NHA manages 8,026 housing 
units that consist of approximately 3,882 public rental units and 4,144 
homeownership units including 29 separate administrative facilities. 
There are fifteen separate field offices and one residential Management 
Corporation managed by NHA to deliver service to tribal members 
residing within 110 Chapters (local regional government units) and 
their surrounding communities. It is important to note that the NHA is 
an anomaly in the public housing sector--there is no large-scale public 
housing provider like NHA that operates in an expansive rural 
reservation area with unique land issues.
    The housing development challenges on the Navajo are complex 
because of our sheer scale of operation, tribal land status and socio-
economic conditions.
    The mission of NHA is Housing our Nation by Growing Sustainable 
Communities. On May 1, 2013, the NHA will move into a new chapter in 
its history as it celebrates its 50th year in operation. The 50th 
anniversary of NHA will be more than a celebration of its past success, 
but it will be a commencement to inaugurate a new vision for the next 
50 years to come. This year alone NHA is on track to build and 
modernize 537 homes across the Navajo Nation. After completing an 
expansive scientifically based housing needs assessment in 2011, the 
organization forged ahead on an initiative to create a sustainable 
community master plan for the entire Navajo Nation--a master plan that 
will help NHA execute large-scale housing development projects in the 
coming years. Even more, the organization is expanding the veterans 
housing program and transforming its homeownership program to include 
individuals from low, moderate and high incomes, so that all Navajo 
families can partake in the dream of homeownership. It is the goal of 
NHA to help build a home for every Navajo family while strengthening 
the socio-economic fabric of the Navajo Nation.
Indian Housing Drives Community and Economic Development
    NHA understands that housing is a key component to community and 
economic development. It establishes a foundation for positive growth 
by increasing structure and security. As the availability of housing 
helps sustain a growing population, it increases the chances of 
establishing needs for better schools, better health care, more 
business start-up opportunities, in turn, creating more jobs. In brief, 
here are a few ways housing drives community and economic development.

  <bullet> Grows Infrastructure: In many Navajo communities on the 
        reservation there were no power-lines, telephone lines or even 
        roads before houses were constructed. Housing created the 
        infrastructure and helped further develop the communities.

  <bullet> Better Schools: Indian educators say that the lack of 
        housing impacts retention and recruitment of quality teachers, 
        therefore impacting the value of an education received on the 
        reservation.

  <bullet> More Businesses: More development creates more business 
        opportunities, such as gas stations, restaurants, fast food, 
        and other small businesses.

  <bullet> Creates Transportation: Housing creates transportation needs 
        for the community bringing roads to access schools, businesses, 
        and other developments. (i.e. roads need to be built which 
        requires personnel to oversee and maintain roads.)

  <bullet> Better Health Care: Indian health reports state that a major 
        cause to poor health care in Navajo communities is the 
        inability to attract and retain quality medical staff. This is 
        primarily due to the lack of housing on the reservation.

  <bullet> Grows the tax base: Housing facilitates business development 
        and job creation. More businesses and jobs create a healthy tax 
        base which in turn provides services to the Navajo people such 
        as schools, hospitals, public safety and roads.

    Since housing impacts the community development and economic 
growth, to fully build sustainable Navajo communities NHA is executing 
strategies to create large-scale housing development that integrates 
larger community and economic development goals.
Barriers to Housing Development on the Navajo Nation
    While there are many barriers to housing development in Indian 
Country, the NHA would like to focus attention on the larger unique 
housing development challenges that exist on the Navajo Nation. Those 
bigger challenges are the absence of large-scale land-use planning, 
numerous federal and tribal regulations on land-use, lack of 
infrastructure development, and scarcity of investment and funding for 
housing and community development.
    The Navajo reservation area is very rural and expansive, and most 
of the land is predominantly trust land which brings with it 
limitations on its immediate use, and this has been a major issue for 
any housing or community developments efforts. Much of the reservation 
lacks modern basic infrastructure, such as paved roads, electrical 
power-lines, telecommunications, and potable water and sewer systems. 
Providing this infrastructure is difficult because of the vast and 
varied rustic nature of the land. Moreover, many of the smaller Navajo 
communities do not have close access to healthcare or emergency 
response systems, and schools. It is not uncommon for tribal members to 
travel hours to see a doctor, seek social services, or to buy 
groceries. Many Navajo children can spend countless hours on buses to 
travel to-and-from their closest school.
    The numerous and pervasive federal and tribal laws and regulations 
over land use create undue delays in housing development projects. From 
a federal compliance perspective NAHASDA is a very technical program 
because any development requires complying with NAHASDA program 
statutes and regulations, and a myriad of other applicable regulations. 
The process of housing construction, including related infrastructure, 
triggers other federal laws and their compliance with regulations and 
oversight in several other federal agencies and funding partners. These 
include, but are not limited to, environment reviews and clearances 
(Environmental Protection Agency), procurement laws (Office of 
Management and Budget), labor laws (Department of Labor), architecture/
engineering, contract laws and administration, building code compliance 
and inspections, and among many other federal agency laws and 
regulations. When it comes to leveraged financing, NHA must meet 
outlined funding requirements from several federal agencies--including 
the Department of Agriculture for rural housing, Department of 
Transportation for road construction, IRS for Tax Credits, etc.
    Attaining land leases for housing and infrastructure projects has 
been a major barrier to timely housing development. However, the Navajo 
government was a leader in successfully pushing for federal reform of 
the federal land leasing guidelines in 2000 by having Congress enact 
the Navajo Nation Trust Land Leasing Act (25 U.S.C.  415(e). The 
Navajo Leasing Act authorizes the Navajo Nation to negotiate and enter 
into lease agreements and renewals of leases of trust lands without the 
requirement that the Secretary review and approve such leases. The Act 
required the Navajo Nation to develop regulations governing such leases 
including, among other requirements, an environmental review process, 
before it could institute its own land leasing regime. In July 2006, 
the Secretary approved the Navajo Nation's leasing regulations. The 
Helping Expedite and Advance Responsible Tribal Homeownership Act 
(HEARTH Act), which became law in 2012, was modeled after the Navajo 
Leasing Act. Both laws change the face of leasing on Indian Country by 
providing tribes local authority over leasing on tribal trust land.
    While the Navajo government has pursued and gained federal reform, 
leasing on Navajo trust land still holds some internal challenges. 
Unlike other tribes, Navajo has a more traditional form of land-use 
management that includes grazing rights arrangements in which familial 
grazing areas continue to be recognized, and accepted. These ``rights'' 
to the land are afforded to some citizens. Moreover, the Navajo 
government structure is largely decentralized with 110 regionalized 
communities, called Chapter-governments, which have local authority 
over most development within their jurisdiction. When undertaking any 
housing project, the NHA consults and coordinates projects with the 
local Chapter-governments to not only ensure that the project is 
meeting its intended outcome, but to also coordinate land availability, 
leasing authority, and collaboration for joint infrastructure 
development.
    Another major internal challenge to housing development is the 
Navajo government's own review process for any major development 
activity requiring tribal approval, and execution of contracts using 
federal funds allocated to the Navajo Nation, or amendments to those 
contracts. The process, known as the 164 review process, is outlined in 
the Navajo Nation Code and was created to ensure proper internal 
controls were provided for major activities. However, over the years 
the process has become cumbersome. For any one housing project NHA may 
engage in the 164 review process for the following approvals: site 
selection and land withdrawal, execution of a memorandum of agreement 
with a local Chapter-government, review and sign contracts to procure 
an architectural and engineering firm and building contractor, and to 
make any amendments to major contracts. The process can take anywhere 
from a month to several months. According to an internal analysis, the 
164 review process takes 68 percent of a project's time, leaving only 
17 percent of the total time spent on actual construction. A housing 
project could be stalled for months should there be a modification to 
the project that requires an amendment to the contract. With short 
building cycles and project timelines the 164 process can greater delay 
a housing project--some projects may take anywhere from four to nine 
years to complete.
    The NHA was pleased to hear that on Tuesday, April 23, 2013, that 
Navajo Nation President Ben Shelly had signed an executive order that 
would streamline the 164 review process. Through signing Navajo Nation 
Executive Order 07-2013 the Navajo President states that the review 
process will be shortened to take no longer than one month, and the 
measure strongly encourages the tribal government reviewers to provide 
more timely reviews. The new process, which will be operational on July 
1, 2013 is encouraging news to the NHA, and if successful will help to 
shorten the internal delays caused by the tribal government review. It 
is important for the Federal Government to understand that, unlike 
other tribes, the Navajo Nation government is a large entity handling 
considerable duties and responsibilities and its operations are 
comparable in size to a state government. While NHA encourages the 
Navajo government to streamline its internal processes, it also 
understands the unique limitations that the government is placed in, 
and will work in partnership with the tribal government to overcome 
these internal challenges.
How NHA is Addressing the Housing Need
    After experiencing a reorganization of the NHA in 2007, the new 
leadership (including the Chief Executive Officer and the Board of 
Commissioners) set on a path to create a multi-faceted approach to 
address the unique internal and external barriers to housing 
development on the Navajo Nation. NHA discovered that the organization 
needed to launch several initiatives that would lay the groundwork for 
large-scale sustainable housing and community development. First, the 
organization figured it would start by assessing and analyzing its 
current housing need on the Navajo Nation. From 2009 to 2011, the 
organization completed a comprehensive scientifically sound housing 
needs assessment study for the Navajo Nation. Simultaneously, the NHA 
built a technologically advanced land information management system 
that would provide a tool and resource for planning while meeting an 
unmet need for flood plain maps. With these resources in hand, NHA took 
the planning process a step further and began a monumental effort to 
complete a sustainable community master plan for the entire Navajo 
Nation that would aid in large scale housing development. And finally, 
the organization initiated the development of an expanded homeownership 
program that includes financing options for individuals and families 
from low, moderate and high income levels.
Navajo Housing Needs Assessment Study
    In 2008, NHA began planning its housing needs study to build a 
gauge and a baseline to measure the housing need on the Navajo 
reservation. No prior study had ever been completed. The overall 
outcome that NHA desired was to have a comprehensive assessment 
conducted through surveys, and to house a database system that would 
serve as a repository of data that could be retrieved, sifted, screened 
and analyzed. Based on numbers from the 2000 Census, there were 
approximately 44,000 households on the reservation and it was the goal 
to garner a 25 percent representative statistical sampling to achieve a 
95 percent confidence level in the data. The firm Tribal Data 
Resources, Inc. was retained to assist in the development of the 
household survey instrument. 200 local Navajo community members were 
hired as enumerators. Surveyors used Global Positioning System 
technology to document rural Navajo home-sites that were not located in 
existing housing projects or available maps.
    The housing needs assessment study was completed in August 2011. It 
is the first study of its kind ever conducted for the Navajo Nation 
using a statistically sound representative sampling of family 
households on the Navajo reservation. The study revealed astonishing 
statistics--it showed that the Navajo Nation needs 34,100 new homes and 
34,300 existing homes are in need of major repair. The total equates to 
$9 billion in unmet need.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    It is ironic that subsequent to the launch of the NHA Housing Needs 
Assessment Study, the 2010 Consolidated Appropriations Act was enacted, 
which required HUD to perform a Housing Needs Study that will identify 
Native American housing needs. HUD launched its study in 2010 but has 
yet to even start its survey process, and is tied up in consultations 
because tribes are concerned about the methodology and planned approach 
of how the study is to be conducted and completed. The NHA will 
recommend to HUD to attach the Navajo Nation Housing Needs study as a 
supplement to the overall HUD Report, when completed.
NHA Land Information Management System
    NHA undertook the daunting task and challenge of surveying the 
Navajo Nation's 17 million acres of mountainous high desert terrain to 
be incorporated into a sophisticated Land Information Management System 
(LIMS). The main goal of the project was to create, collect, maintain 
accurate floodplain delineation information and develop, implement and 
maintain a modern land and geographic information management system 
that is horizontally and vertically integrated and one that provides 
useful quality data for NHA's housing development purposes. Prior to 
the completion of the NHA-LIMS, the organization had to procure 
entirely new floodplain maps for projects in a large portion of the 
reservation because no maps existed. In other regions of the 
reservation another problem existed because there were too many map 
systems with no standardization of information. NHA's solution to both 
problems was to create a unique coordinate system that covers the 
entire Navajo Nation, thus in turn improving accuracy and efficiency 
all while meeting Federal Geodetic Control Subcommittee (FGCS) 
standards.
    Broken into two phases, the project required ground control 
surveying and digital aerial photography. Using a digital mapping 
camera NHA's land survey department photographed the entire Navajo 
Nation at a 2-foot resolution. Once the images were taken the next step 
was to rectify the images for horizontal accuracy to meet Federal 
Geodetic Data Committee and FGCS data accuracy standards. A total of 
3,229 aerial images were taken which were then stitched together into 
5,000 x 5,000 meter tiles. The final deliverable was a seamless image 
of the entire Navajo Nation. Unlike other mapping applications such as 
Google maps, which can provide an inconsistent mapping plane and odd 
discolorations, NHA LIMS offers a seamless image of the Navajo Nation 
with superior image resolution.
    The second part of the project, Land Information Management System 
and Data Integration, involved the analysis of certain computer system 
requirements to ensure the stability of the LIMS. Next, documents of 
the aerial data were then scanned into the LIMS programs followed by 
the identification and incorporation of existing Navajo data layers, 
which included Chapter-government boundaries, the Navajo road network 
provided by the Navajo Department of Transportation, and the 
integration of data on water, sewer, and electric infrastructure 
provided by the Navajo Tribal Utility Authority.
    Full implementation of the LIMS was completed in 2012. Some of the 
applications the LIMS can be incorporated to include is a baseline 
database for E911 and rural addressing, disaster recovery services, 
parcel mapping, flood plain studies, master and land use planning, 
cultural and historical preservation, utilities mapping, asset tracking 
(including title conveyance and home-site leases), project survey 
control, tree and vegetation delineation, Navajo Nation road inventory, 
natural resources management, residential development, realty, land 
records management, land title plant, topographic and planimetric 
mapping, elevation modeling, volumetric inventories, and NHA 
enforcement and geospatial data validation. The LIMS program will 
provide an array of professional land & geographic information 
management services. Its uses are limitless. Overall, the project will 
improve NHA land records accuracy and minimize overall costs by 
reducing duplication with promoting data compatibility to increase 
efficiency and yield land information readily available to NHA housing 
development projects.
Navajo Nation Sustainable Community Master Plan
    The data revealed from the Navajo Housing needs assessment study 
showed a huge unmet need in housing, but it also painted an across-the-
board picture of the demographics of the entire Navajo populace, and a 
snapshot of every community on the reservation. The impetus for this 
major first-ever initiative was due to the fact that NHA had no more 
withdrawn land to build homes, and development was limited to only in-
fill development; however, there was a tremendous documented housing 
need. Additionally, infrastructure is the costliest component for 
development and NHA needed to share costs for integrated infrastructure 
for not only housing but local community and economic development in a 
regional setting approach. The NHA leadership understood that using 
smart growth principles optimizes land use with the underlying goal of 
sustainability in mind.
    The project was started a year ago, and to date Swaback Partners, 
PLLC, lead by Vernon Swaback, has completed 5 agency kick-off meetings, 
24 regional workshops and has delivered 110 community master planning 
manuals to each of the 110 Chapter-governments. In addition to the 5 
agency meetings and the 24 regional workshops, Swaback also held a 
workshop for students at the Arizona State University to gather input 
and perspectives from the youth on what they envision their Navajo 
communities to look like in the future. ``We wanted to hear from the 
youth because they are a huge part of the community,'' said NHA CEO, 
Aneva J. Yazzie. ``The youth are our future leaders, they are going to 
be the future community members and workers.''
    For fiscal planning it was important for NHA to know how many 
houses the organization is going to build five to ten years down the 
road, and how much it is going to cost. In the past, NHA has focused 
its efforts on low income housing but the vision is to build 
apartments, employee housing, offer mortgage programs, and clustered 
housing to serve families from all income levels. Another goal with the 
master plans is to entertain and explore the idea of clustered style 
housing complexes.
    Vernon D. Swaback, managing partner of Swaback Partners is leading 
the project. At age, 17, Swaback was the youngest apprentice of Frank 
Lloyd Wright a famous American architect, interior designer, writer and 
educator. Swaback Partners brought together 30 years of extensive 
experience working with a broad spectrum of groups on community master 
plans within the United States primarily within the greater southwest.
NHA Expanded Homeownership Program
    The NHA Housing Needs Assessment study showed that approximately 75 
percent of the tribal population had very low income levels below the 
poverty level. This information correlates with the high unemployment 
rate of 65 percent on the Navajo Nation. The remaining 25 percent of 
the tribal population are non-low income and yet, there is no housing 
for those that had middle to high incomes--which include Navajo 
professionals and essential personnel like doctors, nurses, teachers, 
firefighters, police workers, etc. With the ever constrained federal 
funding level, NHA had to strategize on delivering housing among the 
two extremes of need.
    As a result, NHA developed a policy to expand its housing services 
to provide housing for ALL ranges of income. NHA had already adopted an 
Essential Personnel Policy and will soon adopt a homeownership program 
policy for non-low income families/individuals so that deep subsidies 
on one end of the pendulum can be offset by revenue stream netted from 
assisting the highest income families using private financing. NHA will 
also set internal controls to separate the revenue streams of income 
from public/private leveraged financing.
    The new homeownership program policy was adopted by the NHA Board 
of Commissioners in March 2013. NHA is now enhancing its in-house 
capacities with professions that have the particular skill-set for 
mortgage underwriting/financing, loan servicing and homeownership 
counseling. Once this capacity is fully attained, NHA will execute an 
intensive public education and outreach to its communities of the new 
homeownership program. Those having home site leases with utilities 
lines nearby will be amongst the first wave of clients to receive 
assistance.
    The leveraged financing will primarily be sought from the private 
financial sector via the HUD Section 184 mortgage loan guarantee 
program. Other federal program resources will be sought to leverage 
NAHASDA dollars to optimize and maximize housing services delivery.
    In light of the outcome of the sustainable community master 
planning initiative, NHA sponsored its first-ever Funders Forum in 
November 2012. Major banking and financing institution that have an 
established record of working in Indian housing attended the event, 
including representatives from the Department of Agriculture and HUD 
officials. All attendees expressed their interest in working with NHA 
given its demonstrated management and financial capacities. A minimum 
of half a billion dollars is expected to be attained through leveraged 
financing to build new homes and related utility infrastructure.
Conclusion
    NHA strongly believes that the Native American Housing Assistance 
and Self Determination Act (NAHASDA) is an effective program, and 
overall tribes have spent nearly 90 percent of the federal funds 
allocated to the program--NHA itself has a fairly good expenditure rate 
of approximately 68 percent overall. However, it must be noted that 
whenever one compares the Navajo Housing Authority to any other Indian 
Housing entity they must consider the sheer differences in size, 
regions, and nature of the programs. It is known that NHA is an anomaly 
within HUD--it is the largest Indian housing authority and when 
compared to public housing it would be considered the eighth largest 
public housing authority in the nation. It also known that providing 
housing in any rural setting is grueling, but Navajo experiences 
unique, complex and large-scale challenges when providing housing over 
a 27,000 square mile area.
    Like many of our colleagues in Indian housing, the NHA participated 
in the development of the consensus position for the NAHASDA 
Reauthorization. As part of that consensus position NHA believes that 
provisions of the position should be included in the reauthorization 
and that proposals to alter or change the Indian Housing Block Grant 
(IHBG) funding formula or the process of formula negotiated rulemaking 
should be vehemently opposed by the U.S. Senate. We believe that any 
changes to the formula should be made in negotiated rulemaking amongst 
tribes who are the IHBG recipients. Any attempt to change that process 
would violate the tribal government-to-government consultation process 
that is the foundation of federal Indian policy.
    The Navajo Nation experiences a severe need for housing, the recent 
comprehensive Navajo Housing Needs Assessment Study showed a need for 
34,100 new housing units, and an additional 34,300 existing housing 
units need extensive major repairs--the total needs amount to a minimum 
of $9 billion. On average Navajo receives $90 million a year from the 
Indian Housing Block Grant, however, a large portion of those funds are 
used to maintain current existing housing units and the remaining 
amount is used for new construction, planning and administration, model 
projects, crime prevention, and other housing services. To meet the 
unmet housing needs on the Navajo Nation and within Indian Country, the 
Federal Government would need to make vigorous investment into housing 
development in tribal communities. Unfortunately it is the reality that 
without the direct federal investment for housing in tribal 
communities, Indian Country will struggle to continue keeping pace with 
the mainstream housing sector.
    NHA appreciates the opportunity to provide you this written 
testimony for the record, and would be please to answer any questions 
that the Committee or the Senate may have.
                                 ______
                                 
   Prepared Statement of Gary J. Cooper, Executive Director, Housing 
                    Authority of the Cherokee Nation
Introduction
    Chairwoman Cantwell, Vice Chairman Barrasso, and distinguished 
members of the United States Senate Committee on Indian Affairs (SCIA). 
My name is Gary J. Cooper and I serve as the Executive Director of the 
Housing Authority of the Cherokee Nation. On behalf of the Cherokee 
Nation, the Housing Authority of the Cherokee Nation of Oklahoma, and 
the Cherokee people, thank you for holding this important oversight 
hearing, which could not be more appropriate or timely as discussions 
begin here on Capitol Hill surrounding the reauthorization of the 
Native American Housing Assistance and Self-Determination Act, known as 
``NAHASDA''. On behalf of the Cherokee Nation, I submit the following 
comments for inclusion in the record of the U.S. Senate Committee on 
Indian Affairs Oversight Hearing held on April 10, 2013, entitled 
``Identifying Barriers to Indian Housing Development and Finding 
Solutions''.
    The Cherokee Nation (CN) is the federally recognized government of 
the Cherokee people and has inherent sovereign status recognized by 
treaty and law. The seat of tribal government is the W.W. Keeler 
Complex near Tahlequah, Oklahoma, the capital of the CN. With more than 
300,000 citizens, over 8,000 employees and a variety of tribal 
enterprises ranging from aerospace and defense contracts to 
entertainment venues, CN is one of the largest employers in northeast 
Oklahoma and the largest tribal nation in the United States.
    The Housing Authority of the Cherokee Nation of Oklahoma (HACN) is 
an Indian Housing Authority established in 1966, under the Oklahoma 
Indian Housing Authority Act. HACN is governed by a five member Board 
of Commissioners, nominated by the Principal Chief and approved by the 
Council of the CN.
    Both the CN and HACN provide services under the Native American 
Housing Assistance and Self-Determination Act of 1996 (NAHASDA). 
Services are provided in the tribal jurisdictional service area of the 
CN which covers a geographical area of over 7,000 square miles in 
northeastern Oklahoma. It includes all of eight counties and portions 
of another six. The fourteen counties within the CN are: Adair, 
Cherokee, Craig, Delaware, McIntosh, Mayes, Muskogee, Nowata, Ottawa, 
Rogers, Sequoyah, Tulsa, Wagoner, and Washington.
    As an Indian Housing Authority, established under state law, HACN 
shares a unique relationship with the city and county governments 
across the CN. Intergovernmental cooperative agreements are in place 
with every county and most towns within this area. All land held in the 
HACN's name is held in fee simple status, with HACN making annual 
payments in lieu of tax. Oklahoma is unique in that no reservations are 
in the state. Our assisted units are frequently located in the same 
neighborhood as non-Indians.
Background
    The CN and all Oklahoma tribes are unique in that we do not have 
reservations or an exclusive land base. The CN operates within an area 
referred to as the Tribal Jurisdictional Service Area (TJSA), which 
stretches across 7,000 square miles of northeast Oklahoma. This area 
was the new home to the Cherokee's after our forced removal from our 
homeland in the southeastern United States during the ``Trail of 
Tears''.
    Today, the Cherokees co-exist with people of nearly every 
ethnicity. Some Cherokee lands may be bordered on four sides by land 
owned by non-Cherokees or non-Native Americans. Cherokee children 
attend public schools with non-Cherokees and many non-Cherokees benefit 
directly and indirectly because of the good work provided by the CN. 
Infrastructure improvements to rural water systems that benefit 
Cherokees and non tribal members in the region are an example of the 
cooperative efforts that combine the resources of multiple governments 
to provide safe sanitary water for all. This ``spill-over effect'' has 
a tremendous impact that benefits all residents living in Northeast 
Oklahoma.
    Based on 2010 Census data, within the CN TJSA resides some 193,030 
American Indian/Alaska Native households. The overwhelming majority of 
that number is estimated to be Cherokee. Census data also estimates 
that over 18 percent of the people residing within the TJSA are below 
the poverty level. The NAHASDA program uses 80 percent of the National 
Median Income (NMI) as a basis for services, while the Section 184 Loan 
Guarantee Program does not have an income limit. The Poverty Status in 
the 2007-2011 American Community Survey, estimates the poverty rate 
amongst Native Americans in CN to be 21 percent.
HACN Managed Housing Units
    At the end of fiscal year 2012, HACN owned and managed over 2,000 
housing units available for rent to Native American families. These 
units consist of 1937 Housing Act units and NAHASDA units, available 
for rental or homeownership opportunities.
    HACN owns and manages 903 units that are over thirty-one years old, 
with the oldest being built in 1969. This number doesn't include 
twenty-five units that were old Army barracks, trucked in and made 
available for housing in 1968. Those 25 units were approved in an 
amended Indian Housing Plan to be demolished and rebuilt in another 
location. Many problems exist with those units, including some that 
have tested positive for asbestos. HACN has relocated the families who 
resided in these units, and is working towards being able to demolish 
and rebuild.
    Due to the aging stock of our rental units, maintenance costs 
continue to rise. Additional money is set aside to modernize these 
units each year. However, the fact still remains that as the units 
continue to age, costs for upkeep will continue to rise, and regardless 
of the improvements made, the units are still of a traditional style 
apartment comparative to the time constructed.
    At the end of the last fiscal year, HACN owned and managed over 
1,135 homeownership units. Many families are now becoming elderly and 
require handicap accessibility. Some families still fall into the very, 
very low income category and many times cannot afford to perform basic 
maintenance. It becomes important to be able to invest modernization 
funds into these units to assist low income families with handicap 
accessibility and emergency repairs such as a leaky roof.
Rental Assistance Program
    The HACN simply does not have enough units for every low income 
Native American that needs a place to call home. HACN operates a Rental 
Assistance Program (RAP) that is similar to the Section 8 program in 
public housing. Under RAP, a low income family's rent becomes 
subsidized for rental units on the open market. Due to the ability to 
effectively manage housing programs, HACN ends up being able to assist 
many more families than planned. HACN also offers a temporary rental 
assistance program for families that need assistance for up to ninety 
days. Under these two programs, HACN is able to subsidize nearly $4 
million towards rental units for over 2500 families. Because of the 
positive impact of RAP within CN communities, other public housing 
programs are better able to serve other low income families.
Low Income Housing Tax Credit Projects (LIHTC)
    Historically, HACN has utilized LIHTC incentives to reduce the cost 
it would normally incur to provide low income housing to elderly and 
other low income families. This was accomplished by participating in 
four partnerships which have built LIHTC projects in four qualified 
areas of the CN. The projects comprise 155 housing units and are 
managed by outside parties under management agreements as provided by 
the partnership agreements. The HACN, through Cherokee Affordable 
Housing, Inc. (CAH) is the general partner in each partnership. The 
partnerships were created, applied for, and eventually received LIHTC's 
through the Oklahoma Housing Finance Authority. The four projects 
consist of Jay Senior Housing (elderly) located in Jay, OK; Stilwell 
Sr. Housing (elderly) located in Stilwell, OK; Wisdom Keepers (elderly) 
located in Tahlequah, OK; and Northview Estates (single family) located 
in Vian, OK. These projects not only provide low income housing for 
Native Americans, but also for any eligible low income family. Because 
of the highly competitive nature, lack of a Native American set-aside, 
and limited funding of the LITHC incentives, HACN has not applied for 
the program in over a decade.
NAHASDA Title VI Loan Program
    In July of 2002, the CN, HACN, Bank One, N.A. (now JPMorgan Chase 
Bank, N.A.) and the United States Department of Housing and Urban 
Development entered into a Title VI loan agreement, under the 
authorization of NAHASDA whereby the Nation was authorized to borrow up 
to $50 million for purpose of enabling HACN to construct single family 
residences within the TJSA. Through supplemental agreements and the 
final notes, the cumulative amount of funds drawn was $33,231,000 for 
the program. The final project allowed HACN to construct or acquire 
single family units for income eligible Native American families within 
the CN. The outstanding loan balance at September 30, 2012 totaled 
$13,039,002.
Section 184 Loan Guarantee Program
    HACN has used the Section 184 program to acquire an additional $1.3 
million in property to assist eligible families with housing 
opportunities. This includes one quad-plex rental unit that is located 
near the Indian Health Services Claremore Indian Hospital.
    HACN is currently working to construct homes under a new program. 
This program will allow for Section 184 Loans to be used to construct 
new single family units within the CN. The plan would allow for HACN to 
construct, through sub contracts for the construction, homes for 
Cherokee families. The plan allows for family owned land to be 
transferred to HACN for construction or to construct on land already 
owned by HACN. Repayment would be through a rent to own agreement, with 
the option for eligible families to assume the Section 184 mortgage in 
the future. At full implementation, this plan is estimated to construct 
at least 300 new homes per year, using Native American sub contractors 
for the construction. The use of sub contractors allows for small 
businesses to compete, but also for HACN to insure the quality of the 
construction of each home. The program takes the best aspects and 
practices of the HACN's nearly fifty years experience in Indian 
Housing.
Barriers That Exist
Funding Availability
    Unlike other funding contracted or compacted under P.L. 93-638, 
Indian Housing funding has traditionally been at the discretion of the 
Federal Government to make monies available under NAHASDA. For example, 
we are now into our seventh month of the current fiscal year, HACN has 
requested 25 percent of last year's appropriated funding and although 
requested, that amount has not been made available for drawdown. In 
fiscal year 2012, NAHASDA funds were not made available until the sixth 
month of the fiscal year. No compact, similar to ones through the 
Bureau of Indian Affairs or Health and Human Services, exists to 
maintain at least minimal levels of funding are available for Indian 
Housing activities at the beginning of each fiscal year.
Accessibility to Other Funding Sources
    While the HACN has accessed Low Income Housing Tax Credit (LIHTC) 
funding in the past, there are no guarantees in place that ensure 
funding specifically for Indian tribes. Therefore tribes must weigh the 
costs of preparing a project for a LIHTC application and the 
uncertainty receiving funding.
    The Section 184 Loan Guarantee program is an excellent program for 
tribes. However, the uncertainty of that program was realized recently 
when HUD took the extreme action of ``temporarily'' suspending the 
program. Not only were tribes affected, but many more individuals were 
affected. Horror stories have been relayed by families that were under 
contract and were forced to either seek funding somewhere else at 
higher costs, or give up the ``American dream'' of homeownership 
altogether.
    The ability to participate in other programs not traditionally 
offered to tribes would also be beneficial. This could include the HUD 
pilot program of ``Moving to Work'' and many others. Outside of 
NAHASDA, most housing programs are not offered to tribes for 
participation. The ability of tribes to have the accessibility to other 
types of housing funding would greatly increase the ability of all 
Native Americans to access other leveraging opportunities.
Impact by Cherokee Nation During FY 2012
    Although housing programs are offered to Cherokees and other Native 
Americans, the economic impact stretches far beyond our families. 
Rental assistance payments are paid on open market rentals, regardless 
of an owner's ethnicity. Materials are procured from business that may 
employ both Indians and non-Indians. Public utility bills may be paid 
to utilities that employ non-tribal members or even support a state-
wide public enterprise. The economic impact from housing dollars 
administered by the CN can have a dramatic impact in the regional 
economy. During previous fiscal year, CN impacted the jurisdictional 
area as follows:

  <bullet> Employed the equivalent of 331.66 full time employees in 
        permanent positions and 15.76 part time positions as part of 
        direct program costs.

  <bullet> Operated 944 low rent apartment units, across fifteen 
        communities in the CN.

  <bullet> Provided nearly $4 million in rental or temporary assistance 
        for over 2,500 families.

  <bullet> Provided for the rehabilitation, repair, or replacement of 
        dilapidated privately owned homes for 299 families.

  <bullet> Provided modernization funding to improve over 460 low rent 
        apartment; 36 homes; and handicap accessibility to 5 homes that 
        were owned and managed by HACN.

  <bullet> Provided drug awareness and crime prevention at 221 events, 
        as well as law enforcement and patrol activities for 913 HACN 
        owned/managed properties.

  <bullet> Provided transitional housing assistance to 2,373 families 
        to prevent homelessness or families from losing their homes.

  <bullet> Provided credit coaching, household budgeting, and self-
        sufficiency counseling to 585 families. With the intended 
        purpose to increase credit worthiness and financial stability 
        to secure and maintain affordable housing. Provided additional 
        down payment and closing costs assistance to 117 families to 
        obtain residential mortgages.

  <bullet> Provided 1,423 youth, residing in HACN low income housing 
        units, with traditional, cultural leadership, and drug 
        elimination activities.

  <bullet> Provided 455 residents with job skills, case management, and 
        employment assistance programs.

  <bullet> Provided a career literacy center to assist residents with 
        basic skills to improve reading and math levels and GED 
        preparation.

  <bullet> Provided payment assistance to 605 families for assistance 
        with emergency rental payments, utility payments, or other 
        utility assistance.

  <bullet> Provided 45 college students with project based college 
        housing assistance at Northeastern State University as part of 
        a ``scholars program''.

Conclusion
    Once again, thank you Chairwoman Cantwell, Vice Chairman Barrasso, 
and members of the Senate Committee on Indian Affairs for allowing me 
to submit these statements regarding the challenges and potential 
solutions to meeting the housing needs of Native people throughout 
Indian Country. Your continued support of our efforts, including a 
timely reauthorization of NAHASDA before the end of this fiscal year, 
is truly appreciated. Myself and my staff at the Housing Authority of 
the Cherokee Nation stand ready to assist you in any way that we can to 
preserve and promote Indian Housing opportunities for future 
generations.
                                 ______
                                 
   Prepared Statement of Hon. Ed Delgado, Chairman, Oneida Tribe of 
                          Indians of Wisconsin
    The Oneida Tribe of Indians of Wisconsin is grateful for the 
opportunity to provide comments to the Senate Committee on Indian 
Affairs regarding the Native American Housing and Self-Determination 
Act (NAHASDA) Reauthorization. Oneida has made great strides in the 
area of affordable housing with federal funding received annually 
through NAHASDA, however, improvements are still needed and could be 
addressed through increased funding and modest programmatic changes.
    Oneida is supportive of the legislative reforms presented in the 
National American Indian Housing Council (NAIHC) draft language and 
urges consideration and inclusion of these programmatic changes in 
order to streamline process and increase efficiency to maximize Indian 
Housing Block Grant (IHBG) dollars. We address below some of those 
proposals that most dramatically impact Oneida and our ability to 
adequately provide housing for our people. In summary, we are concerned 
about the following:

        Inadequate Funding--Proposed FY 2014 funding is 23 percent 
        below 1997 levels in today's dollars.

        Burdensome Regulations--A cross-agency universal application 
        needs to be developed to reduce administrative burdens on 
        tribal housing agencies and federal bureaucrats.

        Low Income Tax Credit Program--More flexibility needs to be 
        provided so tribes can meet debt obligations and encourage 
        broader development.

        Alternative Economic Indicators Needed--Census track data does 
        not discretely define populations of Indian residents, causing 
        some tribal communities to become ineligible for certain 
        housing programs.

Inadequate Funding
    The initial authorization for NAHASDA when it was made effective in 
1997 was $592 million. In the 16+ years since passage of NAHASDA, 
funding has remained essentially flat, as evidenced by the President's 
FY14 budget proposal that continues NAHASDA funding at $650 million. 
When accounting for inflation, a $650 million appropriation for tribal 
housing is actually less funding than when the program was initially 
authorized in 1996 ($841 million would be considered level funding). 
While the funding level has remained the same, the need in Indian 
Country is increasing. Grants through IHBG must be dedicated to the 
operation and maintenance of existing housing and therefore results in 
less funding to construct new units. There are many Oneida members who 
live in other areas of Wisconsin and throughout the United States who 
dream of making the reservation their home; however we lack the means 
to provide them the opportunity to return.
    The current Business Committee was elected to office in August, 
2011, and has adopted the following mission for our term of office: In 
3 years, this Oneida Business Committee will aggressively grow the 
Oneida Indian Reservation as a beautiful, vibrant community where 
hundreds of additional Oneida families live.
    The membership of the Oneida Tribe consists of 16,789 Oneida 
enrolled citizens. Of those, the amount of members 18 years old and 
above is 13,433. There are 4,409 members living within the reservation 
boundaries with 2,777 living in the surrounding counties of Brown and 
Outagamie. There are 2,041 members who reside in the Milwaukee area and 
an additional 2,151 members who reside within the State of Wisconsin, 
outside of the reservation. Clearly, the Oneida Tribe has a vast Indian 
population living in Wisconsin who may have a desire to return home.
    Currently, Oneida families, single adults and adult couples in the 
low-to-moderate income level continue to be the largest demographic in 
need of housing. The Oneida Housing Authority (OHA) has two types of 
housing available: rentals and homeownership. Renting is a viable 
option for many families.
    Single adult units are an unmet need. To address this need, the OHA 
is in the process of constructing units for single adults. In addition, 
OHA is constructing elderly cottages and elderly duplexes in the newly 
developed Green Valley subdivision located in the heart of Oneida.
Burdensome Compliance Requirements
    The OHA receives an annual appropriation from NAHASDA. However, OHA 
is limited in their project scope. OHA continues to research a variety 
of funding methods in order to leverage NAHASDA dollars. However, as 
highlighted in the NAIHC draft document and in a number of testimonies 
provided to the committee during the Tribal Housing hearing on April 
10, 2013, the pooling of funds from various grant programs and federal 
agencies results in burdensome and redundant compliance requirements. 
Oneida supports the NAIHC recommendations to consolidate the 
environmental review process and prevailing wage requirements.
Low Income Housing Tax Credits
    The Low Income Housing Tax Credits could be very beneficial to 
assist with the creation of the development of mixed use/mixed income 
neighborhoods, which would also offer a variety of resources for 
infrastructure development. However, this program includes an 
obligation to collect a certain amount of rental income; this is a 
significant liability for the Tribe as a result of the 30 percent rule. 
We cannot collect enough rent to sustain the amount that would be 
obligated under the LIHTC program.
Census Data for Median Income
    The Oneida Tribe has made a concerted effort to create a quality of 
life in our community that provides our people with a vision for the 
future and an appreciation for the rich cultural history and traditions 
of our people. This is reflected throughout the Oneida community 
through our buildings and community programs. It is our hope that we 
will be able to continue to examine disadvantaged areas that are not 
being served as needed. One particular area that we feel needs to be 
addressed is the use of census data to allocate appropriate funding. 
The Oneida Reservation is divided into multiple census tracks and we 
believe the data from these census tracks greatly skew the American 
Indian population data due to the inclusion of non-Indians. For 
example, the median income, according to census data, is $65,962 for 
the entire Oneida Reservation population, which includes American 
Indians and non-Indians. However, when this data is broken down 
further, the median income for when only the American Indian population 
on the Oneida Reservation is included is $40,662. This $25.000 
difference often results in Oneida becoming ineligible for various 
State and Federal funding opportunities.
    We look forward to continued dialogue as the reauthorization of 
NAHASDA moves forward and would be happy to provide any additional 
information and answer any questions you may have. Thank you for the 
opportunity to submit comments to the Committee.
                                 ______
                                 
Prepared Statement of Hon. Paul Brooks, Chairman, Lumbee Tribe of North 
                                Carolina
    The Lumbee have been working for decades to address housing 
disparities for tribal members. The Lumbee Tribe of North Carolina has 
a population of approximately 55,000, of which approximately 42,000 
live within the tribal service area in Southeast North Carolina. Since 
2010, the Lumbee have constructed 35 homes and rehabilitated 110 homes. 
In 2008, the Tribe leveraged $400,000 of NAHASDA funds to create a $7.5 
million low income housing tax credit project. The project is comprised 
of 50 single family energy star certified units with three bedrooms and 
two baths. This was the first project of its kind in North Carolina. On 
behalf of the Lumbee people, thank you for allowing me the opportunity 
to provide this testimony to the United States Senate Committee on 
Indian Affairs.
    The purpose of this hearing is the ascertain information regarding 
barriers to Indian housing development and solutions to eliminate those 
barriers. Americans across the Country deserve to live in safe, 
sanitary houses. In 1996, Congress recognized that the disparity of 
housing in Indian Country was so great that new legislation was created 
to address those needs. This legislation was unique in that it allowed 
Indian Nations the ability to meet those needs in the most culturally 
sensitive manner. In these economic times, Tribes understand that the 
federal dollar is spread thin. However, legislative reform is necessary 
to address the process of administering the Native American Housing 
Assistance and Self-Determination Act of 1996 (NAHASDA) allowing more 
resources be spent on program activities rather than on reporting and 
navigating administrative bureaucracy. The following testimony will 
address some specific examples of the referenced reform.
Background
    Prior to the enactment of NAHASDA, housing for Indian Country was 
addressed through the 1937 Housing Act and other federal legislation. 
These programs were rigid and cumbersome to use because the programs 
lacked the flexibility required to meet housing needs in Indian 
country. Tribes were forced to adopt housing models designed for urban 
public housing programs who had differing population densities, 
differing construction costs, and dramatically different cultural 
issues faced by the population to be served. When NAHASDA was passed, 
Indian country breathed a collective sigh. In one piece of legislation, 
Congress strengthened the government-to-government relationship between 
the United States and Tribes, reduced excessive regulation by 
implementing tribal self-determination measures, and provided tribes 
flexibility to determine the most efficient way to address their 
individual tribal needs. The legislation maintained accountability for 
federal funding by requiring strict reporting by Tribes and auditing 
processes conducted by the U.S. Department of Housing and Urban 
Development.
Summary of NAHASDA
    NAHASDA recognizes the unique relationship between the Federal 
Government and sovereign American Indian Nations, authorizing tribes to 
address their distinct housing needs through various activities such as 
construction, rehabilitation, modernization, rental assistance, lending 
programs, crime prevention, and a host of other strategies. Unlike 
previous housing programs, NAHASDA recognizes the Federal Government's 
trust obligation to promote the wellbeing of Native peoples and 
empowers tribes to exercise self-determination in the development and 
implementation of strategies to address their particular housing needs.
Implementation and Impact
    Tribal recipients of NAHASDA have the flexibility to use funding in 
the manner that will most effectively address the unique housing needs 
of the Native American people they serve. NAHASDA has enabled 
recipients to build, acquire, and rehabilitate more than 110,000 homes. 
Recipients have tripled the number of housing units that have been 
developed or planned by Indian Country each year compared to those 
planned or developed under the 1937 Housing Act.
    NAHASDA allows recipients to use funding for activities other than 
construction and development, including rental assistance, home loans, 
housing or financial literacy counseling, and down payment assistance. 
The Lumbee Tribe has used housing funds to create 50 units by 
leveraging block grant funds with private dollars through the Low 
Income Housing Tax Credit program. We led the country in the number of 
HUD guaranteed Section 184 loans to allow individuals to attain 
mortgage funds from private lenders. We have also used funds to provide 
transitional housing for individuals who have lost their home due to 
natural disaster.
    HUD, through the Office of Native American Program, effectively 
administers the program through technical assistance and being 
available to discuss potential projects. HUD also performs detailed 
audit site visits and monitors fund expenditures. With these protocols 
in place, funding is both obligated and expended in an appropriate 
manner by the tribal recipients.
    When looking at the unexpended, unobligated funds issue, those 
tribes have specific impediments preventing their expenditure of funds. 
Those tribes have developed a plan to spend down the money, have 
discussed this plan with HUD and have a timeline for accomplishing the 
same. Tribes have regional obstacles to expend funds. Housing 
development is a multi-year process and tribes should be given a 
reasonable time to plan and build housing units based on the regional 
obstacles facing their individual housing program. In general, tribal 
spend-out rates are good.
Barriers and Solutions
    Tribes have proven since the inception of NAHASDA that the program 
works. The insurmountable obstacle for tribes is that funding for the 
program has not kept up with inflationary rates. In order to address 
housing needs in Indian Country, the NAHASDA program needs to be funded 
at an appropriate level. Tribal Housing professionals see the need in 
our tribal communities on a daily basis: homelessness, multiple 
families crowded into one single family dwelling, and housing without 
adequate utilities (heat, water and sanitation) are just a few 
examples. Tribal leaders are heartbroken to see children born into and 
elders die in these conditions. NAHASDA appropriations simply do not 
provide enough money to go around. This funding insufficiency 
unfortunately pits tribe against tribe, not because of commonality of 
circumstance, but because each tribe has a fiduciary responsibility to 
its membership: provide adequate housing. Everyone would like to get 
more money from the process. It can feel like the process is broken 
because each and every program is trying to meet a dire need and is not 
getting enough money to do so. Everyone deserves more money, but the 
funds that Congress provides are just too limited.
    While tribes understand that in this economic environment 
additional funding may not be a realistic goal, modest legislation 
changes could enhance programmatic efficacy by reducing bureaucracy. 
NAIHC's draft NAHASDA reauthorization bill contains numerous provisions 
that would break down legislative/regulatory barriers. NAIHC's draft 
bill is the result of more than a year of tribal outreach and is a 
consensus-based product with broad support from the hundreds of NAIHC 
member organizations. The draft provides Congress with various 
opportunities to empower tribes to more efficiently deliver housing. 
The Lumbee support the NAIHC reauthorization bill in its entirety, but 
the following are key examples of changes suggested for the 
reauthorization: (1) reform the 30 percent rule, (2) simplify the 
Environmental Review Requirements, and (3) consolidate the federal 
labor standards (TDW/Davis Bacon).
Summary
    NAHASDA represents a point in history that will be remembered as a 
date of positive change for Indian housing. The results speak for 
themselves and cannot be equivocated. However, because of the lack of 
funds and the level of need, housing conditions in Indian Country 
remain some of the worst in the nation. To even make gains on the 
worsening conditions, Tribes must be given more funding. In the absence 
of additional funding, modest legislative reform must be adopted to 
provide a modicum of opportunity to reduce barriers to the delivery of 
housing in Indian country.
                                 ______
                                 
  Prepared Statement of Hon. Edward Paul Torres, Governor, Pueblo of 
                                 Isleta
    On behalf of the Pueblo of Isleta, located in Isleta New Mexico, I 
am writing to ask your support of the reauthorization of the Native 
American Housing Assistance and Self-Determination Act (NAHASDA) of 
1996 (Public Law 104-330) in the 113th Congress. Since 1998 when 
NAHASDA was implemented, NAHASDA has been the primary means of 
developing housing for low income Native American families. In the 
Pueblo of Isleta, NAHASDA is the primary source of funding for the 
development of new homes and the rehabilitation of traditional homes 
and homes built under the U.S. Housing Act of 1937.
    The Pueblo of Isleta is one of nineteen Pueblos in New Mexico with 
a population of over 5,200. The Isleta Pueblo is on an Indian 
Reservation whose land is primarily held in trust by the Federal 
Government. Isleta has 261 housing units for its resident population. 
It has a housing shortage of 95 units. Approximately 50 percent of 
Isleta households live in overcrowded conditions. Approximately 30 
percent of all occupied homes are in substandard condition. Many 
occupied traditional homes are in dire need of structural and other 
improvements to meet habitability standards, including lack of 
infrastructure.
    The primary source of funding for housing development on the Isleta 
Pueblo is the Indian Housing Block Grant (IHBG) authorized under 
NAHASDA. Isleta receives approximately $1 million of IHBG funds each 
fiscal year to manage and maintain 90 units and build 7 new homes per 
year. In Fiscal Year (FY) 2012, the Pueblo of Isleta received 
$1,004,463.
    Isleta leverages its IHBG funds with program income and tribal 
funds. Within the past two years, the Pueblo of Isleta Housing 
Authority, who administers NAHASDA funds on behalf of the Isleta 
Pueblo, has constructed 22 new homes using a combination of NAHASDA and 
ARRA funds. The Isleta also used IHBG funds to rehabilitate 21 homes.
    In calendar year 2012, Isleta completed 31 housing development and 
rehabilitation projects for its community using IHBG funds. Isleta also 
began with the construction of 9 new homes in 2012.
    NAHASDA was drafted with the support of Indian tribes and their 
tribally designated housing entities. NAHASDA recognizes the 
government-to-government relationship that exists between the Federal 
Government and Indian Tribes. NAHASDA is the primary means by which the 
United States fulfills its trust obligations to provide safe, quality, 
and sanitary housing for low income Native Americans.
    The Isleta Pueblo Housing Authority is a member of the National 
American Indian Housing Council (NAIHC), which represents the housing 
interests of Native people who reside in Indian communities, Alaska 
Native Villages, and on Native Hawaiian Home Lands. NAIHC has developed 
a legislative proposal for the reauthorization of NAHASDA in FY 2013, 
which includes amendments to NAHASDA. The amendments are proof that 
NAHASDA is a living document, evolving through its use by Indian tribes 
and in the spirit of cooperation between the Federal Government and 
Indian tribes. The views of the Isleta Pueblo are represented in 
NAIHC's legislative proposal for the reauthorization of NAHASDA which 
has been submitted to Congress. We ask that you support the 
reauthorization of NAHASDA in 2013 and the amendments to NAHASDA which 
have been submitted by NAIHC.
    I invite you to visit the Pueblo of Isleta to see firsthand the 
homes being built and rehabilitated through NAHASDA.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                            Paul Iron Cloud
    Question. Why do tribes find it necessary to do their own housing 
needs assessments? Is accurate data available from HUD or other federal 
agencies and, if not, why.
    Answers. Federal efforts, including NAHASDA negotiated rulemaking, 
continue to inaccurately determine the varying housing needs of tribal 
members and fail to allocate federal funding appropriately. The U.S. 
Census was a temporary data source selected by the NAHASDA Negotiated 
Rule Making Committee in 1998. However, it does not by its design works 
well in remote areas where most tribes are providing housing services 
and therefore, undercounts the need and population. Also, the Census, 
because of legal restrictions, cannot accurately identify enrolled 
members of federally recognized tribes, who are by statute are to be 
the primary beneficiaries of NAHASDA programs. Over the past fifteen 
years HUD has not been able or willing to identify other sources of 
uniform data for Indian areas that are capable of alleviating these 
problems.
    Today in many federal programs, funds are to be primarily awarded 
based on the needs of enrolled tribal members. However, when U.S. 
Census figures are used they do not count enrolled members, they no 
longer determine things like housing conditions, they continue to 
inaccurately count the number of persons on Indian reservations and 
they are based on responses from people who self-identify themselves as 
being Indian. Since local needs are not being properly determined, 
grants and program funds are being inequitably and ineffectively 
distributed among tribes.
    It is for these reasons we at Oglala Sioux (Lakota) Housing and 
four other tribal housing programs have taken the unusual step of 
joining together to fashion a global positioning system (GPS) and 
geographic information system (GIS) based local housing needs 
assessment procedure. This is known as the Dakota Housing Needs 
Assessment Pilot Project. After a year of joint activity we will each 
conclude five local statistically accurate housing surveys and an 
accompanying analysis this summer. If all NAHASDA recipients were 
required to do this, and in a like manner, these tribal needs 
assessments can produce accurate and useful local, regional and 
national needs figures. More importantly, NAHASDA, and in particular 
the Indian Housing Block Grant funding, could then be more accurate and 
appropriate to the purposes of the Indian Housing Block Grants program.
    We are also providing this Committee, along with others, a 
recently-completed video of the Dakota Pilot Project which explains how 
the Pilot Project has been implemented on the participating 
reservations and what impact it can have.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Tim Johnson to 
                            Paul Iron Cloud
    Question. How will tribes use the data collected by the Dakota 
Pilot Project to improve reservation housing?
    Answer. If this approach is utilized universally by all NAHASDA 
recipients it will provide an economical, efficient and effective way 
to satisfy the tribal member population and need count for the Indian 
Housing Block Grant Program. In addition it can produce the following 
additional benefits.

        1. Provide accurate and appropriate formula data for other 
        federal funding allocations (e.g., transportation and roads),

        2. Build on reverse 911 mapping programs to produce an 
        invaluable mapping and data collection process that tribes can 
        tailor and customize to address a wide variety of community 
        programs,

        3. Establish a process that can be easily and periodically 
        repeated and updated,

        4. If universally required of NAHASDA recipients, it can 
        provide not only a national picture of tribal member housing 
        needs but also give tribes, the U.S. Department of Housing and 
        Urban Development and Congress the ability to better direct 
        housing funding and monitor the success of the NAHASDA program.

        5. For the first time it will establish an accurate methodology 
        to quantify multiple households in a single housing unit and 
        better assess the overcrowded housing that plagues many tribal 
        populations,

        6. Provide a platform and resources for conducting HUD's 
        national homeless count,

        7. Give tribal housing programs incredible tools and capacity 
        to modernize their planning, development and management of 
        housing, and

        8. Until universally mandated by NAHASDA, it allows tribes to 
        use it to efficiently perform a ``census challenge'' in the 
        Indian Housing Block Grant Program.

    We believe that this Dakota Housing Needs Assessment Pilot Project 
has nationwide application and can change how housing need is 
determined on reservations and result in better allocation of federal 
tribal housing funds. It is our hope that later this summer our Pilot 
Project will be able to report to Congress, the U.S. Department of 
Housing and Urban Development, Office of Management and Budget, and our 
fellow tribes that there is a housing needs assessment model that can 
be universally conducted by all NAHASDA recipients.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John Barrasso to 
                             Rodger J. Boyd
    Question 1. In her written testimony, Ms. Cheryl Causley 
[Chairwoman of the National American Indian Housing Council] suggests 
that the various Federal housing resources be ``pooled'' to achieve 
better economies of scale. This proposal is intended to improve 
efficiencies by streamlining burdensome administrative requirements 
from the multiple Federal funding streams. It is already being 
implemented in labor and employment training programs for Indians. What 
are your views on this proposal?
    Answer. HUD supports streamlining programs and relieving burdensome 
administrative requirements. The 2008 amendments to the Native American 
Housing Assistance and Self-Determination Act of 1996 (NAHASDA) 
authorized ways in which this could be accomplished for Indian housing 
while maintaining the appropriate level of oversight of the program by 
HUD. HUD is currently exploring ways in which the environmental review 
process among agencies can be streamlined along with working closely 
with the Bureau of Indian Affairs (BIA) and the Indian Health Service 
(IHS) on land and infrastructure matters.

    Question 2. Ms. Annette Bryan [Executive Director, Puyallup Tribal 
Housing Authority] states in her written testimony that when tribes 
undertake construction projects involving multiple sources of Federal 
funding, additional bureaucratic requirements and administration costs 
are incurred. For example, when funding from the Bureau of Indian 
Affairs and Departments of Housing and Urban Development (HUD) and 
Agriculture is blended for a construction project, three separate 
environmental review requirements and different prevailing wage rates 
apply. According to Ms. Bryan, the resulting administrative and legal 
costs reduce the amount of funds available for constructing homes.
    She proposes that a tribe should be deemed to have satisfied all 
applicable environmental review requirements that might apply to a 
multiple-funding sourced project if the tribe satisfactorily completed 
the applicable HUD environmental review process.
    Ms. Bryan also proposes that a tribe be authorized to apply the 
tribally determined prevailing wage rate to all sources of Federal 
funds used in a project which is also funded in part by the NAHASDA 
block grant funding. What are your views on Ms. Bryan's proposals?
    Answer. HUD generally supports streamlining the environmental 
review process and labor standards when multiple sources of funding are 
used for a project. Please see the answer to Question 3 for further 
detail on HUD's efforts regarding the environmental review process.

    Question 3. How does HUD coordinate with other Federal agencies on 
the environmental review processes for recipients blending funding from 
these agencies for a construction project?
    Answer. HUD agrees that requiring grantees to submit duplicative 
environmental reviews for the same project is an administrative burden. 
HUD supports the idea of having a single environmental review for all 
Federal requirements. However, each agency must comply with current 
rules and meet the minimum standards in the authorizing or regulatory 
language that makes the funding available.
    It is most common for HUD-funded housing projects (especially 
larger projects) to be funded jointly by the Indian Health Service 
(IHS) and HUD. HUD funds are used for the construction of housing while 
IHS funds are used for infrastructure-bringing water to the site and 
constructing provisions for sanitation and the disposal of waste water. 
Due to joint funding, it is common for HUD and IHS to coordinate the 
environmental review as well. The environmental review process used by 
HUD is the most comprehensive, and is unique in that HUD regulations 
permit tribes to be the responsible entity. Under 24 CFR Part 58, 
tribes are responsible for completing the environmental reviews of 
projects. However, the process that IHS uses meets about 90 percent of 
HUD's requirements. In these cases, HUD asks the tribe for what is 
missing in the IHS review but required by HUD.
    There is a difference in the methods and procedures used across 
federal agencies to meet the requirements of the National Environmental 
Policy Act (NEPA). Section 102 (42 U.S.C.  4332) of NEPA mandates that 
``(2) all agencies of the Federal Government shall-- . . . (B) identify 
and develop methods and procedures . . . which will insure that 
presently unquantified environmental amenities and values may be given 
appropriate consideration in decisionmaking along with economic and 
technical considerations.'' As a result, each federal agency has 
developed its own unique methods and procedures. The Environmental 
Protection Agency (EPA), the Department of Health and Human Services 
(HHS) Indian Health Service (IHS), the Department of Agriculture 
(USDA), and the Department of Interior (DOI) Bureau of Indian Affairs 
(BIA), and Bureau of Reclamation (USBR) all have different checklists 
for their environmental reviews. For example, noise is a factor in a 
HUD environmental review, and HUD will not permit a home or structure 
to be constructed adjacent to a railroad or heavily travelled freeway 
without mitigation. Other factors that are considered only in HUD 
environmental reviews are flood insurance because of the Flood Disaster 
Protection Act, compliance with the Coastal Barriers Resources Act, and 
compliance with airport runway clear zones and clear zones disclosures.
    Also unique to HUD is that, after HUD awards grants to tribes and 
tribally designated housing entities, the tribes carry out the 
construction of the project including entering into grant agreements 
with other agencies.

    Question 4. As noted at the Committee's oversight hearing, 
``Identifying Barriers to Indian Housing Development and Finding 
Solutions,'' on April 10, 2013, the obligated, unexpended balance of 
Indian Housing Block Grant funds totals over $900 million. You 
testified that HUD will work with those tribes that have problems 
regarding expenditures to create realistic expenditure strategies and 
assess their administrative issues to find recommendations to 
streamline the process within their communities. Please identify the 
various reasons or causes for this large, unexpended balance of Indian 
Housing Block Grant funds.
    Answer. Beginning in Fiscal Year (FY) 1998, through FY 2012, 
Congress has appropriated more than $9.4 billion for the Indian Housing 
Block Grant (IHBG) program authorized under title I of NAHASDA. Indian 
tribes and their tribally designated housing entities have expended 
approximately $8.6 billion of those funds, or approximately 92 percent.
    On balance, very few recipients have large amounts of undisbursed 
IHBG funds. The vast majority of tribes expend their funds quickly and 
in the same year that funds are appropriated. One recipient in 
particular accounts for 53 percent of the unexpended balance. Excluding 
this tribe from the equation, the overall expenditure rate of IHBG 
funds would rise from 92 percent to over 95 percent.
    HUD's Office of Native American Programs (ONAP) works with the 
tribes that are slower to expend their funds, and it provides them with 
capacity-building training and technical assistance whenever requested. 
Additional action is taken if problems are discovered during monitoring 
reviews. HUD ONAP continues to employ all the tools available under 
NAHASDA to address these types of situations while still respecting 
tribal sovereignty and the ability of recipients to carry over IHBG 
funds from year to year. HUD ONAP has provided extensive technical 
assistance to the recipient with the highest balance of unexpended 
funds, and is now moving to enforcement action against this tribe for 
failure to carry out its planned NAHASDA activities in a timely manner. 
HUD is pursuing the repayment of a portion of the unexpended funds held 
by the recipient through this enforcement action while also affording 
the recipient due process. In program requirements, any funds 
recaptured by HUD must be reallocated under next year's NAHASDA 
allocation formula to all recipients in the program.

    Question 5. At what point does HUD consider an Indian tribe to have 
``spent'' its Indian Housing Block Grant funds?
    Answer. Funds are considered spent when all funds are drawn down 
from HUD's Line of Credit Control System (LOCCS) for the grant. After 
drawing down funds from LOCCS, recipients have 3 business days to 
expend the funds.
    Question 6. Please describe the administrative process required for 
an Indian tribe to spend its Indian Housing Block Grant funds, 
beginning with when congress finalizes the appropriations through the 
point when the funds are considered ``spent'' in HUD's accounting 
system?
    Answer. Within 10 days of budget enactment, HUD sends an 
Apportionment Request to the Office of Management and Budget (OMB) for 
approval within 30 days. After HUD's Chief Financial Officer receives 
the approval, an Advice of Allotment is sent to the Public and Indian 
Housing (PIH) Budget Office. After the Advice of Allotment is issued by 
HUD's PIH Budget Office, the IHBG formula can be applied to determine 
each grantee's award amount, and recipients are notified in writing. 
Fund assignments are issued to the six Area ONAPs. The Area Offices 
send grant agreements to each recipient for execution (assuming the 
recipient is eligible and has submitted a compliant Indian Housing 
Plan). Once HUD has received a signed agreement from the recipient and 
Congressional notification of the impending grant has been made, HUD 
can enter the funds into its LOCCS accounting system and make them 
available for drawdown by the recipient.
    This year, FY 2013, the appropriations were enacted March 26, and 
the funds were made available in mid-June.

    Question 7. What can be done, either administratively or 
legislatively, to help expedite the use of these funds so that the 
tribes can build houses? Please be specific.
    Answer. The majority of the tribes are spending their funds in a 
timely manner. HUD has proactively taken administrative measures to 
more quickly distribute the funds to tribes so they may access their 
grant funds earlier in the FY. While there is no specific statutory 
requirement in NAHASDA for IHBG recipients to expend their funds by a 
certain set date, HUD has authority to take enforcement action against 
a recipient that is failing to carry out eligible activities in a 
``timely manner.'' Up until FY 2012, there were no restrictions placed 
on IHBG funds by annual appropriations. The FY 2012 Appropriations Act 
contained language that required FY 2012 IHBG funds to be expended 
within 10 years. This language was also included in the recently passed 
FY 2013 Continuing Resolution. Given the ability of recipients to carry 
over grant funds from year to year, HUD's main tool to assist 
recipients with using their funds is through training and technical 
assistance. In response to an FY 2012 Notice of Funding Availability, 
HUD recently awarded $7 million to seven organizations to provide 
training and technical assistance

    Question 8. The February 25, 2010, Government Accountability Office 
(GAO) report, Native American Housing: Tribes Generally View Block 
Grant Program as Effective, but Tracking of Infrastructure Plans and 
Investments Needs Improvement, found that HUD was not tracking the 
information needed to fully assess the impact of NAHASDA on housing 
development in Indian country. The GAO made several recommendations 
including revisions to the Indian Housing Plan/Annual Performance 
Report [forms] required to be submitted from tribally designated 
housing entities. How does HUD now track the data necessary to fully 
assess the impact of NAHASDA on housing development in Indian Country?
    Answer. HUD ONAP relies on two critical tools for tracking NAHASDA-
funded housing and related infrastructure development in Indian 
Country: The Performance Tracking Database (PTD), and the Annual 
Performance Report (APR).
    The PTD is an Access database used to collect, analyze, and import 
housing and infrastructure development data. The PTD consists of 
multiple modules, and staff in each of the six Area ONAPs perform 
routine data entry and quality control. Headquarters creates a weekly 
roll-up of national data. The APR module is used to collect and track 
housing and infrastructure development data that recipients of IHBG 
funds submit in the APRs to ONAP.
    The APR is used by each IHBG recipient to report, among other 
things, on the number of housing units and infrastructure developed 
during the previous 12-month period. The APR is available in Microsoft 
Word and Excel versions, and will be available soon on HUD's EPIC 
website. The Excel and EPIC versions have numerous automated 
capabilities to ensure data quality and expedite the completion and 
review of the report. APR housing and infrastructure development data 
in the Excel and EPIC versions is imported directly into the PTD for 
regional and national assessment.
    The APR was revised in FY 2013, and the new form, among other 
things, collects information on infrastructure development for the 
first time in a comprehensive, organized way. HUD can evaluate the data 
to identify trends, set goals, and take appropriate management actions.

    Question 9. Has HUD experienced any additional problems in 
maintaining effective reporting from tribes? If so, what is being done 
to address these problems?
    Answer. In FY 2012, the format for reporting in the APR was revised 
to greatly ease the recipient's reporting burden while collecting more 
specific information on IHBG activities and accomplishments. The 
reports using the new format have only been submitted for two quarters, 
but the data available to HUD appears to be much improved. Once a 
year's worth of data has been submitted (end of calendar year 2013), 
HUD will conduct analysis on the data, and will have a clearer picture 
of the effectiveness of the format change.
    HUD would like to collect additional information from recipients; 
however, tribes must agree to share this additional data. During the 
negotiated rulemaking conducted for the purpose of implementing 
statutory amendments, HUD proposed regulatory provisions based on the 
recommendations of a tribal workgroup that would require IHBG 
recipients to report items such as housing construction unit costs, 
services to elders, and reductions in criminal activity (due to crime 
prevention and safety activities funded under IHBG). The Negotiated 
Rulemaking Committee was unable to reach consensus on the collection of 
this data, and it was removed from the reporting requirement in the 
revised IHBG regulations that became effective on January 2, 2013.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Begich to 
                             Rodger J. Boyd
    Remarks: In Alaska, NAHASDA enables the construction of 200 new 
homes each year. It funds the rehabilitation of 550 more annually. 
Recipients engage apprentices in construction trades, helping Alaska 
Native and American Indian individuals to learn job skills that they 
will carry with them for life. Through leveraging and the engagement of 
private sector contractors and vendors, NAHASDA also employs 2,250 
Alaskans each year. This is a very critical program for the Alaska 
Native community.

    Question 1. Will you please provide your perspective on the 
Negotiated Rulemaking process that is used to determine, among other 
things, the allocation formula for the Indian Housing Block Grant 
program?
    Answer. HUD believes the negotiated rulemaking process used to 
implement NAHASDA and determine the IHBG allocation formula is 
essential to the success of HUD's Indian housing programs. Central to 
NAHASDA and the way HUD does business is the respect for and belief in 
tribal sovereignty and tribal self-determination. The negotiated 
rulemaking process provides a forum for Indian tribes to make important 
decisions on how the statutory language of NAHASDA is implemented, 
particularly in the allocation of IHBG grant funds. HUD will conduct 
negotiated rulemaking on the IHBG allocation formula in FY 2013 and FY 
2014 with tribal representatives from the six HUD ONAP Areas 
representing small, medium, and large tribes.

    Question 2. What are some of the ways that tribes are successfully 
leveraging Indian Housing Block Grant funds to secure other sources of 
funding to address housing needs in Indian communities?
    Answer. Tribes are leveraging their IHBG funds by combining these 
funds with American Recovery and Reinvestment Act (ARRA) grants, Low 
Income Housing Tax Credits (LIHTC) and the Affordable Housing Program 
sponsored by the Federal Home Loan Bank. Tribes are also leveraging 
IHBG funds through the Title VI program. Under the Title VI program, 
borrowers pledge a portion of IHBG funds as security for private 
financing and can use their IHBG funds to pay the debt service on the 
loan, thereby maximizing the amount of IHBG funds by as much as five 
times the original grant amount. This program has provided an incentive 
for lenders to get involved in the development of tribal housing.
    HUD, through ONAP's Office of Loan Guarantee, encourages and 
facilitates the investment of private capital for the purpose of 
meeting tribal housing and infrastructure needs. Through the use of the 
Indian Housing Loan Guarantee and Title VI of NAHASDA, tribes are able 
to leverage the IHBG with other federal, state, foundation, and private 
capital to successfully finance tribal projects. Federal agency dollars 
are the seed money necessary to attract other funding sources. Federal 
loan guarantees provide additional stability to housing projects to 
mitigate the perceived risks associated with tribal development 
projects because there is less concern about default and ability to 
cover the loss.
    Ohkay Owingeh, formerly known as the San Juan Pueblo in New Mexico, 
has shown outstanding innovation in obtaining sources of funding for 
housing. The tribe and its housing authority have leveraged LIHTC with 
IHBG funding, Rural Housing and Economic Development funding, HOME 
funding, and other sources to develop the 40-unit Tsigo Bugeh Village. 
They have also pursued an extensive housing rehabilitation program 
using a combination of IHBG funding and Indian Community Development 
Block Grant funding. Currently, they are pursuing New Market Tax 
Credits to develop additional housing that will support their economic 
stability.
    The Puyallup Tribe's reservation in Tacoma, Washington is one of 
the most urban Indian reservations in the country. In 2012, the housing 
authority dedicated 10 units of low-income rental housing, a new 
community center, and a maintenance building. The energy-efficient 
units (an LEED Platinum project) were built using the tribe's IHBG and 
funds from the ARRA.
    The Ysleta Del Sur Pueblo, in El Paso, Texas recently constructed 
30 duplex units, 34 single-family homes, and the related roads, sewer, 
water, sidewalks, gutters, and street lighting. The $16 million project 
was funded by HUD's IHBGs, Recovery Act funds, a HUD guaranteed loan, 
the BIA, the IHS, the Federal Highway Administration, tribal 
contributions, and LIHTC.
    Pleasant Point Passamaquoddy Tribe in Maine leveraged $272,000 in 
Title VI finances with LIHTC and grant funds from the following: Boston 
Federal Home Loan Bank, Affordable Housing Program, HUD HOME funds, BIA 
Roads, IHS, and USDA Water and Sewer funding to build 28 single-family 
homes and a community center.
    IHBG is considered seed money for those tribes that are able to do 
more development. In FY 2012, 100 percent of LIHTC for the state of 
Alaska was awarded to the Cook Inlet Housing Authority.

    Question 3. Understanding that each tribe faces unique 
circumstances, what are two or three of the most common issues that 
delay Indian housing projects that are beyond recipients' control? 
What, if anything, can Congress do to address those issues?
    Answer. Projects can be delayed due to the following: lack of 
recipient capacity; turnover in staff and leadership on the tribal 
level; severe weather including natural disasters such as floods, 
fires, tornadoes, and hurricanes; complications and delays related to 
non-HUD funding sources; slow approval of some leases by the BIA on 
trust property; and environmental review discoveries such as 
contaminants or artifacts. Additionally, because recipients rely on 
their IHBG awards to sustain their housing programs, they must 
carefully plan for the use of these funds. Some recipients totally 
exhaust their prior year funding because of their great housing needs 
and the lack of annual funding that does not include an inflation 
adjustment factor. A delay in annual appropriations causes some to have 
to secure bridge loans to cover costs until annual funding is 
available.

    Question 4. This funding environment is, as we all know, very 
difficult. In addition to ensuring that funding levels are appropriate, 
it is imperative that we work to identify as many budget-neutral ways 
as possible to improve Indian housing programs. What, in your opinion, 
is the best means for Congress to engage in that sort of meaningful 
reform?
    Answer. Tribal recipients and HUD have partnered over the years to 
identify and implement budget-neutral ways to improve Indian housing 
programs in light of level funding that does not account for inflation. 
Congress has assisted in this effort with adopting many provisions as 
part of the 2008 NAHASDA reauthorization which streamline reporting 
requirements and allow tribes more flexibility to tailor their housing 
programs to meet their needs. NAHASDA is once again up for 
reauthorization this year which provides Congress with an opportunity 
to consider meaningful reform.
    NAHASDA is successful in Indian Country. Tribes strongly support 
the NAHASDA programs, and can produce results with the funds that are 
awarded to them. HUD, through its program administration and negotiated 
rulemaking with the tribes, has taken measures to improve the 
efficiencies and outcomes of the program. In partnership with the 
tribes, HUD has streamlined reporting requirements while it has 
increased the amount of data received from grantees.
    IHBG funds are now managed so that the oldest grant funds are the 
first to be expended, and most tribes can now get their IHBG funding 
with 4 months of Congressional appropriation. Previous to 
administrative changes implemented in 2012, it could take up to 10 
months for a tribe to receive a given FY's funding. In January 2013, a 
final rule was published implementing negotiated regulations that 
implemented the changes of the 2008 NAHASDA reauthorization. Budget-
neutral ways to improve the program include support of NAHASDA 
reauthorization and streamlining environmental requirements as 
discussed earlier in this response.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John Barrasso to 
                           Cheryl A. Causley
    Maintaining statutory and regulatory compliance in Indian housing 
programs is a key feature of the NAHASDA. In your testimony before the 
Committee on April 10, 2013, you stated that recent appropriations 
bills have ``radically changed'' the manner in which funds are 
allocated for Indian housing training and technical assistance.
    Question 1. Please elaborate on whether, how, or to what extent 
those changes have improved tribes' compliance in their housing 
programs?
    Answer. This question calls for a two-part answer. First, the 
language of section 703 of NAHASDA is clear and provides that ``(t)here 
are authorized to be appropriated for assistance for a national 
organization representing Native America housing interests for 
providing training and technical assistance to Indian housing 
authorizes and tribally-designated entities such sums as may be 
necessary [for subsequent fiscal years].'' Italics supplied, 25 U.S.C. 
 4212.
    For more than a decade, all Training and Technical Assistance 
(T&TA) funding has been routed exclusively through the National 
American Indian Housing Council (NAIHC)--the only national housing 
organization dedicated to building capacity in tribes for purposes of 
administering assistance under the NAHASDA.
    Despite the plain language of section 703 of NAHASDA, congressional 
appropriators radically changed the allocation of T&TA funds by opening 
an already limited amount of T&TA funds ($2 million to $3.5 million), 
to ``national or regional organizations representing Native American 
housing interests.'' Section 703 language was negotiated among tribal 
leaders and Indian housing professionals and has been supported each 
year by the stakeholders of the Indian Housing Block Grant funds.
    In turn, and without tribal consultation, the Department of Housing 
and Urban Development (HUD) recently awarded Fiscal Year 2012 T&TA 
funding to no fewer than 8 entities, several of whom have little to no 
experience working with Indian tribes, let alone experience in 
providing T&TA to tribes and their tribally-designated housing 
entities. The FY2012 distribution is as follows:

  <bullet> Association of Alaska Housing Authority--$1.5 million
  <bullet> National American Indian Housing Council--$1.35 million
  <bullet> ICF Incorporated--$1 million
  <bullet> FirstPic--$1 million
  <bullet> Econometrica--$1 million
  <bullet> National Congress of American Indians--$750,000
  <bullet> Red Lake Housing Authority--$400,000
  <bullet> Pacific American Foundation--$350,000

    While it is premature to tell whether this change has improved 
compliance and expedited the outlay of block grant funds, in calendar 
2012 NAIHC completed 107 on-site technical assistance visits to tribes 
and tribal housing programs. NAIHC also provided twelve (12) training 
sessions at regional Indian housing association meetings and forty-two 
(42) classroom sessions on topics unique to tribal housing operations 
and management. Over 1,200 tribal housing professionals attended NAIHC 
trainings in 2012. NAIHC is currently offering training and technical 
services under its current cooperative agreement with HUD's Office of 
Native American Programs.
    Most technical assistance requests by tribes and their Tribally 
Designated Housing Entities are fulfilled by NAIHC within three weeks. 
For Fiscal Year 2011, NAIHC was awarded $3.5 million and $1.35 million 
in Fiscal Year 2012 for T&TA funding. With a drop in $2.2 million, 
NAIHC will be limited in providing much needed T&TA services for Fiscal 
Year 2012. The President's Fiscal Year 2014 budget request again zeros 
out T&TA funding for NAIHC.

    Question 2. Does the HIP program duplicate the Department of 
Housing and Urban Development (HUD) Indian housing programs or any 
other Federal housing program? If so, how?
    Answer. The BIA's Housing Improvement Program (HIP) provides grant 
funding for home improvement and replacement and serves American Indian 
and Alaska Natives who have substandard housing or no housing at all 
and have no immediate source of housing assistance.
    Other federal housing resources available to American Indians and 
Alaska Natives are provided by the U.S. Department of Agriculture 
(USDA) Rural Housing Program, and the U.S. Department of Veterans 
Affairs Direct Home Loan Program, which provides direct loans to Indian 
veterans who are members of federally-recognized tribes, for the 
purchase, construction, refinancing, or improvement of homes located on 
Federal trust lands.

    Question 3. In light of the various Federal housing programs, 
particularly the HUD Indian housing programs, does the HIP remain a 
significant or meaningful component of Indian housing strategies? How 
should the HIP be improved to facilitate Indian housing strategies?
    Answer. Even though the President's Fiscal Year 2014 budget request 
proposes to eliminate the HIP program altogether, it is our view that 
HIP provides important assistance for Indian housing. The BIA HIP 
program allows flexibility in reaching the neediest Native people--low, 
no income, handicapped and the elderly. BIA HIP has been the long 
standing federal Indian housing program that has evolved over the years 
to include interacting with other federal agencies to address a variety 
of barriers, including repair, renovation and replacement of existing 
housing.
    As Indian country continues to experience dwindling federal 
resources for Indian housing and community development programs, NAIHC 
feels the HIP program continues to play an important role in tribal 
housing development and strongly urges Congress and the Administration 
to fund the program at significantly higher levels in order to meet its 
mission. Additionally, the income guidelines for the BIA's HIP program 
should be revised to reflect the current cost of housing. Currently 
established at 125 percent of poverty, there remains a gap between what 
clients can afford and their eligibility for assistance.

    Question 4. Your written statement indicates that tribal housing 
entities are increasingly encouraged to leverage their Indian housing 
block grant funding to secure other sources of financing. It further 
notes that solutions to address the current housing conditions in 
Indian communities include new and innovative partnerships between the 
Federal and tribal governments as well as the private sector. Could you 
elaborate further on how tribes leverage their Indian housing block 
grant funds?

    Question 4a. Are there any particular barriers or impediments 
tribes face in attempting to leverage their Indian housing block grant 
funds?
    Answer. ``Leveraging'' scarce funding is a common approach to 
financing not just housing but capital goods and other large-scale 
investment in general. Tribes and tribal members are no different and 
are increasingly encouraged to leverage their IHBG funding to secure 
other sources of financing, such as Low Income Housing Tax Credits.
    They are also beginning to combine funding streams from multiple 
sources such as the USDA Rural Development, U.S. Treasury Department's 
Community Development Financial Institutions Fund, the Federal Home 
Loan Bank, private foundations, and commercial banks. Even this, 
though, can be difficult because compliance requirements vary from 
program to program and agency to agency, presenting unnecessary 
barriers to efficient administration of multiple funding streams and 
limiting the ability of tribes to access multiple programs in an effort 
to reach adequate scale.
    While tribes are doing their best to minimize these barriers and 
achieve economies of scale that accompany resource ``pooling,'' one 
solution this Committee might investigate is to launch a demonstration 
project authorizing tribes to reach across the spectrum of federal 
programs to access currently disparate programs and resources. This is 
already being done in the realm of labor and employment training with 
the universally popular Indian Employment, Training and Related 
Services Act (Pub.L.102-477), otherwise known as the ``477 Program.''

    Question 5. Please identify the various reasons for this large, 
unexpended balance of Indian housing block grant funds?
    Answer. As noted at the Committee's oversight hearing, 
``Identifying Barriers to Indian Housing Development and Finding 
Solutions,'' on April 10, 2013, the total obligated, unexpended balance 
of Indian housing block grant funds currently totals nearly $900 
million.
    When this figure is put in proper context, however, the dollar 
figure drops precipitously: the $900 million figure provided by HUD 
actually includes funding from the FY 2011 and FY 2012 cycles. Not only 
does NAHASDA authorize the carryover of funds for a period of years, 
but as a practical matter and laid out in more detail below, housing 
and related infrastructure construction routinely takes 3 to 5 years to 
complete. When these two fiscal years' worth of block grants are 
removed from the calculation, the total amount of obligated, unexpended 
funds total approximately one-third of the yearly amount appropriated.
    When housing is built with NAHASDA funding, the money is rarely 
spent the same year it is received. Rather, a developer will engage in 
a process that includes leveraging the federal investment to obtain 
additional funding from state, local, and private sources, procuring 
the land through a purchase or lease, engaging in project design, and 
finally, beginning construction.
    Leveraging and predevelopment often require a year or more, and 
site acquisition can be particularly cumbersome when land leasing is 
involved. The design and construction of larger projects typically 
takes one to two years. More complex projects, such as those which 
require remediation of environmental contamination, take additional 
time, due in large part to regulatory requirements.
    The barriers that do exist in the timely expenditure of funds 
derive largely from delays incurred in the transfer of funds from HUD 
to tribal recipients, and delays in seeking and securing required 
approvals by tribal recipients from HUD and the Interior Department.
    For example, each and every surface lease of trust land for 
residential/housing purposes have historically required the review and 
approval of the Interior Secretary. While leases of fee land may take 
days or weeks to develop and execute, reviews and approvals of leases 
of trust land have taken months if not years. Once implemented, the 
recently enacted HEARTH Act will authorize Indian tribes to develop and 
manage their own surface leasing laws without the review or approval of 
the Interior Secretary. Hopefully, this year's reauthorization of the 
NAHASDA statute will carry with it other creative solutions to barriers 
that continue to hamper fund expenditure and housing development.
    Other barriers include seasonal construction in areas like Alaska, 
statutory requirements such as National Environmental Protection Act 
(NEPA) compliance, weak or non-existent transportation and 
infrastructure, and generally poor economic conditions.

    Question 6. What can be done, either administratively or 
legislatively, to help expedite the use of these funds so that the 
tribes can build homes? Please be specific.
    Answer. To help expedite the use of these funds, the following 
needs to be considered:

  <bullet> Set strict deadlines for federal approvals to occur and, 
        absent approval, amend NAHASDA to have such requirements 
        ``deemed approved;''

  <bullet> Streamline or ``tribalize'' federal environmental review 
        requirements as was done in the HEARTH Act which does not 
        include NEPA compliance, but does require tribes to establish 
        meaningful environmental review processes that include public 
        notice and a reasonable dispute resolution mechanism;

  <bullet> Provide targeted technical assistance that will teach 
        recipients how to timely navigate a labyrinth of federal 
        regulatory requirements;

  <bullet> More discipline in the federal budget and appropriations 
        process so that recipients could better plan to spend funding 
        once it is received if the federal budget process offered 
        better predictability in both the timing and amount of funding 
        to be received;

  <bullet> Improved coordination among federal agencies to provide 
        programmatic consistency and interagency collaboration;

  <bullet> Investigate the feasibility of ``638-ing'' NAHASDA and put 
        the tribes in the decisionmaking driver's seat rather than HUD. 
        The 2005 study and report conducted by HUD falls far short of a 
        clinical review of this idea and the Committee should launch 
        its own review of this matter, or request the Government 
        Accountability Office to undertake such a review;

  <bullet> Permit tribes to blend funding from multiple agencies, for 
        instance by authorizing the use of funding for sanitation 
        facilities appropriated to the Indian Health Services when 
        constructing new homes funded by HUD; and

  <bullet> Other specific proposals contained in the draft 
        reauthorization of the NAHASDA.

    Question 7. Your written testimony notes that tribal communities 
suffer from some of the worst housing conditions in the United States 
and delays in necessary approvals and funding by the Federal government 
are a contribution factor. Ms. Annette Bryan also testified that there 
is no timeline for the Department of Housing and Urban Development 
(HUD) to act on a waiver request of the Local Cooperation Agreement 
required by the Native American Housing Assistance and Self 
Determination Act (NAHASDA).
    In addition to the waiver request, please elaborate on other 
NAHASDA requirements that may cause tribes to experience delays in 
receiving Federal funding or approvals. How should the NAHASDA be 
amended to expedite Federal decisionmaking?
    Answer. See answers to question immediately above.
    Congratulations, again, on becoming the Chairwoman of this esteemed 
Committee, and thank you for your ongoing leadership in the realm of 
Indian housing.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John Barrasso to 
                           Russell Sossamon 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  <all>

</pre></body></html>
